NO. __________
IN THE

Supreme Court of the United States
THOMAS MORE LAW CENTER,

Petitioner,

v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
LOUIS H. CASTORIA
KAUFMAN DOLOWICH &
VOLUCK, LLP
425 California Street
Suite 2100
San Francisco, CA 94104
(415) 926-7600
lcastoria@kdvlaw.com

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

i
QUESTIONS PRESENTED
Petitioner Thomas More Law Center is a Michigan
501(c)(3) that defends religious freedom, family
values, and the sanctity of life. To fundraise, the Law
Center registered with the California Attorney General and made annual filings to his Register of Charitable Trusts. After a decade of accepting these filings
without complaints, the Attorney General deemed
them insufficient because, although they included the
Law Center’s IRS Form 990, they omitted Schedule B
to that form, which identifies the Law Center’s major
donors. After the Attorney General threatened to
suspend its nonprofit registration and personally fine
its directors and tax preparer, the Law Center filed
suit to protect donor anonymity.
The district court enjoined the Attorney General’s
donor-disclosure rule because his office had an extensive record of disclosing that confidential material,
and donors were likely to face harassment and threats
as a result. Because this disclosure rule arises outside
the electoral context, six circuits would apply strict
scrutiny. But the Ninth Circuit upheld the rule,
joining the Second Circuit in holding that “there is
only a single test—exacting scrutiny—that applies
both within and without the electoral context.”
App.133a–34a. The questions presented are:
1. Whether exacting scrutiny or strict scrutiny
applies to disclosure requirements that burden nonelectoral, expressive association rights.
2. Whether California’s disclosure requirement
violates charities’ and their donors’ freedom of
association and speech facially or as applied to the
Law Center.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioner is Thomas More Law Center. Respondent is Xavier Becerra, successor to Kamala Harris as
Attorney General of the State of California. In the
Ninth Circuit, Petitioner’s case was combined for
decision with Americans for Prosperity Foundation’s
similar lawsuit against Respondent.
Petitioner Thomas More Law Center is a Michigan
nonprofit corporation with no parent corporation. No
publicly held company owns 10% or more of its stock.
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Ninth Circuit, Nos.
16-56855 & 16-56902, Thomas More Law Center v.
Becerra, judgment entered September 11, 2018, en
banc review denied March 29, 2019, mandate
withdrawn August 5, 2019.
U.S. Court of Appeals for the Ninth Circuit, No.
15-55911, Thomas More Law Center v. Harris,
judgment entered December 29, 2015, en banc review
denied April 6, 2016.
U.S. District Court for the Central District of
California, No. 2:15-cv-03048-R-FFM, final judgment
entered November 16, 2016.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE .............................. ii
TABLE OF AUTHORITIES ..................................... ix
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 2
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS........................................................ 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 5
A. The Attorney General’s blanket disclosure
rule. .................................................................. 5
B. The Attorney General’s history of
disclosing donor information........................... 8
C. The Attorney General’s demand that the
Law Center divulge its Schedule B. ............... 9
D. Lower Court Proceedings .............................. 11
REASONS FOR GRANTING THE WRIT............... 16

iv
I. The Ninth Circuit’s ruling conflicts with this
Court’s precedent, which applies strict
scrutiny to disclosure and related mandates
outside the electoral context............................... 17
A. Freedom of association protects charities
against government attempts to unmask
their anonymous donors. ............................... 17
B. This Court applies strict scrutiny to
disclosure rules—like the Attorney
General’s—that burden freedom of
association outside the electoral context. ..... 21
C. This Court designed “exacting” scrutiny for
disclosures related to elections and has
never applied that lower standard outside
the electoral context. ..................................... 23
D. The Ninth Circuit’s contrary ruling
jeopardizes association rights. ...................... 26
1. Under strict scrutiny, the Attorney
General’s blanket-disclosure rule is
facially unconstitutional. ......................... 27
2. The Attorney General’s disclosure
mandate is unconstitutional as applied
under any standard.................................. 29
II. The Ninth Circuit’s decision intensifies a
mature, 6-2 circuit split. ..................................... 32
III.This case is an ideal vehicle to resolve a
circuit conflict that has severe ramifications
for charities nationwide. ..................................... 35
CONCLUSION ......................................................... 38

v
APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the Ninth
Circuit,
Opinion in 16-56855 and 16-56902
Issued September 11, 2018 ...................................... 1a
United States District Court for the Central
District of California,
Order for Judgment in Favor of Plaintiff
in 2:15-cv-03048
Issued November 16, 2016 ..................................... 51a
United States District Court for the Central
District of California,
Order Denying Summary Judgment
in 2:15-cv-03048
Issued July 18, 2016 .............................................. 68a
United States District Court for the Central
District of California,
Order Modifying Preliminary Injunction
in 2:15-cv-03048
Issued January 5, 2016 .......................................... 74a
United States Court of Appeals for the Ninth
Circuit,
Opinion in 15-55911
Issued December 29, 2015 ..................................... 76a
United States District Court for the Central
District of California,
Order Issuing Preliminary Injunction
in 2:15-cv-03048
Issued May 19, 2015 .............................................. 90a

vi
United States District Court for the Central
District of California,
Order Granting Temporary Protective Order
in 2:15-cv-03048
Issued April 29, 2015 ............................................. 97a
United States Court of Appeals for the Ninth
Circuit,
Order Denying Petitions for Rehearing En Banc
in 16-56855 and 16-56902,
Issued March 29, 2019 ......................................... 104a
United States Court of Appeals for the Ninth
Circuit,
Order Denying Petition for Panel Rehearing or
Rehearing En Banc in 15-55911
Issued April 6, 2016 ............................................. 146a
California Gov. Code § 12585 .............................. 148a
California Gov. Code § 12586 .............................. 149a
California Gov. Code § 12590 .............................. 150a
11 California Code of Regulations § 300 ............. 151a
11 California Code of Regulations § 301 ............. 152a
11 California Code of Regulations § 303 ............. 153a
11 California Code of Regulations § 305 ............. 154a
11 California Code of Regulations § 306 ............. 155a
11 California Code of Regulations § 310 ............. 156a
11 California Code of Regulations § 315 ............. 157a

vii
11 California Code of Regulations § 316 ............. 157a
26 U.S.C. 6104 ...................................................... 158a
26 U.S.C. 7213 ...................................................... 159a
26 U.S.C. 7213A ................................................... 160a
26 C.F.R. § 1.6033-2 ............................................. 161a
Letter from California to Thomas More dated
March 6, 2012 ....................................................... 163a
Letter from Thomas More to California dated
March 14, 2012 ..................................................... 165a
Letter from Thomas More Counsel to California
dated April 11, 2012 ............................................. 167a
Letter from California to Thomas More dated
April 19, 2013 ....................................................... 169a
Letter from Thomas More to California dated
April 24, 2013 ....................................................... 171a
Letter from California to Thomas More dated
October 22, 2013................................................... 173a
Letter from Thomas More to California dated
October 28, 2013................................................... 175a
Letter from California to Thomas More dated
April 23, 2014 ....................................................... 177a
Letter from California to Thomas More dated
October 31, 2014................................................... 179a

viii
Letter from California to Thomas More dated
March 24, 2015 ..................................................... 181a
Letter from Thomas More Counsel to California
dated April 7, 2015 ............................................... 184a

ix
TABLE OF AUTHORITIES
Cases
Americans for Prosperity Foundation v. Harris,
182 F. Supp. 3d 1049 (C.D. Cal. 2016) .................. 8
Bates v. City of Little Rock,
361 U.S. 516 (1960) .................................. 18–19, 21
Boy Scouts of America v. Dale,
530 U.S. 640 (2000) ........................................ 18, 22
Brown v. Socialist Workers ’74 Campaign
Committee,
459 U.S. 87 (1982) ................................................ 24
Buckley v. Valeo,
424 U.S. 1 (1976) ........................................... passim
Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015) ........................ 11, 28
Citizens United v. FEC,
558 U.S. 310 (2010) ....................................... passim
Citizens United v. Schneiderman,
882 F.3d 374 (2d Cir. 2018) ................................. 32
Clark v. Library of Congress,
750 F.2d 89 (D.C. Cir. 1984) .......................... 34–35
Davis v. FEC,
554 U.S. 724 (2008) .............................................. 25
Familias Unidas v. Briscoe,
619 F.2d 391 (5th Cir. 1980) .......................... 33–34
FEC v. National Conservative Political Action
Committee,
470 U.S. 480 (1985) .............................................. 17

x
Gibson v. Florida Legislative Investigation
Committee,
372 U.S. 539 (1963) .............................17–18, 21–22
Humphreys, Hutcheson & Moseley v. Donovan,
755 F.2d 1211 (6th Cir. 1985) .............................. 34
John Doe No. 1 v. Reed,
561 U.S. 186 (2010) .............................14, 19, 25, 36
Knox v. Service Employees International Union,
567 U.S. 298 (2012) ........................................ 19, 22
Kusper v. Pontikes,
414 U.S. 51 (1973) .......................................... 17–18
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961) .................................. 19, 22, 30
Master Printers of America v. Donovan,
751 F.2d 700 (4th Cir. 1984) ................................ 33
McCutcheon v. FEC,
572 U.S. 185 (2014) ........................................ 20, 25
McIntyre v. Ohio Elections Commission,
514 U.S. 334 (1995) .............................................. 20
NAACP v. Alabama,
357 U.S. 449 (1958) ....................................... passim
NAACP v. Alabama,
377 U.S. 288 (1964) .............................................. 22
NAACP v. Button,
371 U.S. 415 (1963) ........................................ 23, 30
Pleasant v. Lovell,
876 F.2d 787 (10th Cir. 1989) .............................. 34
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) .......................................... 21

xi
Riley v. National Federation of the Blind of North
Carolina, Inc.,
487 U.S. 781 (1988) .............................18, 20, 29–30
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) .............................................. 22
Rumsfeld v. Forum for Academic & Institutional
Rights, Inc.,
547 U.S. 47 (2006) ................................................ 18
Secretary of State of Maryland v. Joseph H. Munson
Co.,
467 U.S. 947 (1984) .................................. 18, 28–29
Shelton v. Tucker,
364 U.S. 479 (1960) ........................................ 22, 28
Turner Broadcasting System, Inc. v. FCC,
520 U.S. 180 (1997) .............................................. 24
United States v. Comley,
890 F.2d 539 (1st Cir. 1989) ................................ 33
Village of Schaumburg v. Citizens for a Better
Environment,
444 U.S. 620 (1980) ........................................ 18, 28
Statutes
26 U.S.C. 6104 ............................................................ 7
26 U.S.C. 7213 ............................................................ 7
26 U.S.C. 7213A ......................................................... 7
28 U.S.C. 1331 ............................................................ 2
28 U.S.C. 1254(1) ....................................................... 2
28 U.S.C. 1291 ............................................................ 2

xii
Regulations
11 Cal. Code Regs. 301 ............................................... 5
11 Cal. Code Regs. 303 ............................................... 5
11 Cal. Code Regs. 305 ............................................... 5
11 Cal. Code Regs. 310 (2015) ................................... 6
11 Cal. Code Regs. 310(b) (2016) ............................... 6
26 C.F.R. 1.6033-2(A)(2) ............................................ 5
Cal. Gov. Code 12581 ................................................. 5
Cal. Gov. Code 12582.1 .............................................. 5
Cal. Gov. Code 12584-86 ............................................ 5
Cal. Gov. Code 12586-87 ............................................ 5
Cal. Gov. Code 12590 ................................................. 6
Constitutional Provisions
U.S. Const. amend I ................................................... 2
U.S. Const. amend XIV .............................................. 2

1
DECISIONS BELOW
The district court’s unreported ruling granting
Petitioner’s application for temporary protective
order is reprinted in the Appendix (“App.”) at
App.97a–103a.
The district court’s unreported opinion granting
Petitioner’s motion for preliminary injunction is
reprinted at App.90a–96a. The Ninth Circuit’s
decision vacating the preliminary injunction with
instructions is reported at 809 F.3d 536 (9th Cir.
2015) and reprinted at App.76a–89a. The district
court’s unreported order enjoining the Attorney
General from publicly disclosing the Law Center’s
Schedule B forms is reprinted at App.74a–75a.
The district court’s unreported ruling denying the
parties’ competing motions for summary judgment is
reprinted at App.68a–73a.
The district court’s opinion granting Petitioner’s
motion for a permanent injunction is unreported but
available at No. 2:15-cv-03048-R-FFM, 2016 WL
6781090 (C.D. Cal. Nov. 16, 2016), and reprinted at
App.51a–67a. The Ninth Circuit’s decision vacating,
reversing, and remanding is reported at 903 F.3d
1000 (9th Cir. 2018) and reprinted at App.1a–50a.
The Ninth Circuit’s order denying rehearing en banc
with five judges dissenting is reported at 919 F.3d
1177 (9th Cir. 2019) and reprinted at App.104a–45a.

2
STATEMENT OF JURISDICTION
On September 11, 2018, the Ninth Circuit issued
its opinion vacating, reversing, and remanding, and
on March 29, 2019, the Ninth Circuit denied
rehearing en banc. Lower courts had jurisdiction
under 28 U.S.C. 1331 and 28 U.S.C. 1291. On June 5,
2019, Justice Kagan extended the time to file a
petition for a writ of certiorari to August 26, 2019.
This Court has jurisdiction under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS
The First Amendment to the United States
Constitution provides, in relevant part: “Congress
shall make no law . . . abridging the freedom of speech,
. . . or the right of the people peaceably to assemble.”
U.S. Const. amend I.
The Fourteenth Amendment to the United States
Constitution provides, in relevant part: “[N]or shall
any State deprive any person of life, liberty, or
property, without due process of law . . . .” U.S. Const.
amend XIV.
Excerpts from relevant California statutes appear
at App.148a–50a, and excerpts from California
regulations appear at App.151a–57a. Excerpts from
pertinent federal statutes are included at App.158a–
61a, and excerpts from federal regulations appear at
App.161a–62a.

3
INTRODUCTION
The California Attorney General demands that
thousands of nonprofits fundraising in the State
annually turn over their major donors’ names and
addresses. After a bench trial, the district court found
that the Attorney General’s Office leaks confidential
records like a sieve. The Registry of Charitable Trusts
is understaffed and poorly funded. It negligently
posted nearly 1,800 IRS Form 990 Schedule Bs online,
including one listing Planned Parenthood Affiliates of
California’s supporters. The district court further
found that once the State posts donors’ personal
information on the internet, it remains public forever
and puts donors’ and their families’ privacy at risk.
For those associated with charities that speak on
contentious matters—like Petitioner the Thomas
More Law Center (the “Law Center”)—disclosing
donor information to the Attorney General’s Registry
poses an imminent danger of hate mail, violence,
ostracization, and boycotts. Only the most stalwart
supporters will give money under such a toxic cloud.
Most will reasonably conclude that the risk of
association is too great, with the result that groups
who make the most threats will effectively shut down
those with whom they disagree.
Undeterred by these severe First Amendment
harms, the Attorney General continues to demand
donor disclosure. The Attorney General does so even
though his office hardly ever uses donor information
for any purpose, such data never launches or ends
fraud investigations, and the Attorney General may
obtain donor information in less overbroad and
intrusive ways.

4
The district court rightly enjoined the Attorney
General’s blanket disclosure requirement, which the
Attorney General acknowledged was at best a tool of
convenience. The Ninth Circuit reversed, applying
“exacting scrutiny,” a lenient standard designed for
disclosures that play a unique role in keeping
elections fair and honest. Buckley v. Valeo, 424 U.S.
1, 64–68 (1976) (per curiam). In so doing, the Ninth
Circuit cemented a circuit split between Second and
Ninth Circuit rulings that apply exacting scrutiny to
disclosure requirements outside the electoral context,
and decisions by the First, Fourth, Fifth, Sixth,
Tenth, and D.C. Circuits that apply strict scrutiny to
disclosures that are not election related. NAACP v.
Alabama, 357 U.S. 449, 463 (1958).
In the Second and Ninth Circuits, charities and
donors have no meaningful protection against disclosure mandates. As the en banc dissent explained,
states in those circuits only need to make “self-serving
assertions about efficient law enforcement” to overcome “threats, hostility, and economic reprisals” that
donors are likely to experience. App.128a. This low
bar eviscerates First Amendment protections this
Court has long recognized and puts donors and charities with contentious views at risk. App.127a–28a.
The Law Center and its clients speak on public
issues. Its employees, donors, and clients have faced
death threats, harassment, obscene emails, pornographic letters, and nationwide boycotts. Yet the
Ninth Circuit refused to protect the Law Center’s
donor information, jeopardizing its ability to fund
advocacy. This Court should grant review, resolve the
circuit conflict, and reaffirm that freedom of association and speech is vital for advocacy and democracy.

5
STATEMENT OF THE CASE
A. The Attorney General’s blanket disclosure rule.
California’s Supervision of Trustees and Fundraisers for Charitable Purposes Act requires nonprofits
fundraising in the state to register with the Attorney
General and file periodic reports. Cal. Gov. Code
12581, 12582.1, 12584-86. The Act leaves the content
of these reports to the Attorney General’s discretion.
Cal. Gov. Code 12586-87. By regulation, the Attorney
General requires charities to file with the Registry of
Charitable Trusts an Annual Registration Renewal
Fee Report, as well as the nonprofit’s annual IRS
Form 990. 11 Cal. Code Regs. 301, 303, 305.
For many years, the Attorney General interpreted
these disclosure regulations as merely requiring
charities to submit Form 990s without the schedules.
The Attorney General’s Office then abruptly changed
course. With no evidence of pervasive wrongdoing by
charitable trusts in California, it demanded that the
thousands of nonprofits fundraising in California
submit their Form 990s along with all attachments,
including Schedule B, as part of their annual reports.
Form 990’s Schedule B includes donors’ names,
complete addresses, total contributions, and types of
donations. Charities must generally disclose the
identities of donors who contributed $5,000 or more
on their Schedule Bs. 26 C.F.R. 1.6033-2(A)(2)(ii)(f).
But, in some instances, charities may opt instead to
list donors who gave more than 2% of the nonprofits’
total contributions for the year. 26 C.F.R. 1.60332(A)(2)(iii)(a).

6
Until well after this litigation began, no California
statutory or regulatory provision even nominally
guarded donors’ names and addresses from public
disclosure. To the contrary, the Charitable Purposes
Act mandated that reports filed with the Attorney
General generally be open to public inspection, Cal.
Gov. Code 12590, and the Attorney General’s
regulations made no exception for donors’ personal
information, 11 Cal. Code Regs. 310 (2015). The
Attorney General did have a longstanding informal
policy, which could be changed at any time, against
disclosing Schedule B forms to the public. But
employees inadvertently violated this policy regularly, and no penalties or terminations resulted.
Only after the blanket disclosure rule was
challenged in court did the Attorney General amend
the regulations to shield donor information from
disclosure—at least on paper. 11 Cal. Code Regs.
310(b) (2016). The Attorney General’s Office also
belatedly devised a system of automated and personal
reviews to identify documents that should be
classified as confidential and not made public online.
Yet the Attorney General’s new system does not
prevent employees and contractors from downloading, emailing, or printing donors’ names and
addresses and then disclosing them publicly. And the
Registrar admitted at trial that he cannot ensure the
confidentiality of donors’ identities once they are
submitted to the Registry. Second Br. of Appellee and
Cross-Appellant 19–20, No 16-56902 (9th Cir. Oct. 20,
2017) (“Appellee Br.”).
In contrast, the IRS has no publicly accessible
website through which donor privacy may even
potentially be violated. Congress bars the Secretary of

7
the Treasury from disclosing donors’ names or
addresses to the public. 26 U.S.C. 6104(b) & (d)(3)(A).
And any federal employee or contractor who even
accesses donors’ confidential information in an
unauthorized manner is subject to one year’s
imprisonment, a $1,000 fine, and dismissal. 26
U.S.C. 7213A. Those who willfully disclose supporters’ identities without authorization face even
harsher punishment: up to five years’ imprisonment,
up to $5,000 in fines, and dismissal. 26
U.S.C. 7213(a)(1).
Federal safeguards even covers third parties who
broadcast or solicit charities’ Schedule B data. Any
third party who receives donors’ confidential
information and prints or publishes it in an
unauthorized manner may be imprisoned for up to
five years and fined up to $5,000. 26
U.S.C. 7213(a)(3). Third parties who pay for donors’
names and addresses are subject to the same stiff
punishment. 26 U.S.C. 7213(a)(4).
As for California, its laws provide no penalties for
accessing, leaking, publishing, or soliciting donors’
names and addresses. That is likely because the
California Assembly never contemplated making
charities turn over this data in the first place.

8
B. The Attorney General’s history
disclosing donor information.

of

At one point, anyone could use a web browser to
access all the Registry’s confidential documents.
Appellee Br. 14; App123a. These records were theoretically invisible to the public eye, but they could be
revealed by altering a single digit at the end of a URL.
App.39a. This simple maneuver made all the
Schedule Bs that the Registry classified as
“confidential” publicly available.
In addition, Registry employees authorized access
to nearly 1,800 confidential Schedule Bs by
mislabeling them as “public” documents. App.123a.
This resulted in public disclosure of Planned Parenthood Affiliates of California, Inc.’s 2009 Schedule B,
containing the names and addresses of hundreds of
donors. App.123a. Only 7-10 days before the Law
Center’s trial, at least 40 Schedule Bs were still
erroneously classified as “public” documents on the
Registry’s website. Appellee Br. 14; App.123a–24a.
Roughly 1,500 other “confidential” documents were
also accessible via a quick web search. Appellee Br.
15.
The Attorney General’s failure to maintain the
confidentiality of nonprofits’ Schedule B forms was
systematic and foreseeable. Isolating Schedule Bs and
other confidential material is tedious, and there is
ample room for error. Ams. for Prosperity Found. v.
Harris, 182 F. Supp. 3d 1049, 1057 (C.D. Cal. 2016).
The Attorney General also perennially underfunds,
understaffs, and ill-equips the Registry to safeguard
confidential information. Ibid.

9
Just as important, by placing thousands of
confidential documents online, the Attorney General
created an ideal target for attacks. One individual
overloaded the Registry’s website to download
confidential documents even during this litigation.
Appellee Br. 15. Nonetheless, the Attorney General’s
Office has made no serious effort to evaluate or bolster
its cyber defenses. Id. at 19–20.
C. The Attorney General’s demand that the
Law Center divulge its Schedule B.
The Law Center is a 501(c)(3) organization based
in Michigan that defends and promotes America’s
Judeo-Christian heritage, religious freedom, moral
and family values, and the sanctity of human life.
Roughly 5% of its donors are California residents. The
Law Center operated as a charity in good standing
with the Attorney General from 2001 until 2012. For
over a decade, the Law Center’s annual reports to the
Registry included its IRS Form 990 but not the form’s
Schedule B. The Attorney General never investigated
the Law Center, and no one ever filed a complaint
against it.
In March 2012, the Registry sent the Law Center
a letter stating that its 2010 filing was “incomplete”
because it lacked Schedule B’s contributor names and
addresses. App.163a–64a. The Attorney General’s
Office demanded that the Form 990 filed with the
Registry be identical to that filed with the IRS.
App.163a. The Law Center responded that it had
never included its Schedule B “in any previous filing
for the State of California” and requested the legal
basis for this sudden policy change. App.165a.

10
The Registry never responded. Instead, it sent a
series of letters warning that the Law Center’s filings
for 2010, 2011, 2012, and 2013 were deficient because
they did not include “the names and addresses of
contributors.” App.169a–70a, 173a–74a, 177a–80a.
The Law Center retained Michigan counsel who
asked the Registry to direct all future communication
to him and provide counsel “the legal authority” for
the Attorney General’s demand for donor disclosure.
App.167a.
The Attorney General’s Office honored neither
request. Instead, it sent another letter threatening to
suspend the Law Center’s non-profit registration and
impose personal fines on its directors, officers, and
return preparers unless the Law Center handed over
its Schedule Bs within 30 days. App.181a–83a. In
response, the Law Center’s counsel noted the
“significant Constitutional questions involved and the
irreparable harm that would occur if my client is
required to provide Schedule B” information.
App.185a. The Law Center’s counsel asked the
Attorney General’s Office to defer any enforcement
action until existing legal challenges were resolved.
App.185a–86a. He explained that otherwise the Law
Center would be forced to file a lawsuit of its own.
App.186a. But the Attorney General would not defer,
forcing the Law Center to bring this lawsuit to protect
its donors’ anonymity.

11
D. Lower Court Proceedings
The Law Center filed suit in the U.S. District
Court for the Central District of California, alleging
that the Attorney General’s blanket disclosure rule
violated the Law Center’s and its donors’ freedom of
association. It requested a temporary restraining
order enjoining the Attorney General from demanding—or punishing the Law Center for refusing to
provide—donor names and addresses. The district
court granted that request, App.97a–103a, and later
converted the TRO into a preliminary injunction
because persons associated with the Law Center had
experienced threats, harassment, and other chilling
conduct, and the Attorney General had successfully
regulated charities without collecting Schedule Bs for
over a decade, App.94a–96a.
On appeal, the Ninth Circuit believed it was bound
by a prior decision declaring the Attorney General’s
Schedule-B-disclosure regime facially constitutional.
App.79a (citing Ctr. for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015)). Although an asapplied challenge was possible, the panel rebuffed the
Law Center’s claim based on an assumption that the
Registry would keep Schedule B forms confidential.
App.78a, 81a–85a. The Ninth Circuit applied exacting
scrutiny and deemed it irrelevant that the Attorney
General sought information about the Law Center’s
non-California donors because narrow tailoring was
not required. App.79a, 84a–85a. It doubted that any
charity could overcome the State’s “‘compelling interest’ in enforcing the law.” App.85a. But, because
California law appeared to make Schedule B forms
open to public inspection and the Attorney General

12
only promised a toothless confidentiality policy, the
Ninth Circuit approved a limited injunction that
allowed the Attorney General to collect Schedule Bs
while prohibiting public disclosure. App.86a–88a.
The Ninth Circuit denied en banc rehearing.
App.146a–47a. Meanwhile, the district court modified
its preliminary injunction per the Ninth Circuit’s
ruling. App.74a–75a. The district court later denied
the parties’ cross-motions for summary judgment,
App.68a–73a, and conducted a four-day bench trial.
Following trial, the district court granted final
judgment to the Law Center on its as-applied claim.
App.51a–67a. The court found that collecting Schedule Bs did not substantially assist the Attorney General’s monitoring of charities: out of 540 investigations over 10 years, the Attorney General’s Office had
only used Schedule B information in five cases, and
even then admitted the same data could have been
obtained other ways, such as through targeted
subpoenas or audits. App.55a. Because the Attorney
General effectively monitored charitable organizations for decades without Schedule Bs, the district
court concluded that the Attorney General could
effectively regulate the Law Center by narrower
means. App.57a–58a, 66a. And it distinguished freeassociation rulings in “the electoral context” that
required no narrow tailoring whatsoever. App.56a.
The district court further found that the Attorney
General’s new “protective” regulation would be of cold
comfort to donors. App.62a–63a. That regulation
formalized a confidentiality policy that the Registry
had violated with “a proven and substantial history of

13
inadvertent disclosures.” App.62a. Donors would still
reasonably fear public disclosure. App.63a.
This was particularly true of the Law Center’s
donors because it advocates on issues that “arouse
intense passions,” and the Law Center’s speech had
already produced “threats, harassing calls, intimidating and obscene emails, and even pornographic
letters.” App.59a. Supporting the Law Center’s views
had resulted in opponents wrongly labeling its cofounder and major donor, Thomas Monaghan, one of
the “most antigay persons in the country” and in a
national boycott of his chain of pizza-restaurants.
App.60a. One donor even anonymously sent cash to
the Law Center out of fear of creating any traceable
link, and the district court found that other donors
likely felt the same way. App.59a–61a. That finding
was supported by the unrebutted expert testimony of
Dr. Paul Schervish, the author of the only peerreviewed sociological study of anonymous-donor
behavior. Appellee Br. 12–14.
The irreparable harm to the Law Center’s and its
donors’ freedom of association and speech outweighed
the Attorney General’s interest in investigative
convenience and efficiency. App.66a. For decades, the
Attorney General protected the public against charitable fraud without Schedule B information and could
do so again, as all but three states do. App.66a. But
the “Law Center would be hard-pressed to regain the
trust of its donors and continue the exercise of its
First Amendment rights should it be required to
violate the trust and desires of its donors.” App.66a.
So the court permanently enjoined the Attorney
General from requiring the Law Center to file its
Schedule B with its annual report. App.67a.

14
Back on appeal, the Ninth Circuit reiterated that
its precedent barred the Law Center’s facial challenge, then reversed the district court’s as-applied
ruling and ordered judgment for the Attorney
General. App.43a–44a. The court applied exacting
scrutiny, a flexible standard for election-related disclosures. App.8a. The court asked only whether the
Attorney General’s disclosure rule was substantially
related to a sufficiently important government interest. App.16a (citing Doe v. Reed, 561 U.S. 186, 196
(2010)). It declined to apply strict scrutiny or any form
of narrow-tailoring analysis, App.17a–18a, disregarded every trial-court fact finding, and substituted
its own against all the evidence, App.33a–43a.
The Ninth Circuit concluded that the Attorney
General’s blanket-disclosure rule bore a substantial
relation to the State’s interest in preventing charitable fraud. App.8a, 20a, 25a. It cast aside the
substantial evidence of threats and harassment and
raised the bar for an as-applied exception, requiring
the Law Center to prove that its donors would likely
face harassment solely for providing the Law Center
money, App.34a–35a n.6, and then only if harassment
was “a foregone conclusion,” App.37a.
The Ninth Circuit also said that the Law Center
was unable to show a reasonably probability of harassment because the Attorney General’s new system
would avert public disclosure. App.37a–41a. It held
that the district court clearly erred in finding otherwise, despite ample evidence of the Registry’s systematic incompetence and the Attorney General’s lack of
effort to thwart hacks, punish leaks, or stop
employees and contractors from wrongly accessing,
downloading, or printing Schedule Bs. App.39a–43a.

15
The Ninth Circuit denied rehearing en banc over a
five-judge dissent. App.107a–08a. Judge Ikuta, joined
by Judges Callahan, Bea, Bennett, and R. Nelson,
would have granted review to bring Ninth Circuit
precedent “in line with Supreme Court jurisprudence”
and a majority of other circuits. App.108a–10a, 115a–
16a. The dissenters would have applied strict scrutiny
as articulated in this Court’s NAACP v. Alabama line
of cases, not exacting scrutiny, which only applies to
disclosures in the electoral context. App.108a, 110a,
113a–15a, 122a, 125a–28a. And the dissenters would
not have overturned the district court’s factual
findings that (1) it was reasonably likely donors’
names would be publicly disclosed, and (2) donors
would face harassment as a result. App.122a–25a.
Freedom of association “is vital to a functioning
civil society,” and “[f]or groups with ‘dissident beliefs,’
it is fragile.” App.129a. Because the panel’s opinion
gave donors to advocacy organizations no meaningful
protection, the dissenters stated that review was
necessary to avoid eviscerating “First Amendment
protections long-established by the Supreme Court.”
App.127a. That was particularly true because the
panel imposed “a next-to-impossible evidentiary
burden on plaintiffs seeking protection of their
associational rights.” App.128a. Accordingly, the
dissenters would have granted en banc review “to
reaffirm the vitality of NAACP v. Alabama’s
protective doctrine, and to clarify that Buckley’s
watered-down standard has no place outside of the
electoral context.” App.128a.

16
REASONS FOR GRANTING THE WRIT
Privacy of association is a fundamental right. It is
presumed that citizens’ beliefs and affiliations are
generally no concern of the state. Overcoming this
presumption should not be easy because officials may
use such information to penalize views they dislike.
And to say there is a blanket compelling interest in
donor disclosure flips the First Amendment on its
head, establishing a default rule of disclosure rather
than one of confidentiality
That is why, since NAACP v. Alabama, this Court
has subjected compelled disclosures that seriously
burden freedom of association—outside the electoral
context—to strict scrutiny. Yet in direct conflict with
this Court and the First, Fourth, Fifth, Sixth, Tenth,
and D.C. Circuits, the Second and Ninth Circuits
apply Buckley v. Valeo’s exacting-scrutiny standard to
non-election-related mandates requiring charities to
annually disclose their major donors.
Only this Court can resolve these conflicts and
protect the associational rights that ensure organizations and individuals can engage in public advocacy
without fear. It should do so now because recent
events have reiterated the importance of protecting
donor confidentiality, and because the Attorney
General’s blanket-disclosure rule is prophylactic,
imprecise, unduly burdensome, and facially violates
the First Amendment. Enforcing that rule against the
Law Center is also unconstitutional as applied
because the Center proved that its employees, donors,
and clients face intimidation, death threats, assassination attempts, hate mail, boycotts, and vitriol by
ideological opponents. Review is warranted.

17
I.

The Ninth Circuit’s ruling conflicts with this
Court’s precedent, which applies strict
scrutiny to disclosure and related mandates
outside the electoral context.

NAACP v. Alabama has safeguarded freedom of
association for 60 years. The Ninth Circuit has
rejected that teaching and “eviscerate[d] the First
Amendment protections long-established by” this
Court. App.127a.
A. Freedom of association protects charities
against government attempts to unmask
their anonymous donors.
The First and Fourteenth Amendments protect
charities’ freedom to associate with donors to
advocate shared ideals. Kusper v. Pontikes, 414 U.S.
51, 56-7 (1973). Privacy of association is a central
aspect of that right. Gibson v. Fla. Legislative
Investigation Comm., 372 U.S. 539, 544 (1963). This
Court has recognized that advocacy groups like the
Law Center have a “strong associational interest in
maintaining the privacy of membership lists,” id. at
555, and also that members and donors are treated
“interchangeably,” Buckley, 424 U.S. at 66. Donors
and members are equivalent because liking the
message they hear and desiring to amplify it is why
supporters contribute. FEC v. Nat’l Conservative
Political Action Comm., 470 U.S. 480, 495 (1985).
The Law Center—like hundreds of nonprofits
across the political spectrum—has a powerful interest
in protecting its donors’ privacy. Repeatedly, this
Court has “held laws unconstitutional that require
disclosure of membership lists for groups seeking

18
anonymity” outside the electoral context, Rumsfeld v.
Forum for Academic & Institutional Rights, Inc., 547
U.S. 47, 69 (2006), because the First Amendment’s
premise is distrust of government power. Citizens
United v. FEC, 558 U.S. 310, 340 (2010). Generally
speaking, a citizen’s beliefs, speech, and associations
“are no concern of government.” Gibson, 372 U.S. at
570 (Douglas, J., concurring). But disclosure rules
allow officials and persons who accidentally or
maliciously gain access to donors’ identities to expose
and penalize their views—serious ills that freedom of
association prevents. Boy Scouts of Am. v. Dale, 530
U.S. 640, 647-48 (2000).
That charitable donations involve money does not
lower the First Amendment stakes. This Court has
long safeguarded nonprofit solicitations as speech.
Riley v. Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S.
781, 789 (1988). And rightly so, because nonprofits’
requests for money are typically combined with information, advocacy, and discussion that is fully First
Amendment protected. Sec’y of State of Md. v. Joseph
H. Munson Co., 467 U.S. 947, 961 (1984). Without
donations, that speech will cease. Vill. of Schaumburg
v. Citizens for a Better Env’t, 444 U.S. 620, 632 (1980).
So this Court has safeguarded charities’ ability to
solicit donations. Ibid.; Riley, 487 U.S. at 801 n.13.
The First Amendment protects charities’ right not
just to associate but to do so effectively. Kusper, 414
U.S. at 58. And frontal attacks that bar or penalize
affiliation are not the only state actions that implicate
that right. Bates v. City of Little Rock, 361 U.S. 516,
523 (1960). “[R]egulatory measures . . . cannot be
employed in purpose or in effect to stifle, penalize, or
curb the exercise of First Amendment rights.”

19
Louisiana ex rel. Gremillion v. NAACP, 366 U.S. 293,
297 (1961). Here, the Attorney General’s disclosure
rule implicates the Law Center’s freedom of association because it has the “practical effect of discouraging” donors from giving to advance its advocacy.
NAACP v. Alabama, 357 U.S. at 461 (cleaned up).
Forcing nonprofits to disclose supporters’ names
and addresses as a matter of course is a serious
impediment to these freedoms. Because donations
expose backers’ most deeply held values and beliefs.
Buckley, 424 U.S. at 66, financial support has
“powerful political and civic consequences.” Knox v.
Serv. Emps. Int’l Union, 567 U.S. 298, 310 (2012).
Donors today—as in the Civil Rights Era—regularly
face harassment, threats of bodily harm, loss of
employment, and economic retaliation. Citizens
United, 558 U.S. at 482-83, 485 (Thomas, J.,
concurring in part and dissenting in part); NAACP v.
Alabama, 357 U.S. at 462. Such hostility discourages
new and existing donors alike. Bates, 361 U.S. at 524.
Because our society has never been more vehemently
polarized, fear of reprisal threatens to dry up funds to
the point that some viewpoints cannot survive.
Buckley, 424 U.S. at 71.
Given today’s incendiary social conditions, donors
rightly fear the Attorney General’s blanket-disclosure
rule. It is too easy for anyone with a computer to
access Schedule B data from the Registry and use it
to find and compile information about donors and
their families, including contact information, homes,
vehicles, and jobs. John Doe No. 1 v. Reed, 561 U.S.
186, 208 (2010) (Alito, J., concurring). The potential
for harassment, threats, and physical attacks is limitless. Ibid. As just one example, opponents of

20
California’s Proposition 8 compiled lists of donors and
created websites dedicated to those donors’ personal
destruction. Citizens United, 558 U.S. at 481
(Thomas, J., concurring and dissenting in part).
Supporters faced death threats, property damage,
and lost employment. Id. at 481-85.
These costs illustrate “the vital relationship
between freedom to associate and privacy in one’s
associations.” NAACP v. Alabama, 357 U.S. at 462.
Donors’ desire for anonymity stems from rational
fears of retaliation, social ostracization, and economic
ruin. McIntyre v. Ohio Elections Comm’n, 514 U.S.
334, 341-42 (1995). Donating anonymously—like
speaking anonymously—is “an honorable tradition of
advocacy,” “a shield from the tyranny of the majority”
that protects donors “from retaliation—and their
ideas from suppression—at the hand of an intolerant
society.” Id. at 357.
Access to Schedule Bs by any government agency
other than the IRS threatens to rob donors of privacy
and the Law Center of means to advocate its and its
donors’ views. Thus, the Attorney General’s disclosure regime poses severe First Amendment harms.
When the government burdens free speech and
association rights, it must prove that burden is
justified. McCutcheon v. FEC, 572 U.S. 185, 210
(2014). Instead, the Ninth Circuit relieved the
Attorney General of that burden and engaged in
“appellate factfinding,” “holding against all evidence
that the donors’ names would not be made public and
that the donors would not be harassed.” App.109a
(Ikuta, J., dissenting). And it did so even though such
broad prophylactic rules are inherently suspect under
the First Amendment. Riley, 487 U.S. at 801.

21
B. This Court applies strict scrutiny to
disclosure rules—like the Attorney
General’s—that burden freedom of
association outside the electoral context.
As NAACP v. Alabama and its progeny make
clear, strict scrutiny applies to disclosure rules that
seriously burden free association outside the electoral
context. Strict scrutiny requires the government to
show that its actions “are narrowly tailored to serve
compelling state interests.” Reed v. Town of Gilbert,
135 S. Ct. 2218, 2226 (2015).
During the Civil Rights Era, states devised all
manner of ploys to obtain NAACP member lists.
Exposing this affiliation often resulted in members
facing “economic reprisal, loss of employment, threat
of physical coercion, and other manifestations of
public hostility.” NAACP v. Alabama, 357 U.S. at 462.
Recognizing this, the Court established a stringent
standard for reviewing state efforts to compel
nonprofits to divulge their supporters.
NAACP v. Alabama held that the government’s
interest in enforcing disclosure rules that deter free
association “must be compelling.” 357 U.S. at 463
(cleaned up). Two years later, this Court reiterated
that government may only justify a disclosure
requirement that significantly interferes with
freedom of association by “showing a subordinating
interest which is compelling.” Bates, 361 U.S. at 524.
Government may not force citizens to reveal their
private affiliations based on anything less than a goal
“of overriding and compelling state interest.” Gibson,
372 U.S. at 546. Accord id. at 555 (requiring a
“compelling and subordinating state interest”).

22
No daylight exists between the NAACP v.
Alabama line of cases and the compelling-interest test
this Court traditionally uses to evaluate other
burdens on freedom of association. E.g., Knox, 567
U.S. at 314 (“mandatory associations are permissible
only when they serve a compelling state interest”)
(cleaned up); Dale, 530 U.S. at 648 (freedom of
association may only be “overridden by regulations
adopted to serve compelling state interests”) (cleaned
up); Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984)
(same). This Court consistently requires that the
government prove that non-election-related associational burdens serve a compelling interest.
This Court has also established that disclosure
rules “must be highly selective” or “narrowly drawn”
to survive First Amendment challenge. Gremillion,
366 U.S. at 296-97 (cleaned up). The Court has
expressed that principle in different ways, such as
requiring “a crucial relation” to the government’s
interest, or that the measure be “essential to
fulfillment of” the government’s purpose. Gibson, 372
U.S. at 549. Regardless, the gist has always been the
same: the state may not pursue even its legitimate
interests “‘by means that broadly stifle fundamental
personal liberties when the end can be more narrowly
achieved.’” NAACP v. Alabama, 377 U.S. 288, 307-08
(1964) (quoting Shelton v. Tucker, 364 U.S. 479, 488
(1960)).
Outside the disclosure context, this Court’s freeassociation cases incorporate a similar rule. Laws
that burden freedom of association “must not be
significantly broader than necessary to serve” the
government’s interest. Knox, 567 U.S. at 314. Accord
Roberts, 468 U.S. at 623 (government action is not

23
sufficiently tailored if the same goal could be achieved
“through means significantly less restrictive of
associational freedoms”). “Precision of regulation
must be the touchstone in an area so closely touching
our most precious freedoms.” NAACP v. Button, 371
U.S. 415, 438 (1963).
The only standard in this Court’s lexicon that
incorporates both a compelling interest and a narrow
tailoring requirement is strict scrutiny. Accordingly,
strict scrutiny is the default rule for disclosure
mandates that burden free-association rights. This
includes the Attorney General’s extraordinary
blanket requirement here that charities disclose their
major donors’ names and addresses in annual
Registry filings.
C. This Court designed “exacting” scrutiny
for disclosures related to elections and
has never applied that lower standard
outside the electoral context.
Buckley v. Valeo devised “exacting” scrutiny to
evaluate disclosure rules imposed by the Federal
Election Campaign Act. Those rules were calculated
to inform voters regarding who gave money to
political campaigns and how that money was spent.
424 U.S. at 66. Because such disclosures play a
unique role in helping citizens evaluate political
candidates and keeping elections fair and honest, this
Court decided that a more flexible standard of review
should apply. E.g., id. at 66 (noting the Act’s
disclosure rules concern “the free functioning of our
national institutions”) (cleaned up).

24
Buckley’s “substantial governmental interests”
standard, id. at 68, is a hallmark of intermediate—
not strict—scrutiny. E.g., Turner Broad. Sys., Inc. v.
FCC, 520 U.S. 180, 186 (1997). In keeping with that
reduced standard, exacting scrutiny requires only “a
relevant correlation or substantial relation between
the governmental interest and the information
required to be disclosed.” Buckley, 424 U.S. at 64
(cleaned up). No separate tailoring analysis applies
because election-related disclosure rules are
generally “the least restrictive means of curbing the
evils of campaign ignorance and corruption that
Congress found to exist.” Id. at 68.
No equivalency exists between the tests in NAACP
v. Alabama and Buckley. In fact, Buckley explicitly
distinguished NAACP: “We agree with the Court of
Appeals’ conclusion that NAACP v. Alabama is
inapposite where, as here, any serious infringement
on First Amendment rights brought about by the
compelled disclosure of contributors is highly
speculative.” 424 U.S. at 69-70. All Buckley allows in
the electoral context is an as-applied exemption once
a party demonstrates the “reasonable probability that
the compelled disclosure of [its] contributors’ names
will subject them to threats, harassment, or reprisals
from either Government officials or private parties.”
Id. at 74. Accord Brown v. Socialist Workers ’74
Campaign Comm., 459 U.S. 87, 98 (1982) (describing
“the test announced in Buckley for safeguarding the
First Amendment interests of minor [political] parties
and their members and supporters”).
This Court has applied Buckley’s test numerous
times and adopted a customary formulation: significant encroachments on free association must have “a

25
relevant correlation or substantial relation between
the governmental interest and the information
required to be disclosed, and the governmental
interest must survive exacting scrutiny,” which
means “the strength of the governmental interest
must reflect the seriousness of the actual burden on
First Amendment rights.” Davis v. FEC, 554 U.S. 724,
744 (2008) (cleaned up). Accord Citizens United, 558
U.S. at 366.
But this Court has never applied exacting scrutiny
to non-election-related disclosures. To the contrary,
this Court places Buckley at the heart of “a series of
precedents considering First Amendment challenges
to disclosure requirements in the electoral context”
that apply “exacting scrutiny.” John Doe No. 1, 561
U.S. at 196 (emphasis added). That is because the
First Amendment grants states “significant flexibility
in implementing their own voting systems.” Id. at
195.
In sum, exacting scrutiny is only for the electoral
context, based on concerns unique to elections, and
has no application outside “campaign-related
activities.” Citizens United, 558 U.S. at 366 (quoting
Buckley, 424 U.S. at 64). Thus, this Court assuaged
political donors’ concerns about anonymity—and
exacting scrutiny’s lack of rigor—by noting they could
instead “contribute unlimited amounts to 501(c)
organizations, which are not required to publicly
disclose their donors.” McCutcheon, 572 U.S. at 224.
No such donor alternative is available under the
Attorney General’s disclosure rule and after the
Ninth Circuit’s ruling here.

26
D. The Ninth Circuit’s contrary
jeopardizes association rights.

ruling

The Attorney General’s blanket-disclosure rule
bears no relation to elections. Yet the Ninth Circuit
(1) cited several electoral-disclosure cases, (2) used
exacting scrutiny, and (3) refused to “apply the kind
of ‘narrow tailoring’ traditionally required in the
context of strict scrutiny” to the Law Center’s claims.
App.16a–17a, 43–44a. As the panel majority saw it,
“there is only a single test—exacting scrutiny—that
applies both within and without the electoral
context.” App.133a–34a.
This Court’s immediate intervention is crucial to
prevent the Ninth Circuit from wiping out vital rights
that the First Amendment protects. The Ninth
Circuit treats any disclosure rule—instigated by any
agency in the State’s vast bureaucratic network—as
equivalent to statutes designed to ensure free and fair
elections. That lax analysis infects every facet of the
Ninth Circuit’s decision, fails to take freedom of
association seriously, and “is contrary to the
reasoning and spirit of decades of [this Court’s]
jurisprudence. App.128a (Ikuta, J., dissenting). Left
unchecked, the ruling could spread to other circuits,
giving ideological opponents a powerful weapon to
shut down speech using intimidation and threats.
Recent events amplify the chilling effects of these
threats on free expression and association.
If the First Amendment is to provide meaningful
protection, a compelling interest must be more than
the government’s speculative assertion that it might
be able to use material that a federal court has already found the government did not need in the past.

27
1. Under strict scrutiny, the Attorney
General’s blanket-disclosure rule is
facially unconstitutional.
Facial challenges to disclosure rules are an
established part of this Court’s jurisprudence. “[T]he
threat to the exercise of First Amendment rights [may
be] so serious and the state interest furthered by
disclosure so insubstantial that [such] requirements
cannot be constitutionally applied.” Buckley, 424 U.S.
at 71. This warning applies equally to the Attorney
General’s blanket-disclosure rule, which is a nuclear
threat to freedom of association with little-to-no
benefit to the State.
The Attorney General requires all charities that
fundraise in California to disclose major donor names
and addresses even though (1) there is no reason to
suspect thousands of nonprofits of wrongdoing; (2) the
IRS and often charities’ home states already police
their activities; (3) the Attorney General virtually
never uses donors’ information in enforcement
actions; (4) donor information never opens or closes
one of the Attorney General’s fraud investigations;
and (5) even when donor information is beneficial, the
Attorney General can obtain it in far more targeted
ways. That is why the district court found that out of
540 investigations over 10 years, the Attorney
General’s Office had only used Schedule B
information in five cases, and even then could have
obtained the same data in other ways. App.55a.
By “lump[ing] [legitimate charities] with those
[rationally suspected of] using the charitable label as
a cloak for profitmaking and refus[ing] to employ
more precise measures to separate one kind from the

28
other,” Vill. of Schaumburg, 444 U.S. at 637, the
Attorney General treats thousands of charities as
suspected criminals. Such indiscriminate treatment
severely hampers freedom of association and fails to
“employ means narrowly tailored to serve a
compelling governmental interest.” Joseph H.
Munson Co., 467 U.S. at 965 n.13. By going “far
beyond what might be justified in the exercise of the
State’s legitimate inquiry” into charities’ operations,
Shelton, 364 U.S. at 490, the Attorney General’s
disclosure mandate “on its face and therefore in all its
applications falls short of constitutional demands.”
Joseph H. Munson Co., 467 U.S. at 965 n.13. Because
the Attorney General’s disclosure rule is facially
unconstitutional, forcing charities to bring “case-bycase ‘as applied’ challenges” is superfluous and a
waste of judicial resources. Ibid.
The Ninth Circuit reached the opposite conclusion
only by pointing to another Ninth Circuit ruling that
applied “exacting scrutiny” and by holding that the
Attorney General’s disclosure mandate did not fail
that standard “in a substantial number of cases,
judged in relation to [its] plainly legitimate sweep.”
App.43a–44a (citing Ctr. for Competitive Politics, 784
F.3d at 1315 (9th Cir. 2015)). But because exacting
scrutiny does not apply outside the electoral context,
the Ninth Circuit’s facial analysis was wrong from the
start.
The Ninth Circuit should have asked whether the
Attorney General’s blanket-disclosure regulation fails
strict scrutiny in a substantial number of cases judged
in relation to the mandate’s legitimate sweep. The
answer is “yes” because the disclosure regulation does
nothing to prevent fraud. Joseph H. Munson Co., 467

29
U.S. at 967. Requiring hundreds of charities to
disclose donors’ names and addresses annually to a
Registry with a proven history of leaking confidential
information will have a devastating impact on
support. In contrast, the Attorney General does not
need donors’ confidential information, hardly ever
uses it, and can readily obtain that data via an audit
or subpoena on a reasonable suspicion of fraud.
2. The Attorney General’s disclosure
mandate
is
unconstitutional
as
applied under any standard.
The Attorney General’s disclosure mandate is also
unconstitutional as applied to the Law Center, under
either strict or exacting scrutiny. Regarding strict
scrutiny, the Attorney General has never investigated
the Law Center for wrongdoing, and no complaints
have ever been filed against it. There is no basis for
forcing the Law Center to disclose donor information
annually. Any generalized interest in “protecting
charities and the public from fraud,” Riley, 487 U.S.
at 792 (cleaned up), has no force as applied to the Law
Center and is merely “substantial,” not compelling.
Ibid.
Nor is the Attorney General’s disclosure rule
narrowly tailored to serve any legitimate state
interest. It is a “prophylactic, imprecise, and unduly
burdensome” regulation that is unnecessary because
more narrowly tailored options of acquiring donor
information through audit or subpoena are readily
available. Id. at 800. Investigative efficiency is the
Attorney General’s sole basis for applying the
disclosure rule to the Law Center. But the State may

30
not “sacrifice speech for efficiency.” Id. at 795. And
“[b]road prophylactic rules in the area of freedom of
expression are suspect.” Button, 371 U.S. at 438. In
sum, the Attorney General’s disclosure regime falls
under strict scrutiny because it broadly stifles free
association when the State’s aims can be more
narrowly achieved. Gremillion, 366 U.S. at 296.
Under exacting scrutiny, the details may vary but
the result is the same. The Law Center merits an asapplied exemption to the Attorney General’s blanketdisclosure rule because it is likely the Law Center’s
donors would be revealed and such exposure would
subject them to threats, harassment, and reprisals.
Citizens United, 558 U.S. at 370. The Registry’s
website is so vulnerable to hacks, leaks, and inadvertent disclosures “that Schedule B information is
effectively available for the taking.” App.120a. Public
release of donor information is predictable.
For those associated with the Law Center, harassment, threats, and reprisals are not hypothetical.
Opponents have wrongly labeled the Law Center a
“hate group” and “Islamophobic.” Employees face
vulgar, hateful, and harassing phone calls and emails,
and
occasional
pornographic
correspondence.
Appellee Br. 7–8.
Law Center clients like Pamela Geller—who used
her blog to criticize a lawyer who represented the
parents of a teenage girl who fled her home in fear of
her life after converting from Islam to Christianity—
frequently receive death threats. ISIS instructed its
followers to kill Geller and labeled those like the Law
Center who enable her speech “legitimate targets.” Id.

31
at 10. Three ISIS followers conspired to assassinate
Geller; she lives under constant guard. Id. at 9–10.
Law Center client Sally Kern, at the time a
Kansas legislator, came under fire for expressing her
Christian beliefs about marriage. She received a
death threat and was shadowed by law enforcement
for two weeks. Id. at 11.
Melissa Wood, another client, objected to a school
forcing her teenage daughter to profess and write out
the Shahada, the Muslim profession of faith. Wood
received an online message from someone claiming to
attend her daughter’s school who threatened to stab
her daughter’s stomach, insert a hook, and hang her
child from a tree. Ibid.
The Law Center’s co-founder and first donor,
Thomas Monaghan, was publicly branded, wrongly,
as one of the “most antigay persons in the country”
likely due to his Law Center support, and he then saw
his business subjected to a national boycott based on
his prolife views. Id. at 8.
And no doubt exists that such threats have caused
donor concern. One contributor even anonymously
mailed cash rather than leave a donor record and
become a terrorist target. Id. at 9. Courts need not
wait until a charity’s donor base has been decimated.
Despite this evidence, the Ninth Circuit rejected
the Law Center’s as-applied challenge under exacting
scrutiny. This result speaks volumes about the impossible bar the court set for as-applied claims and its
“appellate factfinding.” App.109–10a, 128a. (Ikuta, J.,
dissenting). One thing is clear: if the Law Center does

32
not qualify for an as-applied exemption to the Attorney General’s blanket-disclosure rule, no one will.
And that appears to be what the Ninth Circuit intended. App34a–35a n.6, 36a–37a & n.7, 85a–87a & n.4.
II. The Ninth Circuit’s decision intensifies a
mature, 6-2 circuit split.
The Ninth Circuit’s ruling intensified a circuit
conflict involving eight Courts of Appeals. The Second
and Ninth Circuits apply exacting scrutiny to
disclosure mandates outside the electoral context.
But the First, Fourth, Fifth, Sixth, Tenth, and D.C.
Circuits apply strict scrutiny to non-election,
compelled disclosures. App.115a–16a & n.1 (outlining
this conflict). Only this Court may resolve which
standard is correct and whether the First Amendment provides charities meaningful protection.
Previously, the Courts of Appeals substantially
agreed that exacting scrutiny applied only to electionrelated disclosures. App.115a. State donor-disclosure
rules then led the Second and Ninth Circuits to forge
a new path. App.117a–18a. Both have held that
exacting scrutiny under Buckley applies to disclosure
requirements no matter their context. Citizens United
v. Schneiderman, 882 F.3d 374, 382 (2d Cir. 2018)
(applying exacting scrutiny to all disclosure
requirements because they are “not inherently
content-based nor do they inherently discriminate
among speakers”); App.133a–34a (“[T]here is only a
single test—exacting scrutiny—that applies both
within and without the electoral context.”). But see
Schneiderman, 882 F.3d at 384 (distinguishing
Americans for Prosperity Foundation based on the

33
Attorney General’s “systematic incompetence in
keeping donor lists confidential of such a magnitude
as to effectively amount to publication”).
Most circuits view the issue differently. Outside
the electoral context, they scrutinize disclosure
mandates under a test that bears all the hallmarks of
strict scrutiny, following NAACP v. Alabama and its
progeny. The First Circuit, for example, approved a
Nuclear Regulatory Commission subpoena that
burdened a watchdog’s free association with
informants only because “the government ha[d]
adequately shown both a compelling interest in
obtaining the material sought and that no significantly less restrictive alternatives exist.” United
States v. Comley, 890 F.2d 539, 545 (1st Cir. 1989).
Although the Fourth Circuit cited a hodgepodge of
standards in deciding whether the Department of
Labor could require a trade association to disclose any
agreement with members to engage in anti-union
“persuader activity,” Master Printers of Am. v. Donovan, 751 F.2d 700, 704-06 (4th Cir. 1984), its decision
turned on whether “the disclosure and reporting requirements [were] justified by a compelling government interest, and [whether] the legislation [was]
narrowly tailored to serve that interest,” id. at 705.
The Fifth Circuit similarly cited “exacting
scrutiny” in weighing whether a Texas judge could
demand and publicize a Mexican-American association’s officers and members list because it was organizing a school boycott. Familias Unidas v. Briscoe, 619
F.2d 391, 399 (5th Cir. 1980). Yet the court barred the
disclosure even though it served “a legitimate and
compelling state purpose,” because the state court’s

34
order “swe[pt] too broadly,” id. at 399-400, and was
not “drawn with sufficiently narrow specificity to
avoid impinging more broadly upon First Amendment
liberties than [was] absolutely necessary,” id. at 399.
The Sixth Circuit quoted much of the Fourth
Circuit’s analysis in determining whether the
Department of Labor could force a law firm to disclose
any anti-union “persuader activity” it undertook for
an employer. Humphreys, Hutcheson & Moseley v.
Donovan, 755 F.2d 1211, 1220-22 (6th Cir. 1985). It
likewise held that the disclosure served “the
government’s compelling interest in maintaining
antiseptic conditions in the labor relations field” and
was “carefully tailored so that [F]irst [A]mendment
freedoms are not needlessly curtailed.” Id. at 1222.
Though ruling for the government, the Tenth
Circuit also applied strict scrutiny when an anti-tax
organization argued that IRS collaboration with an
employee-informant violated its free-association
rights. Pleasant v. Lovell, 876 F.2d 787, 789-93 (10th
Cir. 1989). The court held that “some interference
may be permissible [only] when the government can
demonstrate a compelling interest, such as good-faith
criminal investigation[,] that is narrowly tailored to
detect information concerning tax evasion.” Id. at
804-05.
Also applying strict scrutiny, the D.C. Circuit held
that the government could not launch a full FBI
investigation on a book-shelving employee simply
because he associated with the Young Socialist
Alliance. It found no “legitimate, much less
compelling justification” for such an inquiry, Clark v.
Library of Congress, 750 F.2d 89, 99 (D.C. Cir. 1984),

35
nor had the government “tailor[ed] its investigation
so that it [was] the least restrictive means of
achieving” its interests, id. at 98.
In sum, the Attorney General’s blanket-disclosure
rule would fall in six circuits because it does not serve
a compelling interest and is not narrowly tailored. Yet
it survives in the Second and Ninth Circuits because
those courts always examine disclosure rules under
exacting scrutiny. Given the current cultural climate,
such a low standard fosters more polarization and
open hostility, inducing fear by donors who want to
participate in the public debate.
III. This case is an ideal vehicle to resolve a
circuit conflict that has severe ramifications
for charities nationwide.
The circuit conflict is deep and mature, and its
resolution cannot wait. First, the Ninth Circuit’s
ruling impacts thousands of charities who fundraise
in California, the nation’s most populous state. And
once major donor information is publicly leaked, it is
impossible to undo the damage. This Court’s decisive
action is needed immediately to protect charities and
donors across the political spectrum and throughout
the United States.

36
Second, this case is a clean vehicle for the Court to
resolve whether strict or exacting scrutiny applies to
forced disclosure outside the electoral context. There
are no disputed material facts—indeed, the Court has
the benefit of findings based on a full trial—and the
question presented controls the outcome.1 Moreover,
the Law Center’s evidence of death threats, harassing
phone calls, a boycott, hate mail, and even a
conspiracy to kill a client places beyond doubt the
merits of the Law Center’s claims.
Third, First Amendment rights should not depend
on where a charity solicits funds. Yet freedom of
association currently means little for citizens
considering donating to an organization that solicits
in California. This Court has traditionally placed
great faith in as-applied challenges to uphold freeassociation rights. But if four years of litigation and
the Ninth Circuit’s “next-to-impossible evidentiary”
standard prove anything, App.128a, it is that this
approach has not worked. John Doe No. 1, 561 U.S. at
203 (Alito, J., concurring). The practical result here is
that citizens across the country are subject to having
their information disclosed and to being harassed by
those who disagree with them.

Regarding the Law Center’s as-applied claim, the Ninth Circuit
criticized the Law Center’s return preparers for listing anyone
who contributed $5,000 or more on its Schedule B filed with the
IRS, when the Law Center could have listed only those who gave
more than 2% of annual contributions. App.30a. But this honest
misunderstanding based on cryptic IRS regulations is
immaterial. Whereas the Law Center had every reason to believe
the IRS would protect its donor information from public
disclosure, the exact opposite is true of the Attorney General.

1

37
Fourth, the Attorney General’s office codified its
confidentiality policy and instituted its new system of
automated and personal reviews to identify documents incorrectly classified as public shortly before
the Law Center’s trial. Yet the district court still
found, after a full trial, that “[d]onors and potential
donors would be reasonably justified in a fear of
disclosure” under the new regime. App.63a. This
forecloses any argument that the Attorney General’s
new policy warrants fresh review in the district court.
Finally, in papering over this Court’s differing
standards for evaluating the constitutionality of
disclosure requirements in the election and nonelection contexts, the Ninth Circuit has made clear
that further percolation will not resolve the circuit
split or deviation from this Court’s jurisprudence.
Only this Court can clarify that the government
violates the First Amendment when it enables
harassment of donors for their views. As 58 amici
from across the political spectrum made clear in the
Ninth Circuit, public advocacy is for everyone, not
merely those able to weather abuse.

38
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org
LOUIS H. CASTORIA
KAUFMAN DOLOWICH &
VOLUCK, LLP
425 California Street
Suite 2100
San Francisco, CA 94104
(415) 926-7600

AUGUST 2019

Counsel for Petitioner

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the Ninth
Circuit,
Opinion in 16-56855 and 16-56902
Issued September 11, 2018 ...................................... 1a
United States District Court for the Central
District of California,
Order for Judgment in Favor of Plaintiff
in 2:15-cv-03048
Issued November 16, 2016 ..................................... 51a
United States District Court for the Central
District of California
Order Denying Summary Judgment
in 2:15-cv-03048
Issued July 18, 2016 .............................................. 68a
United States District Court for the Central
District of California
Order Modifying Preliminary Injunction
in 2:15-cv-03048
Issued January 5, 2016 .......................................... 74a
United States Court of Appeals for the Ninth
Circuit
Opinion in 15-55911
Issued December 29, 2015 ..................................... 76a
United States District Court for the Central
District of California
Order Issuing Preliminary Injunction
in 2:15-cv-03048
Issued May 19, 2015 .............................................. 90a

iia
United States District Court for the Central
District of California
Order Granting Temporary Protective Order
in 2:15-cv-03048
Issued April 29, 2015 ............................................. 97a
United States Court of Appeals for the Ninth
Circuit,
Order Denying Petitions for Rehearing En Banc
in 16-56855 and 16-56902,
Issued March 29, 2019 ......................................... 104a
United States Court of Appeals for the Ninth
Circuit
Order Denying Petition for Panel Rehearing or
Rehearing En Banc in 15-55911
Issued April 6, 2016 ............................................. 146a
California Gov. Code § 12585 .............................. 148a
California Gov. Code § 12586 .............................. 149a
California Gov. Code § 12590 .............................. 150a
11 California Code of Regulations § 300 ............. 151a
11 California Code of Regulations § 301 ............. 152a
11 California Code of Regulations § 303 ............. 153a
11 California Code of Regulations § 305 ............. 154a
11 California Code of Regulations § 306 ............. 155a
11 California Code of Regulations § 310 ............. 156a

iiia
11 California Code of Regulations § 315 ............. 157a
11 California Code of Regulations § 316 ............. 157a
26 U.S.C. 6104 ...................................................... 158a
26 U.S.C. 7213 ...................................................... 159a
26 U.S.C. 7213A ................................................... 160a
26 C.F.R. § 1.6033-2 ............................................. 161a
Letter from California to Thomas More dated
March 6, 2012 ....................................................... 163a
Letter from Thomas More to California dated
March 14, 2012 ..................................................... 165a
Letter from Thomas More Counsel to California
dated April 11, 2012 ............................................. 167a
Letter from California to Thomas More dated
April 19, 2013 ....................................................... 169a
Letter from Thomas More to California dated
April 24, 2013 ....................................................... 171a
Letter from California to Thomas More dated
October 22, 2013................................................... 173a
Letter from Thomas More to California dated
October 28, 2013................................................... 175a
Letter from California to Thomas More dated
April 23, 2014 ....................................................... 177a

iva
Letter from California to Thomas More dated
October 31, 2014................................................... 179a
Letter from California to Thomas More dated
March 24, 2015 ..................................................... 181a
Letter from Thomas More Counsel to California
dated April 7, 2015 ............................................... 184a

1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff-Appellee,
v.

No. 16-55727
D.C. No.
2:14-cv-09448-RFFM

XAVIER BECERRA, in
his Official Capacity as
Attorney General of
California,
Defendant-Appellant.
AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in
his Official Capacity as
Attorney General of
California,
Defendant-Appellee.

No. 16-55786
D.C. No.
2:14-cv-09448-RFFM

2a
THOMAS MORE LAW
CENTER,
Plaintiff-Appellee,
v.

No. 16-56855
D.C. No.
2:15-cv-03048-RFFM

XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,
Defendant-Appellant.
THOMAS MORE LAW
CENTER,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,

No. 16-56902
D.C. No.
2:15-cv-03048-RFFM

OPINION

Defendant-Appellee.
Appeal from the United States District Court for the
Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted June 25, 2018
Pasadena, California
Filed September 11, 2018
Before: Raymond C. Fisher, Richard A. Paez

3a
and Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Fisher
SUMMARY*
Civil Rights
The panel vacated the district court’s
permanent injunctions, reversed the bench trial
judgments, and remanded for entry of judgment in
favor of the California Attorney General in two cases
challenging California’s charitable registration
requirement as applied to two non-profit
organizations that solicit tax-deductible contributions
in the state.
Plaintiffs qualify as tax-exempt charitable
organizations under § 501(c)(3) of the Internal
Revenue Code, 26 U.S.C. § 501(c)(3). They challenge
the Attorney General of California’s collection of
Internal Revenue Service Form 990 Schedule B,
which contains the names and addresses of their
relatively few largest contributors. Plaintiffs argue
the state’s disclosure requirement impermissibly
burdens their First Amendment right to free
association.

*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

4a
The panel held that the California Attorney
General’s Schedule B requirement, which obligates
charities to submit the very information they already
file each year with the IRS, survived exacting scrutiny
as applied to the plaintiffs because it was
substantially related to an important state interest in
policing charitable fraud. The panel held that
plaintiffs had not shown a significant First
Amendment burden on the theory that complying
with the Attorney General’s Schedule B nonpublic
disclosure requirement would chill contributions. The
panel further concluded that even assuming arguendo
that the plaintiffs’ contributors would face
substantial harassment if Schedule B information
became public, the strength of the state’s interest in
collecting Schedule B information reflected the actual
burden on First Amendment rights because the
information was collected solely for nonpublic use,
and the risk of inadvertent public disclosure was
slight.
COUNSEL
Alexandra Robert Gordon (argued), Jose A. ZelidonZepeda, Kevin A. Calia, and Emmanuelle S. Soichet,
Deputy Attorneys General; Tamar Pachter,
Supervising Deputy Attorney General; Douglas J.
Woods, Senior Assistant Attorney General; Xavier
Becerra, Attorney General; Office of the Attorney
General, San Francisco, California; for DefendantAppellant/Cross-Appellee.
Derek Shaffer (argued), William A. Burck, Eric C.
Lyttle, Keith H. Forst, and Jonathan G. Cooper,

5a
Quinn Emanuel Urquhart & Sullivan LLP,
Washington, D.C.; Harold Barza, Quinn Emanuel
Urquhart & Sullivan, LLP, Los Angeles, California;
for Plaintiff-Appellee/Cross-Appellant.
Tara Malloy, J. Gerald Hebert, and Megan P.
McAllen, Campaign Legal Center, Washington, D.C.,
for Amicus Curiae Campaign Legal Center.
Jeremy Talcott and Joshua P. Thompson, Pacific
Legal Foundation, Sacramento, California, for
Amicus Curiae Pacific Legal Foundation.
Marc Rotenberg, Alan Butler, James T. Graves, and
John Davisson, Electronic Privacy Information
Center, Washington, D.C., for Amicus Curiae
Electronic Privacy Information Center.
David Weiner and Robert Leider, Arnold & Porter
Kaye Scholer LLP, Washington, D.C., for Amicus
Curiae The Philanthropy Roundtable.
Keith Joseph Miller, Assistant Attorney General;
Dominic E. Draye, Solicitor General; Mark Brnovich,
Attorney General; Office of the Attorney General,
Phoenix, Arizona, for Amici Curiae States of Arizona,
Alabama, Louisiana, Michigan, Nevada, Texas, and
Wisconsin.
Mark Joseph Fitzgibbons, American Target
Advertising, Manassas, Virginia, for Amicus Curiae
American Target Advertising, Inc.
Allyson Newton Ho and John C. Sullivan, Gibson
Dunn & Crutcher LLP, Dallas, Texas; C. Dean
McGrath Jr., McGrath & Associates, Washington,
D.C.; for Amici Curiae Pacific Research Institute,
Cato Institute, and Competitive Enterprise Institute.

6a
Christopher H. McGrath and Samuel S. Sadeghi Paul
Hastings LLP, Costa Mesa, California; George W.
Abele, Paul Hastings LLP, Los Angeles, California;
Brett Harvey, Alliance Defending Freedom,
Scottsdale, Arizona; Nathaniel Bruno, Alliance
Defending Freedom, Washington, D.C.; for Amicus
Curiae Alliance Defending Freedom.
Brian Timothy Burgess, Goodwin Procter LLP,
Washington, D.C.; David J. Zimmer, Goodwin Procter
LLP, Boston, Massachusetts; for Amici Curiae
NAACP Legal Defense and Educational Fund, Inc.
Andrew P. Pugno, Law Offices of Andrew P. Pugno,
Fair Oaks, California, for Amicus Curiae Proposition
8 Legal Defense Fund.
Herbert W. Titus, Jeremiah L. Morgan, William J.
Olson, and Robert J. Olson, William J. Olson P.C.,
Vienna, Virginia; Joseph W. Miller, Ramona,
California; Michael Boos, Washington, D.C.; for Amici
Curiae Free Speech Defense and Education Fund,
Free Speech Coalition, Citizens United, Citizens
United Foundation, National Right to Work
Committee, U.S. Constitutional Rights Legal Defense
Fund, U.S. Justice Foundation, Family Research
Council,
Western
Center
for
Journalism,
Conservative Legal Defense and Education Fund, The
Leadership Institute, Public Advocate of the United
States, Downsize DC Foundation, Downsize. Org,
Gun Owners Foundation, Gun Owners of America, 60
Plus, 60 Plus Association, America’s Foundation for
Law and Liberty, America’s Liberty Committee,
Citizen Outreach Foundation, Citizen Outreach, LLC,
Law Enforcement Alliance of America, Liberty
Guard, Coalition for a Strong America, The Jesse

7a
Helms Center, Americans for Constitutional Liberty,
Catholicvote.org, Eberle Communications Group,
Inc., Clearword Communications Group, Davidson &
Co., and JFT Consulting.

OPINION
FISHER, Circuit Judge:
We address the constitutionality of a California
charitable registration requirement as applied to two
non-profit organizations that solicit tax-deductible
contributions in the state. Americans for Prosperity
Foundation (the Foundation) and Thomas More Law
Center (the Law Center) qualify as tax-exempt
charitable organizations under § 501(c)(3) of the
Internal Revenue Code, 26 U.S.C. § 501(c)(3). They
challenge the Attorney General of California’s
collection of Internal Revenue Service (IRS) Form 990
Schedule B, which contains the names and addresses
of their relatively few largest contributors. The
Attorney General uses the information solely to
prevent charitable fraud, and the information is not
to be made public except in very limited
circumstances. The plaintiffs argue the state’s
disclosure requirement impermissibly burdens their
First Amendment right to free association by
deterring individuals from making contributions.
The district court held that the Schedule B
requirement violates the First Amendment as applied
to the Foundation and Law Center and permanently
enjoined the Attorney General from demanding the
plaintiffs’ Schedule B forms. We have jurisdiction

8a
under 28 U.S.C. § 1291, and we vacate the
injunctions, reverse the judgments and remand for
entry of judgment in the Attorney General’s favor.
We hold that the California Attorney General’s
Schedule B requirement, which obligates charities to
submit the very information they already file each
year with the IRS, survives exacting scrutiny as
applied to the plaintiffs because it is substantially
related to an important state interest in policing
charitable fraud. Even assuming arguendo that the
plaintiffs’ contributors would face substantial
harassment if Schedule B information became public,
the strength of the state’s interest in collecting
Schedule B information reflects the actual burden on
First Amendment rights because the information is
collected solely for nonpublic use, and the risk of
inadvertent public disclosure is slight.
I.
A.
California’s Supervision of Trustees and
Charitable Trusts Act requires the Attorney General
to maintain a registry of charitable corporations (the
Registry) and authorizes him to obtain “whatever
information, copies of instruments, reports, and
records are needed for the establishment and
maintenance of the [Registry].” Cal. Gov’t Code §
12584. To solicit tax-deductible contributions from
California residents, an organization must maintain
membership in the Registry. See id. § 12585. Registry
information is open to public inspection, subject to
reasonable rules and regulations adopted by the
Attorney General. See id. § 12590.

9a
As one condition of Registry membership, the
Attorney General requires charities to submit a
complete copy of the IRS Form 990 they file with the
IRS, including attached schedules. See Cal. Code
Regs. tit. 11, § 301.1 One of these attachments,
Schedule B, requires 501(c)(3) organizations to report
the names and addresses of their largest contributors.
Generally, they must report “the names and
addresses of all persons who contributed . . . $5,000 or
more (in money or other property) during the taxable
year.” 26 C.F.R. § 1.6033-2(a)(2)(ii)(f). Special rules,
however, apply to organizations, such as the
Foundation and Law Center, meeting certain support
requirements. These organizations need only “provide
the name and address of a person who contributed
. . . in excess of 2 percent of the total contributions
. . . received by the organization during the year.” Id.
§ 1.6033-2(a)(2)(iii)(a). An organization with $10
million in receipts, for example, is required to disclose
only contributors providing at least $200,000 in
financial support. Here, for any year between 2010
and 2015, the Law Center was obligated to report no
more than seven contributors on its Schedule B, and
the Foundation was required to report no more than
1

In July 2018, the IRS announced it would no longer require
certain tax-exempt organizations, other than 501(c)(3)
organizations, to report the names and addresses of their
contributors on Schedule B. See Press Release, U.S. Dep’t of the
Treasury, Treasury Department and IRS Announce Significant
Reform to Protect Personal Donor Information to Certain TaxExempt Organizations (July 16, 2018), https://home.treasury.
gov/news/press-releases/sm426. Federal law, however, continues
to require 501(c)(3) organizations, such as the plaintiffs, to file
Schedule B information with the IRS.

10a
10 contributors – those contributing over $250,000 to
the Foundation.
The IRS and the California Attorney General
both make certain filings of tax-exempt organizations
publicly available but exclude Schedule B information
from public inspection. See 26 U.S.C. § 6104; Cal Gov’t
Code § 12590; Cal. Code Regs. tit. 11, § 310. At the
outset of this litigation, the Attorney General
maintained an informal policy treating Schedule B as
a confidential document not available for public
inspection on the Registry. See Americans for
Prosperity Found. v. Harris, 809 F.3d 536, 542 (9th
Cir. 2015) (AFPF I). In 2016, the Attorney General
codified that policy, adopting a regulation that makes
Schedule B information confidential and exempts it
from public inspection except in a judicial or
administrative proceeding or in response to a search
warrant. See Cal. Code Regs. tit. 11, § 310 (July 8,
2016). Under the new regulation:
Donor information exempt from public
inspection pursuant to Internal Revenue
Code section 6104(d)(3)(A) shall be
maintained as confidential by the
Attorney General and shall not be
disclosed except as follows:
(1) In a court or administrative
proceeding brought pursuant to the
Attorney General’s charitable trust
enforcement responsibilities; or
(2) In response to a search warrant.
Id. § 310(b). In accordance with this regulation, the
Attorney General keeps Schedule Bs in a separate file

11a
from other submissions to the Registry and excludes
them from public inspection on the Registry website.
B.
Thomas More Law Center is a legal
organization founded to “restore and defend
America’s
Judeo-Christian
heritage”
by
“represent[ing] people who promote Roman Catholic
values,” “marriage and family matters, freedom from
government interference in [religion]” and “opposition
to the imposition of Sharia law within the United
States.” Americans for Prosperity Foundation was
founded in 1987 as “Citizens for a Sound Economy
Educational Foundation,” with the mission of
“further[ing] free enterprise, free society-type issues.”
The Foundation hosts conferences, issues policy
papers and develops educational programs worldwide
to promote the benefits of a free market. It operates
alongside Americans for Prosperity, a 501(c)(4)
organization focused on direct issue advocacy.
Charities like the Foundation and the Law
Center are overseen by the Charitable Trusts Section
of the California Department of Justice, which houses
the Registry and a separate investigative and legal
enforcement unit (the Investigative Unit). The
Registry Unit processes annual registration renewals
and maintains both the public-facing website of
registered charities and the confidential database
used for enforcement. The Investigative Unit
analyzes complaints of unlawful charity activity and
conducts audits and investigations based on those
complaints.
Beginning in 2010, the Registry Unit ramped
up its efforts to enforce charities’ Schedule B

12a
obligations, sending thousands of deficiency letters to
charities that had not complied with the Schedule B
requirement. Since 2001, both the Law Center and
the Foundation had either filed redacted versions of
the Schedule B or not filed it with the Attorney
General at all. Each plaintiff had, however, annually
filed a complete Schedule B with the IRS. In 2012, the
Registry Unit informed the Law Center it was
deficient in submitting Schedule B information. In
2013, it informed the Foundation of the same
deficiency.
C.
In response to the Attorney General’s
demands, the Law Center and the Foundation
separately filed suit, alleging that the Schedule B
requirement unconstitutionally burdens their First
Amendment right to free association by deterring
individuals from financially supporting them. The
district court granted both plaintiffs’ motions for a
preliminary injunction, concluding they had raised
serious questions going to the merits of their cases
and demonstrated that the balance of hardships
tipped in their favor. See Americans for Prosperity
Found. v. Harris, No. 2:14-CV-09448-R-FFM, 2015
WL 769778 (C.D. Cal. Feb. 23, 2015). The Attorney
General appealed.
While those appeals were pending, we upheld
the Schedule B requirement against a facial
constitutional challenge brought by the Center for
Competitive Politics. See Ctr. for Competitive Politics
v. Harris, 784 F.3d 1307, 1317 (9th Cir. 2015).
Applying exacting scrutiny, we held both that the
Schedule B requirement furthers California’s

13a
compelling interest in enforcing its laws and that the
plaintiff had failed to show the requirement places an
actual burden on First Amendment rights. See id. at
1316–17. We left open the possibility, however, that a
future litigant might “show ‘a reasonable probability
that the compelled disclosure of its contributors’
names will subject them to threats, harassment, or
reprisals from either Government officials or private
parties’ that would warrant relief on an as-applied
challenge.” Id. at 1317 (alteration omitted) (quoting
Buckley v. Valeo, 424 U.S. 1, 74 (1976)).
The Law Center and the Foundation argue
they have made such a showing. In considering the
appeal from the preliminary injunction in their favor,
we disagreed. See AFPF I, 809 F.3d at 540. We held
that the plaintiffs had shown neither an actual
chilling effect on association nor a reasonable
probability of harassment at the hands of the state
from the Attorney General’s demand for nonpublic
disclosure of Schedule B forms. See id. The Law
Center and the Foundation had proffered some
evidence that private citizens might retaliate against
their contributors if Schedule B information became
public, but “[t]he plaintiffs’ allegations that technical
failures or cybersecurity breaches are likely to lead to
inadvertent public disclosure of their Schedule B
forms [were] too speculative to support issuance of an
injunction.” Id. at 541.
We nevertheless identified some risk that the
Attorney General could be compelled by § 12590 to
make Schedule B information available for public
inspection in the absence of a “rule[ ]” or “regulation[
],” Cal. Gov’t Code § 12590, formalizing the Attorney
General’s discretionary policy of maintaining

14a
Schedule B confidentiality. See AFPF I, 809 F.3d at
542. The Attorney General had proposed a regulation
to exempt Schedule B forms from the general
requirement to make Registry filings “open to public
inspection,” Cal. Gov’t Code § 12590, but the state had
not yet adopted the proposed regulation. We held that
a narrow injunction precluding public disclosure of
Schedule B information would address the risk of
public disclosure pending the Attorney General’s
adoption of the proposed regulation. We therefore
vacated the district court’s orders precluding the
Attorney General from collecting Schedule B
information from the plaintiffs and instructed the
court to enter new orders preliminarily enjoining the
Attorney General only from making Schedule B
information public. See AFPF I, 809 F.3d at 543.2
After presiding over a bench trial in each case,
the district court held the Schedule B requirement
unconstitutional as applied to the Foundation and the
Law Center. See Thomas More Law Ctr. v. Harris, No.
CV 15-3048-R, 2016 WL 6781090 (C.D. Cal. Nov. 16,
2016); Americans for Prosperity Found. v. Harris, 182
F. Supp. 3d 1049 (C.D. Cal. 2016). The district court
first rejected the plaintiffs’ facial challenges, holding
they were precluded by our opinion in Center for
Competitive Politics. It then held that the Attorney
General had failed to prove the Schedule B
requirement was substantially related to a
2

On remand, the district court also prohibited the Attorney
General from obtaining relevant discovery from the
Foundation’s contributors. This was one of several questionable
evidentiary rulings the court issued in the plaintiffs’ favor.

15a
sufficiently important governmental interest, as
necessary to withstand exacting scrutiny. The court
reasoned that the Attorney General had no need to
collect Schedule Bs, because he “has access to the
same information from other sources,” Thomas More
Law Ctr., 2016 WL 6781090, at *2, and had failed to
demonstrate the “necessity of Schedule B forms” in
investigating charity wrongdoing, Americans for
Prosperity Found., 182 F. Supp. 3d at 1053. The court
also concluded there was “ample evidence”
establishing the plaintiffs’ employees and supporters
face public hostility, intimidation, harassment and
threats “once their support for and affiliation with the
organization becomes publicly known.” Id. at 1055.
The court rejected the proposition that the Attorney
General’s informal confidentiality policy could
“effectively avoid inadvertent disclosure” of Schedule
B information, citing a “pervasive, recurring pattern
of uncontained Schedule B disclosures” by the
Registry Unit. Id. at 1057. Even after the Attorney
General codified the non-disclosure policy, the court
concluded that this risk of inadvertent public
disclosure remained. See Thomas More Law Ctr.,
2016 WL 6781090, at *5.
Having found for the plaintiffs on their First
Amendment freedom of association claims, the court
entered judgment for the plaintiffs and permanently
enjoined the Attorney General from enforcing the
Schedule B requirement against them. The Attorney
General appealed the judgments. The plaintiffs crossappealed, challenging the district court’s holding that
precedent foreclosed a facial attack on the Schedule B
requirement. The Law Center also cross-appealed the
district court’s adverse rulings on its Fourth

16a
Amendment and preemption claims, and the district
court’s failure to award it attorney’s fees.
II.
“In reviewing a judgment following a bench
trial, this court reviews the district court’s findings of
fact for clear error and its legal conclusions de novo.”
Dubner v. City & County of San Francisco, 266 F.3d
959, 964 (9th Cir. 2001). “[W]e will affirm a district
court’s factual finding unless that finding is illogical,
implausible, or without support in inferences that
may be drawn from the record.” United States v.
Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009) (en
banc) (footnote omitted).
III.
We address whether the Attorney General’s
Schedule B requirement violates the First
Amendment right to freedom of association as applied
to the plaintiffs. We apply “exacting scrutiny” to
disclosure requirements. See Doe v. Reed, 561 U.S.
186, 196 (2010). “That standard ‘requires a
substantial relation between the disclosure
requirement
and
a
sufficiently
important
governmental interest.’” Id. (quoting Citizens United
v. FEC, 558 U.S. 310, 366–67 (2010)). “To withstand
this scrutiny, ‘the strength of the governmental
interest must reflect the seriousness of the actual
burden on First Amendment rights.’” Id. (quoting
Davis v. FEC, 554 U.S. 724, 744 (2008)).
The plaintiffs contend “[t]he ‘substantial
relation’ element requires, among other things, that
the State employ means ‘narrowly drawn’ to avoid
needlessly stifling expressive association.” They cite

17a
Louisiana ex rel. Gremillion v. NAACP, 366 U.S. 293,
297 (1961) (“[W]hile public safety, peace, comfort, or
convenience can be safeguarded by regulating the
time and manner of solicitation, those regulations
need to be ‘narrowly drawn to prevent the supposed
evil.’” (citation omitted) (quoting Cantwell v.
Connecticut, 310 U.S. 296, 307 (1940))), Shelton v.
Tucker, 364 U.S. 479, 488 (1960) (“In a series of
decisions this Court has held that, even though the
governmental purpose be legitimate and substantial,
that purpose cannot be pursued by means that
broadly stifle fundamental personal liberties when
the end can be more narrowly achieved.”), and
McCutcheon v. FEC, 134 S. Ct. 1434, 1456–57 (2014)
(plurality opinion) (“Even when the Court is not
applying strict scrutiny, we still require ‘a fit that is
not necessarily perfect, but reasonable; that
represents not necessarily the single best disposition
but one whose scope is in proportion to the interest
served, . . . that employs not necessarily the least
restrictive means but . . . a means narrowly tailored
to achieve the desired objective.’” (alterations in
original) (quoting Board of Trustees of State Univ. of
N.Y. v. Fox, 492 U.S. 469, 480 (1989))). We are not
persuaded, however, that the standard the plaintiffs
advocate is distinguishable from the ordinary
“substantial relation” standard that both the
Supreme Court and this court have consistently
applied in disclosure cases such as Doe and Family
PAC v. McKenna, 685 F.3d 800, 805–06 (9th Cir.
2012). To the extent the plaintiffs ask us to apply the
kind of “narrow tailoring” traditionally required in
the context of strict scrutiny, or to require the state to
choose the least restrictive means of accomplishing its

18a
purposes, they are mistaken. See, e.g., Citizens United
v. Schneiderman, 882 F.3d 374, 381 (2d Cir. 2018)
(rejecting the plaintiffs’ request “to apply strict
scrutiny and to hold that any mandatory disclosure of
a member or donor list is unconstitutional absent a
compelling government interest and narrowly drawn
regulations furthering that interest”); AFPF I, 809
F.3d at 541 (“The district court’s conclusion that the
Attorney General’s demand for national donor
information may be more intrusive than necessary
does not raise serious questions because ‘exacting
scrutiny is not a least-restrictive-means test.’”
(quoting Chula Vista Citizens for Jobs & Fair
Competition v. Norris, 782 F.3d 520, 541 (9th Cir.
2015) (en banc))); Ctr. for Competitive Politics, 784
F.3d at 1312 (“[The plaintiff’s argument] that the
Attorney General must have a compelling interest in
the disclosure requirement, and that the requirement
must be narrowly tailored in order to justify the First
Amendment harm it causes[,] . . . is a novel theory,
but it is not supported by our case law or by Supreme
Court precedent.”).
In short, we apply the “substantial relation”
standard the Supreme Court applied in Doe. “To
withstand this scrutiny, ‘the strength of the
governmental interest must reflect the seriousness of
the actual burden on First Amendment rights.’” Doe,
561 U.S. at 196 (quoting Davis, 554 U.S. at 744).
A. The Strength of the Governmental
Interest
It is clear that the disclosure requirement
serves an important governmental interest. In Center
for Competitive Politics, 784 F.3d at 1311, we

19a
recognized the Attorney General’s argument that
“there is a compelling law enforcement interest in the
disclosure of the names of significant donors.” See also
id. at 1317. The Attorney General observed that “such
information is necessary to determine whether a
charity is actually engaged in a charitable purpose, or
is instead violating California law by engaging in selfdealing, improper loans, or other unfair business
practices,” id. at 1311, and we agreed that “[t]he
Attorney General has provided justifications for
employing a disclosure requirement instead of issuing
subpoenas,” id. at 1317. In AFPF I, we reiterated that
“the Attorney General’s authority to demand and
collect charitable organizations’ Schedule B forms
. . . furthers California’s compelling interest in
enforcing its laws.” AFPF I, 809 F.3d at 538–39.
These conclusions are consistent with those
reached by the Second Circuit, which recently upheld
New York’s Schedule B disclosure requirement
against a challenge similar to the one presented here.
The attorney general explained that the Schedule B
disclosure requirement allows him to carry out “his
responsibility to protect the public from fraud and
self-dealing among tax-exempt organizations.”
Schneiderman, 882 F.3d at 382. The court agreed
with the state that
knowing the source and amount of large
donations can reveal whether a charity
is doing business with an entity
associated with a major donor. The
information in a Schedule B also permits
detection of schemes such as the
intentional overstatement of the value of
noncash donations in order to justify

20a
excessive salaries or perquisites for its
own executives. Collecting donor
information on a regular basis from all
organizations facilitates investigative
efficiency, and can help the Charities
Bureau to obtain a complete picture of
the charities’ operations and flag
suspicious activity simply by using
information already available to the
IRS. Because fraud is often revealed not
by a single smoking gun but by a pattern
of suspicious behavior, disclosure of the
Schedule B can be essential to New
York’s interest in detecting fraud.
Id. (alterations, citations and internal quotation
marks omitted). The Schedule B requirement,
therefore, served the state’s important “interests in
ensuring organizations that receive special tax
treatment do not abuse that privilege and . . . in
preventing those organizations from using donations
for purposes other than those they represent to their
donors and the public.” Id.
The plaintiffs nonetheless question the
strength of the state’s governmental interest, arguing
the Attorney General’s need to collect Schedule B
information is belied by the evidence that he does not
use the information frequently enough to justify
collecting it en masse, he is able to investigate
charities without Schedule B information and he does
not review individual Schedule B forms until he
receives a complaint, at which point he has at his
disposal tools of subpoena and audit to obtain the
Schedule B information he needs. The district court
credited these arguments, concluding that Schedule B

21a
information is not “necessary” to the Attorney
General’s investigations because: the Registry, whose
sole job it is to collect and maintain complete
registration information, does not actively review
Schedule B forms as they come in; Schedule Bs have
not been used to trigger investigations; and the
Attorney General can obtain a Schedule B through
subpoenas and audits when a case-specific need
arises. See Americans for Prosperity Found., 182 F.
Supp. 3d at 1053–54.
We addressed these same arguments, of
course, in Center for Competitive Politics, 784 F.3d at
1317, where we expressly rejected the proposition
that the Schedule B requirement is insufficiently
tailored because the state could achieve its
enforcement goals through use of its subpoena power
or audit letters. We noted that the state’s quick access
to Schedule B filings “increases [the Attorney
General’s] investigative efficiency” and allows him to
“flag suspicious activity.” Id. For example, as the
Attorney General argued in that case,
having significant donor information
allows the Attorney General to
determine when an organization has
inflated its revenue by overestimating
the value of “in kind” donations.
Knowing the significant donor’s identity
allows her to determine what the “in
kind” donation actually was, as well as
its real value. Thus, having the donor’s
information
immediately
available
allows her to identify suspicious
behavior. She also argues that requiring
unredacted versions of Form 990

22a
Schedule B increases her investigative
efficiency and obviates the need for
expensive and burdensome audits.
Id. at 1311.
The evidence at trial confirms our earlier
conclusions. Belinda Johns, the senior assistant
attorney general who oversaw the Charitable Trusts
Section for many years, testified that attempting to
obtain a Schedule B from a regulated entity after an
investigation began was unsatisfactory. She testified
that her office would want “to look at [the] Schedule
B . . . the moment we thought there might be an issue
with the charity.” “[I]f we subpoenaed it or sent a
letter to the charity, that would tip them off to our
investigation, which would allow them potentially to
dissipate more assets or hide assets or destroy
documents, which certainly happened several times;
or it just allows more damage to be done to [the]
charity if we don’t have the whole document at the
outset.” Rather than having “to wait extra days,” she
wanted to “take the action that needs to be taken as
quickly as possible.” She explained that her office
relied on Schedule Bs to “tell us whether or not there
was an illegal activity occurring.” Where such activity
was found, she would “go into court immediately and
. . . request a [temporary restraining order] from the
court to freeze assets.”
Johns’ successor, Tania Ibanez, testified
similarly that “getting a Schedule B through a[n]
audit letter is not the best use of my limited
resources.”
Because it’s time-consuming, and you
are tipping the charity off that they are

23a
about to be audited. And it’s been my
experience when the charity knows or
when the charity gets the audit letter,
it’s not the best way of obtaining records.
We have been confronted in situations
where the charity will fabricate records.
Charities have given us incomplete
records,
nonresponsive
records.
Charities have destroyed records, and
charities have engaged in other dilatory
tactics.
Sonja Berndt, a deputy attorney general in the
Charitable Trusts Section, confirmed that attempting
to obtain Schedule Bs through the auditing process
would entail substantial delay.
The district court’s other conclusions are
equally flawed. Although the state may not routinely
use Schedule B information as it comes in, the
Attorney General offered ample evidence of the ways
his office uses Schedule B information in
investigating charities that are alleged to have
violated California law. See Cal. Corp. Code §§ 5227,
5233, 5236 (providing examples of the role the
Attorney General plays in investigating nonprofit
organizations that violate California law). Current
and former members of the Charitable Trusts Section,
for example, testified that they found the Schedule B
particularly useful in several investigations over the
past few years, and provided examples. They were
able to use Schedule B information to trace money
used for improper purposes in connection with a
charity serving animals after Hurricane Katrina; to
identify a charity’s founder as its principal
contributor, indicating he was using the research

24a
charity as a pass-through; to identify self-dealing in
that same charity; to track a for-profit corporation’s
use of a non-profit organization as an improper vessel
for gain; and to investigate a cancer charity’s gift-inkind fraud.3
In sum, the record demonstrates that the state
has a strong interest in the collection of Schedule B
information from regulated charities. We agree with
the Second Circuit that the disclosure requirement
“clearly further[s]” the state’s “important government
interests” in “preventing fraud and self-dealing in
charities . . . by making it easier to police for such
fraud.” Schneiderman, 882 F.3d at 384.
The district court reached a different
conclusion, but it did so by applying an erroneous
legal standard. The district court required the
Attorney General to demonstrate that collection of
Schedule B information was “necessary,” Thomas
More Law Ctr., 2016 WL 6781090, at *2, that it was
no “more burdensome than necessary” and that the
state could not achieve its ends “by more narrowly
tailored means,” id. at *2–3. Because it was “possible
for the Attorney General to monitor charitable
organizations without Schedule B,” the court
3

The Foundation points out that the Attorney General identified
only five investigations in the past 10 years in which the state
has used Schedule B information to investigate a charity. The
Attorney General, however, identified an additional five
investigations that were still ongoing. The district court did not
allow the Attorney General’s witnesses to testify about those
ongoing investigations, because the Attorney General
understandably refused to name the charities under current
investigation.

25a
concluded the requirement is unconstitutional. Id. at
*2. The “more burdensome than necessary” test the
district court applied, however, is indistinguishable
from the narrow tailoring and least-restrictive-means
tests that we have repeatedly held do not apply here.
The district court’s application of this standard,
therefore, constituted legal error.
Because the district court applied an erroneous
legal standard, it consistently framed the legal
inquiry as whether it was possible “that the Attorney
General could accomplish her goals without the
Schedule B.” Id. at *3. Under the substantial relation
test, however, the state was not required to show that
it could accomplish its goals only by collecting
Schedule B information. The state instead properly
and persuasively relied on evidence to show that the
up-front collection of Schedule B information
improves the efficiency and efficacy of the Attorney
General’s important regulatory efforts. Even if the
Attorney General can achieve his goals through other
means, nothing in the substantial relation test
requires him to forgo the most efficient and effective
means of doing so, at least not absent a showing of a
significant burden on First Amendment rights. As
Steven Bauman, a supervising investigative auditor
for the Charitable Trusts Section testified, “We could
complete our investigations if you took away many of
the tools that we have. We just wouldn’t be as
effective or as efficient.”
Because the strict necessity test the district
court applied is not the law, the district court’s
analysis does not alter our conclusion that the state
has a strong interest in the collection of Schedule B
information from regulated charities.

26a
B. The Seriousness of the Actual Burden
on First Amendment Rights
Having considered the strength of the
governmental interest, we turn to the actual burden
on the plaintiffs’ First Amendment rights.
The Supreme Court has concluded that
“compelled disclosure has the potential for
substantially infringing the exercise of First
Amendment rights.” Buckley v. Valeo, 424 U.S. 1, 66
(1976). To assess “the possibility that disclosure will
impinge upon protected associational activity,” id. at
73, we consider “any deterrent effect on the exercise
of First Amendment rights,” id. at 65.
We may examine, for example, the extent to
which requiring “disclosure of contributions . . . will
deter some individuals who otherwise might
contribute,” including whether disclosure will “expose
contributors to harassment or retaliation.” Id. at 68.
“[T]hat one or two persons refused to make
contributions because of the possibility of disclosure”
will not establish a significant First Amendment
burden. Id. at 72. Nor will a showing that “people may
‘think twice’ about contributing.” Family PAC, 685
F.3d at 807. “[D]isclosure requirements,” however,
“can chill donations to an organization by exposing
donors to retaliation,” Citizens United, 558 U.S. at
370, and “[i]n some instances fears of reprisal may
deter contributions to the point where the movement
cannot survive,” Buckley, 424 U.S. at 71. In such
cases, the First Amendment burdens are indeed
significant.
A party challenging a disclosure requirement,
therefore, may succeed by proving “a substantial

27a
threat of harassment.” Id. at 74. As a general matter,
“those resisting disclosure can prevail under the First
Amendment if they can show ‘a reasonable
probability that the compelled disclosure of personal
information will subject them to threats, harassment,
or reprisals from either Government officials or
private parties.’” Doe, 561 U.S. at 200 (alteration
omitted) (quoting Buckley, 424 U.S. at 74); see also
Citizens United, 558 U.S. at 370.4
Here, the plaintiffs contend requiring them to
comply with the Attorney General’s Schedule B
disclosure requirement will impose a significant First
Amendment burden in two related ways. First, they
contend requiring them to comply with the Schedule
B requirement will deter contributors. Second, they
argue disclosure to the Attorney General will subject
their contributors to threats, harassment and
reprisals. We consider these contentions in turn.

4

In making this showing, we agree with the Attorney General
that the plaintiffs must show a reasonable probability of threats,
harassment or reprisals arising from the Schedule B
requirement itself. But this does not mean the plaintiffs cannot
rely on evidence showing, for example, that their members have
been harassed for other reasons, or evidence that similar
organizations have suffered a loss in contributions as a result of
Schedule B disclosure. To be sure, the extent to which the
plaintiffs’ evidence is tied directly to, or is attenuated from, the
experience of the plaintiffs themselves and the California
Attorney General’s Schedule B requirement in particular goes to
the weight of that evidence. But the plaintiffs may rely on any
evidence that “has any tendency to make a fact more or less
probable than it would be without the evidence.” Fed. R. Evid.
401(a).

28a
1. Evidence That Disclosure Will Deter
Contributors
We begin by considering whether disclosure
will deter contributors. We first consider evidence
presented by the Foundation. We then consider
evidence presented by the Law Center.
Christopher Joseph Fink, the Foundation’s
chief operating officer, testified that prospective
contributors’ “number one concern is about being
disclosed.” He testified that “they are afraid to have
their information in the hands of state government or
a federal government or in the hands of the public.”
He testified that business owners “are afraid if they
are associated with our foundation or with Americans
for Prosperity, their businesses would be targeted or
audited from the state government.” Teresa Oelke,
the Foundation’s vice president of state operations,
described two individuals who, she believed, stopped
supporting the Foundation in light of actual or feared
retaliation by the IRS. One contributor “did business
with the Government,” and he and his business
associates “did not feel like they could take on the risk
of continuing to give to us.” Another contributor
allegedly stopped giving “because he, his business
partner and their business had experienced seven
different reviews from government agencies,
including individual IRS audits, both personally and
their businesses, and their family was not willing to
continue enduring the emotional, financial, time
stress and the stress that it placed on their business.”
Oelke testified that, on average, the Foundation and
Americans for Prosperity combined lose “roughly
three donors a year” due to “their concern that they
are going to be disclosed and the threats that they

29a
believe that being disclosed lays to either their
business, their families or just their employees.” Paul
Schervish, an emeritus professor of sociology, testified
that, in his opinion, disclosure to the California
Attorney General would chill contributions to the
Foundation, although he conceded that he had not
actually spoken to any of the Foundation’s
contributors. Foundation President Tim Phillips
testified that contributors see the California Attorney
General’s office as “a powerful partisan office.” The
Foundation also points to evidence that, in its view,
shows that some California officials harbor a negative
attitude toward Charles and David Koch.
The Law Center introduced a letter from a
contributor who chose to make a $25 contribution
anonymously out of fear that ISIS would break into
the Law Center’s office, obtain a list of contributors
and target them. Schervish, the sociology professor,
opined that the Law Center’s “disclosure of Schedule
B to the registry would chill contributions.” He
acknowledged, however, that he had not spoken with
any of the Law Center’s existing or prospective
contributors, and he could not point to any contributor
who had reduced or eliminated his or her support for
the Law Center due to the fear of disclosure – a
common weakness in the Law Center’s evidence.
For example, Thomas Monaghan, the Law
Center’s co-founder and most well-known contributor,
testified that he is not aware of any Law Center
contributor who was “harassed in some way because
they made a donation.” Despite being included “at the
top of a list . . . of the most antigay persons in the
country” (allegedly because of his financial support
for the Law Center), he remains “perfectly willing” to

30a
be listed on the Law Center’s website as “one of the
people who helped to establish” the Law Center.
Similarly, the Law Center’s president testified that he
has never had a conversation with a potential
contributor who was unwilling to contribute to the
Law Center because of the public controversy
surrounding the Law Center or its disclosure
requirements. For years, moreover, the Law Center
has over-disclosed contributor information on
Schedule Bs filed with the IRS. Although by law the
Law Center is required to disclose only those
contributors furnishing 2 percent or more of the
organization’s receipts (about five to seven
contributors a year), it has instead chosen to disclose
all contributors providing $5,000 or more in financial
support (about 23 to 60 contributors a year). This
voluntary over-disclosure tends to undermine the
Law Center’s contention that Schedule B disclosure
meaningfully deters contributions.
Considered as a whole, the plaintiffs’ evidence
shows that some individuals who have or would
support the plaintiffs may be deterred from
contributing if the plaintiffs are required to submit
their Schedule Bs to the Attorney General. The
evidence, however, shows at most a modest impact on
contributions. Ultimately, neither plaintiff has
identified a single individual whose willingness to
contribute hinges on whether Schedule B information
will be disclosed to the California Attorney General.
Although there may be a small group of contributors
who are comfortable with disclosure to the IRS, but
who would not be comfortable with disclosure to the
Attorney General, the evidence does not show that

31a
this group exists or, if it does, its magnitude. As the
Second Circuit explained:
While we think it plausible that some
donors will find it intolerable for law
enforcement officials to know where they
have made donations, we see no reason
to believe that this risk of speech chilling
is more than that which comes with any
disclosure regulation. In fact, all entities
to which these requirements apply
already comply with the federal law
mandating that they submit the
selfsame information to the IRS.
Appellants offer nothing to suggest that
their donors should more reasonably
fear having their identities known to
New York’s Attorney General than
known to the IRS.
Schneiderman, 882 F.3d at 384.
The mere possibility that some contributors
may choose to withhold their support does not
establish a substantial burden on First Amendment
rights. A plaintiff cannot establish a significant First
Amendment burden by showing only “that one or two
persons refused to make contributions because of the
possibility of disclosure,” Buckley, 424 U.S. at 72, or
that “people may ‘think twice’ about contributing,”
Family PAC, 685 F.3d at 807. The evidence presented
by the plaintiffs here does not show that disclosure to
the Attorney General will “actually and meaningfully
deter contributors,” id., or that disclosure would
entail “the likelihood of a substantial restraint upon
the exercise by [their contributors] of their right to

32a
freedom of association,” NAACP v. Alabama ex rel.
Patterson, 357 U.S. 449, 462 (1958).5 Cf. Bates v. City
of Little Rock, 361 U.S. 516, 521 n.5 (1960) (between
100 and 150 members declined to renew their NAACP
membership, citing disclosure concerns); Dole v. Serv.
Emps. Union, AFL-CIO, Local 280, 950 F.2d 1456,
1460 (9th Cir. 1991) (placing particular weight on two
letters explaining that because meeting minutes
might be disclosed, union members would no longer
attend meetings).
The Schedule B requirement, moreover, is not
a sweeping one. It requires the Foundation and the
Law Center to disclose only their dozen or so largest
contributors, and a number of these contributors are
already publicly identified, because they are private
foundations which by law must make their
expenditures public. As applied to these plaintiffs,
therefore, the Schedule B requirement is a far cry
from the broad and indiscriminate disclosure laws
passed in the 1950s to harass and intimidate
members of unpopular organizations. See, e.g.,
Gremillion, 366 U.S. at 295 (invalidating a state law
requiring every organization operating in the state “to
file with the Secretary of State annually ‘a full,
complete and true list of the names and addresses of
all of the members and officers’ in the State”); Shelton,
5

“In NAACP, the Court was presented . . . with ‘an
uncontroverted showing that on past occasions revelation of the
identity of its rank-and-file members has exposed those
members to economic reprisal, loss of employment, [and] threat
of physical coercion,’ and it was well known at the time that civil
rights activists in Alabama and elsewhere had been beaten
and/or killed.” Schneiderman, 882 F.3d at 385 (second alteration
in original) (quoting NAACP, 357 U.S. at 462).

33a
364 U.S. at 480 (invalidating a state law “compel[ing]
every teacher, as a condition of employment in a statesupported school or college, to file annually an
affidavit listing without limitation every organization
to which he has belonged or regularly contributed
within the preceding five years”).
In sum, the plaintiffs have not shown a
significant First Amendment burden on the theory
that complying with the Attorney General’s Schedule
B nonpublic disclosure requirement will chill
contributions.
2. Evidence That Disclosure to the Attorney
General Will Subject Contributors to
Threats, Harassment and Reprisals
Alternatively, the plaintiffs seek to establish a
First Amendment burden by showing that, if they are
required to disclose their Schedule B information to
the Attorney General, there is “a reasonable
probability that the compelled disclosure of personal
information will subject [their contributors] to
threats, harassment, or reprisals from either
Government officials or private parties.” Doe, 561
U.S. at 200 (alteration omitted) (quoting Buckley, 424
U.S. at 74). This inquiry necessarily entails two
questions: (1) what is the risk of public disclosure; and
(2), if public disclosure does occur, what is the
likelihood that contributors will be subjected to
threats, harassment or reprisals? We consider these
questions in reverse order.
a. Likelihood of Retaliation
The first question, then, is whether the
plaintiffs have shown that contributors are likely to

34a
be subjected to threats, harassment or reprisals if
Schedule B information were to become public. We
again consider the Foundation’s evidence first,
followed by the Law Center’s evidence.
The Foundation’s evidence undeniably shows
that some individuals publicly associated with the
Foundation have been subjected to threats,
harassment or economic reprisals. Lucas Hilgemann,
the Foundation’s chief executive officer, testified that
he was harassed and targeted, and his personal
information posted online, in connection with his
work surrounding union “right to work” issues in
Wisconsin. Charles and David Koch have received
death threats, and Christopher Fink, the
Foundation’s chief operating officer, has received
death threats for publicly contributing to the
Foundation through his family’s private foundation.
Art Pope, a member of the Foundation’s board of
directors, and a contributor through his family
foundation, testified that he received a death threat
and has been harassed by “a series of articles” that
falsely accuse him of “funding global warming
deni[al].” His businesses have been boycotted,
although we hesitate to attribute those boycotts to
Pope’s association with the Foundation.6
6

Pope says his business, Variety Wholesalers, was boycotted in
part because of his affiliation with the Foundation. But Pope was
the state budget director of North Carolina and is publicly
associated with a large number of organizations and candidates.
Despite publicly contributing to the Foundation since 2004, and
to the Foundation’s predecessor since 1993, he did not receive
threats or negative attention until 2010, in connection with his
involvement in the North Carolina elections. This same problem
plagues much of the plaintiffs’ evidence. In many instances, the

35a
In some cases, moreover, the Foundation’s
actual or perceived contributors may have faced
economic reprisals or other forms of harassment.
Teresa Oelke, for instance, cited
a donor whose business was targeted by
an association, a reputable association
in that state. A letter was sent to all the
school boards in that state encouraging
[them] to discontinue awarding this
individual’s business contracts because
of his assumed association with
Americans for Prosperity and Americans
for Prosperity Foundation. . . . That
individual reduced his contributions in
half, so from $500,000 annually to
250,000 based on the pressure from his
board that remains in place today.
Hilgemann, the Foundation’s CEO, suggested that
during the “right to work” campaign in Wisconsin in
2012, an opposition group “pulled together a list of
suspected donors to the Foundation because of their
interactions with groups like ours in the past that had
evidence of harassment pertains to individuals who are publicly
identified with a number of controversial activities or
organizations, making it difficult to assess the extent to which
the alleged harassment was caused by a connection to the
Foundation or the Law Center in particular. Most of the
individuals who have experienced harassment, moreover, have
been more than mere contributors, again making it difficult to
isolate the risk of harassment solely from being a large
contributor. The plaintiffs have presented little evidence bearing
on whether harassment has occurred, or is likely to occur, simply
because an individual or entity provided a large financial
contribution to the Foundation or the Law Center.

36a
been publicized. [Opponents] boycotted their
businesses. They made personal and private threats
against them, their families and their business and
their employees.”7
The Law Center, too, has presented some
evidence to suggest individuals associated with the
Law Center have experienced harassment, although
it is less clear to what extent it results solely from that
association. The Law Center, for instance, points to: a
smattering of critical letters, phone calls and emails
it has received over the years; the incident in which
Monaghan was placed on a list of “the most antigay
persons in the country” after the Law Center became
involved in a controversial lawsuit; and threats and
harassment its clients, such as Robert Spencer and
Pamela Geller, have received based on their
controversial public activities. As noted, however,
Monaghan could not recall any situation in which a
contributor to the Law Center was harassed, or
expressed concerns about being harassed, on account
of having contributed to the Law Center.
On the one hand, this evidence plainly shows
at least the possibility that the plaintiffs’ Schedule B
contributors would face threats, harassment or
7

Like much of the plaintiffs’ evidence, the harassment
allegations recounted by Oelke and Hilgemann are conclusory
rather than detailed. Although we understand the plaintiffs’
interest in protecting their contributors’ identities from
disclosure, we cannot imagine why the plaintiffs have not
provided more detailed evidence to substantiate and develop
their allegations of retaliation – something we are confident they
could have accomplished without compromising their
contributors’ anonymity.

37a
reprisals if their information were to become public.
Such harassment, however, is not a foregone
conclusion. In 2013, after acquiring copies of the
Foundation’s 2001 and 2003 Schedule B filings, the
National Journal published an article publicly
identifying many of the Foundation’s largest
contributors.8 If, as the plaintiffs contend, public
disclosure of Schedule B information would subject
their contributors to widespread retaliation, we would
expect the Foundation to present evidence to show
that, following the National Journal’s unauthorized
Schedule B disclosure, its contributors were harassed
or threatened. No such evidence, however, has been
presented.
Ultimately, we need not decide whether the
plaintiffs have demonstrated a reasonable probability
that the compelled disclosure of Schedule B
information would subject their contributors to a
constitutionally significant level of threats,
harassment or reprisals if their Schedule B
information were to become public. See Doe, 561 U.S.
at 200.9 As we explain next, we are not persuaded that
there exists a reasonable probability that the
8

The record does not reflect how the National Journal acquired
this information. No one has suggested that the California
Attorney General’s office was the source, nor could it have been,
as the Foundation was not reporting its Schedule B contributors
to the state in 2001 or 2003.
9

The district court concluded the plaintiffs have shown a
“reasonable probability” that public disclosure of their Schedule
B contributors would subject them to such threats and
harassment. Because this constitutes a mixed question of law
and fact, however, we review the question de novo. See In re
Cherrett, 873 F.3d 1060, 1066 (9th Cir. 2017).

38a
plaintiffs’ Schedule B information will become public
as a result of disclosure to the Attorney General.
Thus, the plaintiffs have not established a reasonable
probability of retaliation from compliance with the
Attorney General’s disclosure requirement.
b. Risk of Public Disclosure
The parties agree that, as a legal matter, public
disclosure of Schedule B information is prohibited.
California law allows for public inspection of
charitable trust records, with the following exception:
Donor information exempt from public
inspection pursuant to Internal
Revenue Code section 6104(d)(3)(A)
shall be maintained as confidential by
the Attorney General and shall not be
disclosed except as follows:
(1) In a court or administrative
proceeding brought pursuant to the
Attorney General’s charitable trust
enforcement responsibilities; or
(2) In response to a search warrant.
Cal. Code Regs. tit. 11, § 310(b).10 The plaintiffs
argue, however, that their Schedule B information
may become public because the Attorney General has

The plaintiffs suggest California’s regulations are not as
protective as federal regulations because federal law imposes
criminal penalties for unauthorized disclosure of information on
tax returns. See 26 U.S.C. § 7213. Federal law, however,
criminalizes only willful unauthorized disclosure; the
differences between federal and California law are therefore
immaterial to risk of inadvertent public disclosure at issue here.
10

39a
a poor track record of shielding the information from
the public view.
We agree that, in the past, the Attorney
General’s office has not maintained Schedule B
information as securely as it should have, and we
agree with the plaintiffs that this history raises a
serious concern. The state’s past confidentiality
lapses are of two varieties: first, human error when
Registry staff miscoded Schedule B forms during
uploading; and second, a software vulnerability that
failed to block access to the Foundation’s expert,
James McClave, as he probed the Registry’s servers
for flaws during this litigation.
We are less concerned with the latter lapse.
McClave discovered that by manipulating the
hexadecimal ending of the URL corresponding to each
file on the Registry website, he could access a file that
was confidential and did not correspond to a clickable
link on the website. That is, although documents were
deemed “confidential,” that meant only that they were
not visible to the public; it did not mean they were not
still housed on the public-facing Registry website. By
altering the single digit at the end of the URL,
McClave was able to access, one at a time, all 350,000
of the Registry’s confidential documents. This lapse
was a singularity, stemming from an issue with the
Attorney General’s third-party security vendor. When
it was brought to the Attorney General’s attention
during trial, the vulnerability was quickly remedied.
There is no evidence to suggest that this type of error
is likely to recur.
We are more concerned with human error. As
part of an iterative search on the public-facing

40a
website
of
the
Registry,
McClave
found
approximately 1800 confidential Schedule Bs that
had been misclassified as public over several years.
The Attorney General promptly removed them from
public access, but some had remained on the website
since 2012, when the Registry began loading its
documents to servers.
Much of this error can be traced to the large
amount of paper the Registry Unit processes around
the same time each year. The Registry Unit receives
over 60,000 registration renewals annually, and 90
percent are filed in hard copy. It processes each by
hand before using temporary workers and student
workers to scan them into an electronic record
system. The volume and tediousness of the work
seems to have resulted in some staff occasionally
mismarking confidential Schedule Bs as public and
then uploading them to the public-facing site.
Recognizing the serious need to protect
confidentiality, however, the Registry Unit has
implemented stronger protocols to prevent human
error. It has implemented “procedural quality checks
. . . to sample work as it [is] being performed” and to
ensure it is “in accordance with procedures on
handling documents and [indexing them] prior to
uploading.” It has further implemented a system of
text-searching batch uploads before they are scanned
to the Registry site to ensure none contains Schedule
B keywords. At the time of trial in 2016, the Registry
Unit had halted batch uploads altogether in favor of
loading each document individually, as it was refining
the text-search system. After forms are loaded to the
Registry, the Charitable Trusts Section runs an
automated weekly script to identify and remove any

41a
documents that it had inadvertently misclassified as
public. There is also no dispute that the Registry Unit
immediately removes any information that an
organization identifies as having been misclassified
for public access.
Nothing is perfectly secure on the internet in
2018, and the Attorney General’s data are no
exception, but this factor alone does not establish a
significant risk of public disclosure. As the Second
Circuit recently explained, “[a]ny form of disclosurebased regulation – indeed, any regulation at all –
comes with some risk of abuse. This background risk
does not alone present constitutional problems.”
Schneiderman, 882 F.3d at 383.
Although the plaintiffs have shown the state
could afford to test its own systems with more
regularity, they have not shown its cybersecurity
protocols are deficient or substandard as compared to
either the industry or the IRS, which maintains the
same confidential information.11 We agree with the
Second Circuit that “there is always a risk somebody
in the Attorney General’s office will let confidential
11

Although the plaintiffs contend that the Charitable Trusts
Section’s protective measures are inadequate because they
impose no physical or technical impediments to prevent
employees from emailing Schedule Bs externally or printing
them in the office, the record does not show that the IRS
maintains a more secure internal protocol for its handling of
Schedule B information or that the Charitable Trusts Section is
failing to meet any particular security standard. Nonetheless,
we take seriously the concerns raised here by the plaintiffs and
amici, and we encourage all interested parties to work
cooperatively to ensure that Schedule B information in the
hands of the Attorney General remains confidential.

42a
information slip notwithstanding an express
prohibition. But if the sheer possibility that a
government agent will fail to live up to her duties
were enough for us to assume those duties are not
binding, hardly any government action would
withstand our positively philosophical skepticism.”
Id. at 384.
Although the district court appears to have
concluded that there is a high risk of public disclosure
notwithstanding the promulgation of § 310 and the
Attorney General’s adoption of additional security
measures, the court appears to have rested this
conclusion solely on the state’s past “inability to
ensure confidentiality.” Thomas More Law Ctr., 2016
WL 6781090, at *5. In light of the changes the
Attorney General has adopted since those breaches
occurred, however, the evidence does not support the
inference that the Attorney General is likely to
inadvertently disclose either the Law Center’s or the
Foundation’s Schedule B in the future. The risk of
inadvertent disclosure of any Schedule B information
in the future is small, and the risk of inadvertent
disclosure of the plaintiffs’ Schedule B information in
particular is smaller still. To the extent the district
court found otherwise, that finding was clearly
erroneous.
Given the slight risk of public disclosure, we
cannot say that the plaintiffs have shown “a
reasonable probability that the compelled disclosure
of personal information will subject them to threats,
harassment, or reprisals.” See Doe, 561 U.S. at 200
(alteration omitted) (quoting Buckley, 424 U.S. at 74).

43a
In sum, the plaintiffs have not shown that
compliance with the Attorney General’s Schedule B
requirement
will
impose
significant
First
Amendment burdens. The plaintiffs have not
demonstrated that compliance with the state’s
disclosure requirement will meaningfully deter
contributions. Nor, in light of the low risk of public
disclosure, have the plaintiffs shown a reasonable
probability of threats, harassment or reprisals.
Because the burden on the First Amendment right to
association is modest, and the Attorney General’s
interest in enforcing its laws is important, Ctr. for
Competitive Politics, 784 F.3d at 1317, “the strength
of the governmental interest . . . reflect[s] the
seriousness of the actual burden on First Amendment
rights.” Doe, 561 U.S. at 196 (quoting Davis, 554 U.S.
at 744). As applied to the plaintiffs, therefore, the
Attorney General’s Schedule B requirement survives
exacting First Amendment scrutiny.
IV.
The plaintiffs’ facial challenges also fail. In
AFPF I, we held that we were “bound by our holding
in Center for Competitive Politics, 784 F.3d at 1317,
that the Attorney General’s nonpublic Schedule B
disclosure regime is facially constitutional.” AFPF I,
809 F.3d at 538. That holding constitutes the law of
the case. See Ranchers Cattlemen Action Legal Fund
United Stockgrowers of Am. v. U.S. Dep’t of Agric., 499
F.3d 1108, 1114 (9th Cir. 2007) (“[T]he general rule
[is] that our decisions at the preliminary injunction
phase do not constitute the law of the case. Any of our
conclusions on pure issues of law, however, are
binding.” (citations and internal quotation marks
omitted)). Even if we were to consider the facial

44a
challenges anew, the evidence adduced at these trials
does not prove the Schedule B requirement “fails
exacting scrutiny in a ‘substantial’ number of cases,
‘judged in relation to [its] plainly legitimate sweep.’”
Ctr. for Competitive Politics, 784 F.3d at 1315
(quoting United States v. Stevens, 559 U.S. 460, 473
(2010)).
We also reject the Law Center’s cross-appeal as
to its Fourth Amendment and preemption claims.
These claims were not proved at trial. We decline to
consider the Law Center’s motion for attorney’s fees
because it was not presented to the district court.
Finally, we deny the Law Center’s motion for judicial
notice and the Attorney General’s motion to strike
portions of the Law Center’s reply brief.
The judgments of the district court are
reversed. The permanent injunctions are vacated.
The case is remanded for entry of judgments in favor
of the Attorney General.
INJUNCTIONS VACATED; JUDGMENTS
REVERSED; CASES REMANDED.
The Law Center’s motion for judicial notice,
filed February 12, 2018 (Dkt. 45, No. 16-56855) is
DENIED.
The Attorney General’s motion to strike, filed
February 13, 2018 (Dkt. 47, No. 16-56855), is
DENIED.

45a

46a

47a

48a

49a

50a

*****

51a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
THOMAS MORE LAW
CENTER,
Plaintiff,
v.
KAMALA HARRIS, in her
Official Capacity as Attorney
General of California,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.
CV 15-3048-R
ORDER FOR
JUDGMENT
IN FAVOR OF
PLAINTIFF

For the reasons that follow, this Court grants
Thomas More Law Center’s (“TMLC”) motion for a
permanent injunction to enjoin the Attorney General
of California from demanding its Schedule B form and
enters judgment in favor of TMLC. After conducting
a full bench trial, this Court finds the Attorney
General’s Schedule B disclosure requirement
unconstitutional as applied to TMLC.
Plaintiff TMLC is a nonprofit corporation
organized under Internal Revenue Code section
501(c)(3) that funds its activities by raising charitable
contributions from donors throughout the country,
including California. California state law requires
charitable organizations, such as TMLC, to file a copy
of its IRS Form 990, including its Schedule B, with
the State Registry of Charitable Trusts (“the
Registry”). Cal. Code Regs. tit. 11, § 301. An

52a
organization’s Schedule B includes the names and
addresses of every individual nationwide who
donated more than $5,000 to a charity during a given
tax year. While a nonprofit’s IRS Form 990 must be
made available to the public, an organization’s
Schedule B is not publicly available. 26 U.S.C. §
6104(b), (d)(3)(A).
Since 2001, TMLC filed its Form 990 as part of
its periodic reporting with the Attorney General,
without including its Schedule B. For each year from
2001 through 2009, the Attorney General accepted
TMLC’s registration renewal and listed TMLC as an
active charity in compliance with the law. In a letter
dated March 6, 2012, the Attorney General indicated
that TMLC’s 2010 filing was insufficient due to its
failure to include a Schedule B. In April 2015, TMLC
brought the present action seeking an order
preliminarily enjoining the Attorney General from
demanding its Schedule B. Among other claims,
TMLC argued that the California law requiring
disclosure of its Schedule B to the Attorney General
was facially unconstitutional. TMLC also brought an
as-applied challenge against the disclosure
requirement.
This Court granted Plaintiff a preliminary
injunction, which the Ninth Circuit vacated.
Americans for Prosperity Found. v. Harris, 809 F.3d
536 (9th Cir. 2015). In its remand, the Ninth Circuit
held that this Court is bound by its previous decision
in Center for Competitive Politics v. Harris, 784 F.3d
1307, 1317 (9th Cir. 2015)—that the Attorney
General’s nonpublic Schedule B disclosure regime
was not facially unconstitutional. Americans for
Prosperity Found., 809 F.3d at 538. The Ninth Circuit

53a
did, however, instruct this Court to have a trial on the
as-applied challenge. Id. at 543. Accordingly, the
Court now focuses on TMLC’s as-applied challenge.
Courts review First Amendment challenges to
disclosure requirements under an “exacting scrutiny”
standard. John Doe No. 1 v. Reed, 561 U.S. 186, 196
(2010); Citizens United v. FEC, 558 U.S. 310, 366
(2010). Exacting scrutiny “requires a ‘substantial
relation’ between the disclosure requirement and a
‘sufficiently important’ governmental interest.”
Center for Competitive Politics, 784 F.3d at 1312
(citations omitted). This encompasses a balancing
test. In order for a government action to survive
exacting scrutiny, “the strength of the governmental
interest must reflect the seriousness of the actual
burden on First Amendment rights.” John Doe No. 1,
561 U.S. at 196.
I.

Substantial Relation to a Sufficiently
Important Governmental Interest

Defendant argues that the state law requiring
that all charities file a complete copy of IRS Form 990
Schedule B is substantially related to the Attorney
General’s compelling interest in protecting the public
and ensuring that charitable organizations are not
abusing their legal privileges. The Attorney General
argues that the disclosure of Schedule B allows the
Registry to determine how much revenue a charity
receives and who is donating to the charitable
organization and in what form. According to the
Attorney General, the Schedule B information assists
her office in determining whether an organization has
violated the law, including laws against self-dealing,
improper loans, interested persons, or illegal or unfair

54a
business practices. The Court finds that as applied,
the disclosure of the Schedule B form is not
substantially related to the Attorney General’s
interest in monitoring and investigating charitable
organizations. First, the Attorney General’s
arguments that Schedule B is necessary is undercut
by the fact that she has only recently determined a
need for the information and has access to the same
information from other sources. Second, even
assuming arguendo that this information does
genuinely assist in the Attorney General’s
investigations, its disclosure demand of Schedule B is
more burdensome than necessary.
Although Center for Competitive Politics found
that the Attorney General’s “disclosure requirement
bears a ‘substantial relation’ to a ‘sufficiently
important’ government interest,” this Court, for the
second time, held a bench trial and was left
unconvinced that the Attorney General’s collection of
Schedule B forms substantially assists the
investigation of charitable organizations. TMLC, like
Americans for Prosperity, was registered with the
Registry for years and was never required to disclose
its Schedule B. It was not until 2012 that the Attorney
General first notified TMLC that it was required to
file its Schedule B. This fact alone indicates that it is
indeed possible for the Attorney General to monitor
charitable organizations without Schedule B. The
Attorney General undoubtedly had the same interest
in protecting the public and monitoring charitable
organizations prior to 2012. Yet, she was able to
further this interest without the collection of TMLC’s
Schedule B.

55a
Portions of the Americans for Prosperity
testimony and evidence were admitted in the TMLC
trial. Particularly relevant here is the testimony of a
supervising investigative auditor for the Attorney
General, Steve Bauman. Mr. Bauman’s trial
testimony confirmed that auditors and attorneys
seldom use Schedule B when auditing or
investigating charities. Bauman testified that out of
the approximately 540 investigations conducted over
the past ten years in the Charitable Trusts Section,
only five instances involved the use of a Schedule B.
(Exhibit 913, AFPF v. Harris, Bauman Test., 3/4/16,
p. 19:15-19). Even in the few instances in which a
Schedule B was relied on, the relevant information it
contained could have been obtained from other
sources. (Exhibit 913, AFPF v. Harris, Bauman Test.
3/4/16, p. 31:8–32:10).
At trial in the present case, the Attorney
General presented the testimony of Tania Ibanez, the
head of the Attorney General’s Charitable Trusts
Section. Ms. Ibanez testified that her office uses
Schedule B regularly to assist in the evaluation of the
merits of complaints and assess the legality of a
charitable organization’s finances. Additionally,
Joseph Zimring, a Deputy Attorney General in the
Charity and Trusts section, testified that he has used
a Schedule B in an investigation he was involved in.
However, Zimring also testified that it was “very
likely” that he could have completed a successful
investigation without a Schedule B and that other
sources, such as Schedule L, contain the same
information as Schedule B. (Zimring Test., 9/14/16, p.
80:11-18, 81:18-19). Ms. Ibanez’s testimony
establishes nothing more than a convenience and

56a
general usage of Schedule B. This Court does not
doubt that the Attorney General does in fact use the
Schedule Bs it collects. However, Mr. Zimring’s
testimony also indicates that the Attorney General is
more than capable of protecting the public and
enforcing the laws by other means. The numerous
other means by which the Attorney General could
obtain the information she needs to investigate
charitable organizations show that the collection of
the Schedule B is not substantially related to her
important interest.
It is apparent to this Court that the Attorney
General’s requirement of Schedule B is not
substantially related to its interest in regulating
charitable organizations. Furthermore, the Attorney
General’s interest could be more narrowly achieved.
In the context of associational rights, “even
though the governmental purpose [may] be legitimate
and substantial, that purpose cannot be pursued by
means that broadly stifle fundamental personal
liberties when the end can be more narrowly
achieved.” Louisiana v. NAACP, 366 U.S. 293, 296
(1961). This differs from the electoral context. The
Ninth Circuit has held that disclosure of electoral
donations and financing information is not subject to
a least-restrictive-means analysis. Chula Vista
Citizens for Jobs & Fair Competition v. Norris, 782
F.3d 520, 541 (9th Cir. 2015). This Court does not hold
the Attorney General to a least-restrictive-means
standard. However, the Attorney General is limited to
pursuing its interest in protecting the public from
illegal charitable organizations by means which do
not “broadly stifle fundamental personal liberties
when the end can be more narrowly achieved.”

57a
Here, like in NAACP, the Attorney General’s
interests can be more narrowly achieved as evidenced
by the testimony of Zimring and Bauman. As was the
case in the Americans for Prosperity Foundation
(“AFPF”) trial, there is substantial evidence that the
Attorney General could accomplish her goals without
the Schedule B. During the AFPF trial, the Attorney
General’s investigators testified that they have
successfully completed their investigations without
using Schedule Bs, even in instances where they
knew Schedule Bs were missing. For example, Mr.
Bauman testified that he reviewed Form 990s in
connection with audits that did not include Schedule
Bs. (Bauman Test. 3/4/16, p. 27:12–14). Specifically,
he admitted that he successfully audited those
charities and found wrongdoing without the use of
Schedule Bs. (Id. at 27:18–23). In fact, Mr. Bauman
admitted that he successfully audited charities for
years before the Schedule B even existed. (Bauman
Dep., TX-731, p. 49:2–15). In the TMLC trial, Mr.
Zimring testified that he had simply asked
individuals who filed complaints against charitable
organizations for information which would otherwise
appear on a Schedule B. Additionally, Mr. Zimring
testified that in an investigation into fraudulent loans
to a charitable organization, much of the information
he pursued could have been obtained through a
different attachment to the organization’s Form 990,
Schedule L. (Zimring Test., 9/14/16, p.81:15-22).
Taken together, the testimony of multiple lawyers
within the Attorney General’s office clearly indicate
that the Attorney General could have achieved its end
by more narrowly tailored means. While this Court
cannot find such a disclosure requirement facially

58a
invalid, it is prepared to find it unconstitutional as
applied to TMLC, especially in light of the
requirement’s burdens on TMLC’s First Amendment
rights.
II.

Burden on First Amendment Rights

Setting aside the Attorney General’s failure to
establish a substantial relationship between her
demand for TMLC’s Schedule B and a compelling
governmental interest, TMLC would independently
prevail on its as-applied challenge because it has
proven that disclosing its Schedule B to the Attorney
General would create a burden on its First
Amendment rights. While the Ninth Circuit in Center
for Competitive Politics foreclosed any facial challenge
to the Schedule B requirement, it specifically left open
the possibility that a party could show “‘a reasonable
probability that the compelled disclosure of [its]
contributors’ names will subject them to threats,
harassment, or reprisal from either Government
officials or private parties’ that would warrant relief
on an as-applied challenge.” 784 F.3d at 1317 (quoting
McConnell v. FEC, 540 U.S. 93, 199 (2003)). The
Supreme Court has noted a particular need for
protection of “minor political part[ies] which
historically ha[ve] been the object of harassment by
government officials and private parties.” Brown v.
Socialist Workers ’74 Campaign Comm., 459 U.S. 87,
88 (1982). “A strict requirement that chill and
harassment be directly attributable to the specific
disclosure from which the exemption is sought would
make the task even more difficult.” Id. at 74.
Examples of the type of evidence sufficient to succeed
on an as-applied challenge include past or present
harassment of members due to their associational

59a
ties, or of harassment directed against the
organization itself, or a pattern of threats or specific
manifestations of public hostility. Id. TMLC produced
evidence of such harassment and hostility at trial.
TMLC is an advocate for issues which arouse
intense passions by its supporters and its opponents.
The Law Center represents clients who are in the
midst of intense public scrutiny and often times on the
receiving end of extremely negative criticism and
insults. These positions taken by TMLC have led to
threats, harassing calls, intimidating and obscene
emails, and even pornographic letters sent to TMLC.
(See, e.g., Exhibit 38, 39). In one particularly angry
letter to TMLC in response to a request for donations
an opponent wrote, “YOU FU**ING FEAR
MONGERING PIECE OF S**T F**K YOU!!!”
(Exhibit 38). Opponents also mailed pornographic
images to TMLC. (Exhibit 39). The level of
harassment and “vehement criticism” directed
towards TMLC has necessitated the Law Center’s
President, Richard Thompson, to train his employees
how to effectively handle and respond to the
negativity. Members and donors of TMLC obviously
share the same views as TMLC. Thus, the evidence of
threats and harassment directed toward TMLC
because of their views indicates a high likelihood of
similar treatment towards donors. It also satisfies the
requirement of Center for Competitive Politics that an
organization show “a reasonable probability” that the
disclosure of TMLC’s donors would subject them to
threats or harassment.
Additionally, TMLC produced evidence of one
donor who suffered negative consequences as a result
of his support of TMLC issues and another donor who

60a
supported TMLC but wished to remain anonymous
for fear of harassment as a result of his affiliation.
Tom Monaghan was the founder of TMLC and also a
donor. Mr. Monaghan was listed at the top of a list of
“most antigay persons in the country.” (Exhibit 908,
Monaghan Dep., at p. 33:21, 34:5-23). Due to his
opposition to abortion, an issue which TMLC
consistently advances, Mr. Monaghan’s business was
boycotted by the National Organization for Women.
(Id. at p. 43:23-44:9). Furthermore, TMLC produced a
donation accompanied by a letter which stated that
the donor did not want to provide his personal
information because the donor feared there would be
consequences of being personally tied to TMLC.
(Thompson Test., 9/13/16, Vol. 1, p. 62:9-24).
The Attorney General argues that little can be
drawn from the testimony of Mr. Monaghan and the
letter from the anonymous donor. First, the Attorney
General argues that Mr. Monaghan and TMLC do not
“connect Mr. Monaghan’s inclusion on [the antigay
list] to his donations to the Law Center, as opposed to
his public status as a member of the Law Center’s
board.” (Defendant’s Proposed Order, p. 6). However,
this misunderstands the level of proof required to
prevail on an as-applied challenge to a disclosure
requirement. The Supreme Court in Brown explicitly
held that a plaintiff need not show that he was
harassed directly as a result of a disclosed donation.
Rather, evidence of harassment of a member of an
organization due to that membership is sufficient.
Here, Mr. Monaghan was certainly harassed at
minimum because he shared the same views as
TMLC. He testified that his inclusion on the antigay
list was possibly a product of his association with

61a
TMLC. (Exhibit 908, Monaghan Dep., at p. 33:11-17,
34:5-23). Secondly, the Attorney General disputes the
relevance of the anonymous donor’s request to remain
anonymous. The Attorney General argues that the
donor wished to remain anonymous from TMLC (not
the Government) and that the donor would not have
appeared on the Schedule B. Neither argument is
persuasive. The anonymous donor evidence is
informative because it is illustrative. The anonymous
donor likely did not know the intricacies of tax filings
and whether or not the donor would be included on a
Schedule B. What is illustrative about the anonymous
donor is that the donor was afraid of the repercussions
of being affiliated with TMLC as a donor. It is highly
likely that other donors felt the same fear as this
anonymous donor and equally likely that at least
some of those donors withheld contributions because
of that fear. Compelling the disclosure of donors’
identities would only compound such fears and
difficulties for TMLC.
The evidence of harassment, opposition, and
threats directed at TMLC, its donors, and those
supporting the very same issues as the Law Center is
sufficient to establish a “reasonable probability” that
the compelled disclosure of the identity of TMLC
donors would burden the donor’s First Amendment
Rights. This Court finds that the TMLC has shown
harm sufficient to outweigh the Attorney General’s
interest in protecting the public from illegal
charitable organizations and her overly burdensome
means of achieving that interest.
The Court spent significant time in the
Americans for Prosperity Foundation case examining
the factual underpinnings of the inadvertent public

62a
disclosures of Schedule B by the Attorney General.
AFPF, ___ F. Supp. 3d ____, 2016 WL 1610591 at *5
(C.D. Cal., 2016). This Court stands by its finding that
the Attorney General’s history of inadvertent
disclosures raises significant concerns for donors who
desire to have their affiliations remain confidential.
However, the Attorney General has since modified the
approach by the Registry to protect the confidentiality
of Schedule Bs and prevent inadvertent disclosures.
As such, this Court will examine the new evidence
presented at the TMLC trial.
Since the conclusion of the AFPF litigation, the
Registry’s confidentiality policy was codified in a
formal regulation. California Code of Regulations,
title 11, section 310(b) now requires donor
information be maintained as confidential and not be
disclosed except in limited scenarios. The Registry
also implemented a system of automated and
personal reviews to identify documents that were
incorrectly classified as not confidential. Ultimately,
given the history of the Registry completely violating
the “longstanding confidentiality policy,” the Attorney
General’s assurances that a regulatory codification of
the same exact policy will prevent future inadvertent
disclosures rings hollow. The Attorney General’s
steps to attempt to rectify the disclosures and prevent
future disclosures is commendable. Yet, trial
testimony supported what should be an obvious fact,
the Registry cannot assure that documents will not be
inadvertently disclosed no matter what steps it takes.
The Registry is not required to have a perfectly
secure, fool-proof system to prevent disclosures.
However, taken in the context of a proven and
substantial history of inadvertent disclosures, this

63a
inability to assure confidentiality increases the
“reasonable probability” that compelled disclosure of
Schedule B would chill Plaintiff’s First Amendment
rights. Donors and potential donors would be
reasonably justified in a fear of disclosure given such
a context.
III.

Plaintiff’s Remaining Claims

Finally, TMLC has advanced, albeit briefly,
several additional arguments against the collection of
its Schedule B. First, TMLC claims that the required
disclosure of Schedule B constitutes an unreasonable
search and seizure in violation of the Fourth
Amendment. TMLC cites no case law in support of its
novel theory. The Fourth Amendment provides that
“the right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated.” As is
apparent from the plain text, a search violates the
Fourth Amendment only when it is “unreasonable.”
This Court discussed above the legitimacy of the
Attorney General’s interest in protecting the public
from illegal activities of charitable organizations. In
her attempt to further that interest, the Attorney
General requests information from all charitable
organizations registered in the state. These requests
are not unreasonable. This Court has found that the
disclosure requirement is overly burdensome in the
freedom of association context, but it is not prepared
to find it unreasonable in the context of the Fourth
Amendment. Given the lack of unreasonableness
shown by TMLC, this Court need not determine
whether a search occurred within the meaning of the
Fourth Amendment.

64a
Next, TMLC argues that the Schedule B
disclosure requirement violates the Supremacy
Clause and the Free Exercise Clause. TMLC failed to
produce evidence sufficient to satisfy either claim.
The mere fact that the IRS also collects Schedule Bs
does not mean that federal law preempts the Attorney
General’s collection of Schedule B. Similarly, the
mere fact that TMLC is an organization promoting
religious beliefs does not mean that the Attorney
General cannot regulate such an organization by
means of a neutral, generally applicable law.
Plaintiff’s
claims
under
the
Fourth
Amendment, Supremacy Clause, and Free Exercise
Clause all fail.
IV.

Injunctive Relief

Because AFP has prevailed on its First
Amendment as-applied challenge, it is entitled to
declaratory and injunctive relief. A “plaintiff seeking
a permanent injunction must satisfy a four-factor test
before a court may grant such relief.” eBay Inc. v.
MercExchange, L.L.C., 547 U.S. 388, 391 (2006).
Specifically, the plaintiff “must demonstrate: (1) that
it has suffered an irreparable injury; (2) that remedies
available at law, such as monetary damages, are
inadequate to compensate for that injury; (3) that
considering the balance of hardships between the
plaintiff and defendant, a remedy in equity is
warranted; and (4) that the public interest would not
be disserved by a permanent injunction.” Id. Each of
these factors weighs in favor of an injunction here.
TMLC has suffered an irreparable injury as a
result of its required disclosure of Schedule B. As
discussed above, given donors’ desire to remain

65a
anonymous, the Attorney General’s required
disclosure of Schedule B chills First Amendment
speech and the Freedom of Association. TMLC
presented evidence that significant harassment can
and has occurred to both individuals associated with
the Law Center as well as those who donate to it. If
TMLC refused to comply with the Attorney General’s
required disclosure, it would be prevented from
operating as a charitable organization in the state of
California. Forcing the Law Center to choose between
operating in the state and revealing its donors in
violation of their desires to remain anonymous is an
irreparable injury. Any “loss of First Amendment
freedoms . . . unquestionably constitutes irreparable
injury.” Elrod v. Burns, 427 U.S. 347, 373 (1976)
(plurality opinion); accord, e.g., Doe v. Harris, 772
F.3d 563, 583 (9th Cir. 2014); Valle Del Sol Inc. v.
Whiting, 709 F.3d 808, 828 (9th Cir. 2013); Sanders
Cnty. Republican Cent. Comm. v. Bullock, 698 F.3d
741, 748 (9th Cir. 2012); Farris v. Seabrook, 677 F.3d
858, 868 (9th Cir. 2012); Thalheimer v. City of San
Diego, 645 F.3d 1109, 1128 (9th Cir. 2011). In
particular, the government causes “irreparable
injury” when, as here, it places individuals “in fear of
exercising their constitutionally protected rights of
free expression, assembly, and association.” Allee v.
Medrano, 416 U.S. 802, 814–15 (1974).
TMLC’s irreparable First Amendment injuries
cannot adequately be compensated by damages or any
other remedy available at law. Unlike a monetary
injury, violations of the First Amendment “cannot be
adequately remedied through damages.” Stormans,
Inc. v. Selecky, 586 F.3d 1109, 1138 (9th Cir. 2009).

66a
The balance of hardships also favors granting
an injunction. As discussed above, the primary
advantage of the Schedule B is one of convenience and
efficiency. This Court finds that losing such an
advantage, though undoubtedly difficult for the
Attorney General, is far outweighed by the hardship
placed on TMLC by forcing it to disclose its donors.
The Attorney General operated without Schedule Bs
for decades and still managed to further its interest of
protecting the public. By contrast, the Thomas More
Law Center would be hard-pressed to regain the trust
of its donors and continue the exercise of its First
Amendment rights should it be required to violate the
trust and desires of its donors. Thus, it is clear that
the balance of hardships supports enjoining the
Attorney General from collecting TMLC’s Schedule B.
Finally, the public interest favors an
injunction. As the Ninth Circuit has “consistently
recognized,” there is a “significant public interest in
upholding First Amendment principles.” Doe v.
Harris, 772 F.3d at 683 (quoting Sammartano v. First
Judicial Dist. Court, 303 F.3d 959, 974 (9th Cir.
2002)). In sum, the four-factor test establishes that
injunctive relief is appropriate to bar the Attorney
General from demanding Schedule Bs from TMLC as
part of their annual registration renewal. Brown, 492
U.S. at 101–02; Louisiana v. NAACP, 366 U.S. at 297.
In sum, this Court finds, for the second time,
after a full bench trial, that the Attorney General has
failed to prove a substantial relation between her
collection of Schedule B and the investigation of
charitable organizations. Investigators and attorneys
testified that they completed investigations without
Schedule B, accessed information contained in

67a
Schedule B from different sources, and conducted
investigations for years before Schedule B was ever
collected. Collectively, this Court is convinced that the
Attorney General has a myriad of less-burdensome
means available to further her interest of protecting
the public from fraudulent and illegal charitable
organizations.
IT IS HEREBY ORDERED that the Attorney
General is permanently enjoined from requiring the
Thomas More Law Center to file with the registry a
periodic written report containing a copy of its
Schedule B to IRS Form 990. TMLC shall no longer
be considered deficient or delinquent in its reporting
requirement because it does not file its confidential
Schedule B with the Attorney General. Each party
shall bear its own costs.
Dated: November 16, 2016.

68a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
THOMAS MORE LAW
CENTER,
Plaintiff,
v.
KAMALA HARRIS, in
her Official Capacity as
Attorney General of
California,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.
CV 15-3048-R
ORDER
DENYING
PLAINTIFF’S
MOTION FOR
SUMMARY
JUDGMENT
AND DENYING
DEFENDANT’S
CROSS MOTION
FOR PARTIAL
SUMMARY
JUDGMENT

Before the Court are Plaintiff Thomas More
Law Center’s Motion for Summary Judgment (Dkt.
No. 52) and Defendant Kamala Harris’s Cross Motion
for Partial Summary Judgment. (Dkt. No. 75). After
full briefing by the parties, this Court took the matter
under submission on July 12, 2016.
Summary judgment is appropriate where there
is no genuine issue of material fact and the moving
party is entitled to judgment as a matter of law.
Celotex Corp. v. Catrett, 477 U.S. 317, 330 (1986). To
meet its burden of production, “the moving party
must either produce evidence negating an essential
element of the non-moving party’s claim or defense or

69a
show that the nonmoving party does not have enough
evidence of an essential element to carry its ultimate
burden of persuasion at trial.” Nissan Fire & Marine
Ins. v. Fritz Cos., 210 F.3d 1099, 1102 (9th Cir. 2000).
Once the moving party meets its initial burden of
showing there is no genuine issue of material fact, the
opposing party has the burden of producing
competent evidence and cannot rely on mere
allegations or denials in the pleadings. Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 586 (1986). Where the record taken as a whole
could not lead a rational trier of fact to find for the
non-moving party, there is no genuine issue for trial.
Id.
Both Plaintiff and Defendant move for
summary judgment on Plaintiff’s claim that the
Attorney General’s nonpublic Schedule B reporting
requirement is unconstitutional as applied to Plaintiff
because it allegedly burdens First Amendment rights
to free speech and association. Plaintiff argues that
this Court’s prior bench trial in Americans for
Prosperity Foundation v. Harris (“AFPF”), 2016 WL
1610591 (C.D. Cal. Apr. 21, 2016), precludes
Defendant from relitigating three related issues from
AFPF under the doctrine of issue preclusion.
Issue preclusion “prevents relitigation of issues
actually litigated and necessarily decided, after a full
and fair opportunity for litigation, in a prior
proceeding.” Shaw v. Hahn, 56 F.3d 1128, 1131 (9th
Cir. 1995). In order for this Court’s previous decision
in AFPF to have a preclusive effect, the issue
necessarily decided in AFPF must be “identical” to the
one which is sought to be re-litigated. See Wabakken
v. California Dep't of Corr. & Rehab., 801 F.3d 1143,

70a
1148 (9th Cir. 2015). Plaintiff contends that this
Court’s ruling in AFPF established that: (1) Plaintiff
Thomas More, like Americans for Prosperity
Foundation, has an actual burden on its First
Amendment rights; (2) the Attorney General’s
Schedule B requirement does not serve a compelling
government interest and is not “narrowly tailored”;
and (3) the Attorney General cannot guarantee the
confidentiality of Schedule Bs once they are collected.
Plaintiff misstates this Court’s ruling in AFPF.
First, this Court explicitly denied Americans
for Prosperity Foundation’s facial challenge to the
Schedule B requirement. See AFPF, at *1. Therefore,
by definition, this Court’s specific finding of actual
harm to donors of the Americans for Prosperity
Foundation cannot be applied to Plaintiff’s
organization in this case. To succeed on its own asapplied challenge, Plaintiff must demonstrate “a
reasonable probability that the compelled disclosure
of [its Schedule B] will subject them to threats,
harassment, or reprisal from either Government
officials or private parties . . .” Center for Comparative
Politics v. Harris (“CCP”), 784 F.3d 1307, 1314 (9th
Cir. 2015). The trial testimony of American for
Prosperity Foundation’s donors, employees and board
members had nothing to do with the Plaintiff in this
case, and does not satisfy Plaintiff’s burden of
establishing First Amendment harm. Accordingly, a
genuine issue of material fact exists as to whether
Plaintiff’s donors are subjected to threats,
harassment, or reprisal from either Government
officials or private parties as a result of Defendant’s
Schedule B disclosure requirement.

71a
Next, while the Attorney General’s weak
interest in Schedule B forms was established during
the AFPF trial, the Court nevertheless had to balance
that interest against American for Prosperity
Foundation’s particularized First Amendment harm.
First
Amendment
challenges
to
disclosure
requirements are evaluated under “exacting
scrutiny,” see John Doe No. 1 v. Reed, 561 U.S. 186,
196 (2010), which encompasses a “balancing test”
between First Amendment harm caused by the
requirement and the government’s need for the
information sought. See CCP, 784 F.3d at 1314.
Accordingly, without specific evidence demonstrating
Plaintiff’s particularized First Amendment harm, it is
not possible to conduct the required balancing test.
Thus, even if this Court’s findings in AFPF regarding
the utility of Schedule B were to govern in this case,
Plaintiff still would not be entitled to summary
judgment.
Finally, while the ability of the Attorney
General to keep Schedule Bs confidential was an
important part of the Court’s analysis in AFPF, the
ultimate decision in the case was reached under a
totality of circumstances. Moreover, that trial was
heard in early 2016. The Court’s findings from
months ago does not prevent the Attorney General
from providing new testimony regarding the current
state of its policies and practices regarding the
confidentiality of Schedule B forms. While there is a
possibility that these policies and practices have not
changed at all, it cannot be said at this stage that
there is no genuine issue of material fact as to its
current state. Accordingly, Plaintiff would again not
be entitled to summary judgment on this basis.

72a
For these same reasons, Defendant is likewise
not entitled to summary judgment. The only
argument put forth by Defendant is that Plaintiff has
no evidence that donors would experience harm
flowing from the nonpublic Schedule B reporting
requirement. However, as articulated above, Plaintiff
will have the opportunity at its own trial to establish
the alleged existence of actual harm to its First
Amendment rights. While Plaintiff will ultimately
bear the burden of proof at trial, a nonmoving party
is not required to come forward with evidence
demonstrating material issues of fact as to every
element of its case to defeat a summary judgment
motion. See Russ v. International Paper Co., 943 F.2d
589, 591 (5th Cir. 1991). All Plaintiff must
demonstrate at this stage is a specific fact or facts
showing that there is a genuine issue for trial. Federal
Rule of Civil Procedure 56(e).
To show there is a genuine issue for trial,
Plaintiff contends that its founder, Thomas
Monaghan, will testify that he has been subject to
harassment for his association with Plaintiff Thomas
More Law Center. Additionally, Plaintiff plans on
producing a handwritten letter that it received from a
donor who donated in cash because he feared that the
Law Center’s records could be disseminated. While
Defendant argues that Plaintiff, at this stage, must
prove that donors have been deterred from financially
supporting Plaintiff’s organization as a result of
Defendant’s Schedule B requirement, Plaintiff
overcomplicates the requisite showing. As established
in CCP, a case Defendant repeatedly cites, to succeed
on its own as-applied challenge, Plaintiff must
demonstrate “a reasonable probability that the

73a
compelled disclosure of [its Schedule B] will subject
them to threats, harassment, or reprisal from either
Government officials or private parties . . .” CCP, 784
F.3d at 1314. Therefore, testimony by Mr. Monaghan
and the letter received by Plaintiff’s organization
clearly create a genuine issue of whether the Attorney
General’s compelled disclosure subjects those
associated with Plaintiff’s organization to threats,
harassment, or reprisal from Government or private
parties. Because a genuine issue of material fact
exists, summary judgment is inappropriate.
IT IS HEREBY ORDERED that Plaintiff’s
Motion for Summary Judgment is DENIED. (Dkt. No.
52).
IT
IS
FURTHER
ORDERED
that
Defendant’s Cross Motion for Partial Summary
Judgment is DENIED. (Dkt. No. 75).
Dated: July 18, 2016.

74a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
THOMAS MORE
LAW CENTER,

)
)
)
Plaintiff,
)
)
v.
)
KAMALA HARRIS, )
Attorney General in )
her Official
)
Capacity,
)
)
Defendant.
)

CASE NO. CV 15-3048-R
ORDER ENJOINING
ATTORNEY GENERAL
FROM PUBLICLY
DISCLOSING
SCHEDULE B FORMS

On May 19, 2015, this Court entered a
preliminary injunction preventing the Attorney
General from demanding Plaintiff’s Schedule B forms
pending a trial on the merits. This was based, in large
part, on the Ninth Circuit’s January 6, 2015 order
granting a temporary injunction in a nearly identical
case between the Center for Competitive Politics and
Kamala Harris. Center For Competitive Politics v.
Harris, No. 14-15978, Dkt. 34 (9th Cir.). On May 1,
2015, the Ninth Circuit’s order granting preliminary
injunction in Center for Competitive Politics was
vacated. See Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir.) cert. denied, 136 S. Ct. 480
(2015). Shortly thereafter, the Ninth Circuit vacated
this Court’s grant of preliminary injunction.
Americans for Prosperity Found. v. Harris, No. 1555446, 2015 WL 9487728 (9th Cir. Dec. 29, 2015).

75a
Bound by its previous holding in Center for
Competitive Politics, the court reaffirmed that “the
Attorney General’s nonpublic Schedule B disclosure
regime is facially constitutional.” Id. at *1. The court
once again noted that “a future litigant might ‘show a
reasonable probability that the compelled disclosure
of its contributors’ names will subject them to threats,
harassment, or reprisals … warrant[ing] relief on an
as-applied challenge,” however, it found that the
Plaintiff failed to demonstrate any actual burden on
its First Amendment rights flowing from the Attorney
General’s demand for and collection of its Schedule B
forms for nonpublic use. Id. (citing Center for
Competitive Politics, 784 F.3d at 1317).
As for this Court’s order enjoining public
disclosure of the Plaintiff’s Schedule B forms, the
Ninth Circuit held, notwithstanding the Attorney
General’s pledge to refrain from public disclosure,
that there is “no harm in allowing that aspect of the
injunction that serves to prevent public disclosure to
remain in effect on a temporary basis.” Id. at *5.
IT IS HEREBY ORDERED that the Attorney
General shall be permitted to obtain and use
Plaintiff’s Schedule B forms for its nonpublic
enforcement purposes, but is strictly prohibited from
making the Schedule B information public in any
manner or under any circumstances.
Dated: January 5, 2016.

76a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff - Appellee,

No. 15-55446
D.C. No.2:14-cv09448-R-FFM

v.
KAMALA D. HARRIS,
Attorney General, in her
Official Capacity as
Attorney General of
California,

OPINION

Defendant - Appellant.
THOMAS MORE LAW
CENTER,
Plaintiff - Appellee,

No. 15-55911
D.C. No. 2:15-cv03048-R-FFM

v.
KAMALA D. HARRIS,
Attorney General, in her
Official Capacity,
Defendant-Appellant.
Appeals from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding

77a
Argued and Submitted December 9, 2015
Pasadena, California
Before: Stephen Reinhardt, Raymond C. Fisher and
Jacqueline H. Nguyen, Circuit Judges.
PER CURIAM:
Nonprofit
organizations
Americans
for
Prosperity Foundation and Thomas More Law Center
challenge the Attorney General of California’s
collection of Internal Revenue Service (IRS) Form 990
Schedule B, which contains identifying information
for their major donors. They argue the nonpublic
disclosure requirement is unconstitutional as applied
to them because it impermissibly burdens First
Amendment rights to free speech and association by
deterring individuals from financially supporting
them. The district court entered preliminary
injunctions preventing the Attorney General from
demanding the plaintiffs’ Schedule B forms pending a
trial on the merits. We have jurisdiction under 28
U.S.C. § 1292, and we vacate the injunctions with
instructions to enter new orders preliminarily
enjoining the Attorney General from publicly
disclosing, but not from collecting, the plaintiffs’
Schedule B forms.
I.
California’s Supervision of Trustees and
Fundraisers for Charitable Purposes Act (Charitable
Purposes Act) requires the Attorney General to
maintain a Registry of Charitable Trusts and
authorizes her to obtain “whatever information,
copies of instruments, reports, and records are needed
for the establishment and maintenance of the

78a
[Registry].” Cal. Gov’t Code § 12584. An organization
must maintain membership in the Registry to solicit
tax-deductible donations from California residents,
see id. § 12585, and as one condition of membership,
the Attorney General requires each organization to
annually submit the complete IRS Form 990 Schedule
B, see Cal. Code Regs. tit. 11, § 301. Schedule B, which
a charitable organization files with the IRS, lists the
names and addresses of persons who have given
$5,000 or more to the organization during the
preceding year.
The Attorney General’s Schedule B disclosure
requirement seeks only nonpublic disclosure of these
forms, and she seeks them solely to assist her in
enforcing charitable organization laws and ensuring
that charities in the Registry are not engaging in
unfair business practices. See Ctr. for Competitive
Politics v. Harris, 784 F.3d 1307, 1311 (9th Cir. 2015).
The Attorney General does not assert any state
interest in public disclosure of Schedule B forms. To
the contrary, her longstanding policy of treating
Schedule B forms as confidential, as well as her
proposed regulation formalizing that policy, confirm
that the state has no interest in public disclosure.1
This regime is readily distinguishable from state
requirements mandating public disclosure — such as
those often found in the regulation of elections — that
are intended to inform the public and promote
1

We take judicial notice of the Attorney General’s proposed
regulation. See California Regulatory Notice Register, 50–Z Cal.
Regulatory Notice Register 2280–84 (Dec. 11, 2015),
http://www.oal.ca.gov/res/docs/pdf/notice/50z–2015.pdf; see also
Disabled Rights Action Comm. v. Las Vegas Events, Inc., 375
F.3d 861, 866 n.1 (9th Cir. 2004).

79a
transparency. See, e.g., John Doe No. 1 v. Reed, 561
U.S. 186, 197 (2010); Buckley v. Valeo, 424 U.S. 1, 66–
67 (1976); Family PAC v. McKenna, 685 F.3d 800, 806
(9th Cir. 2012).
We are bound by our holding in Center for
Competitive Politics, 784 F.3d at 1317, that the
Attorney General’s nonpublic Schedule B disclosure
regime is facially constitutional. Compelled disclosure
requirements are evaluated under exacting scrutiny,
which requires the strength of the governmental
interest to reflect the seriousness of the actual burden
on a plaintiff’s First Amendment rights. See id. at
1312. In that case, brought as a facial challenge, we
held the Attorney General’s authority to demand and
collect charitable organizations’ Schedule B forms
falls within “her general subpoena power” and
furthers California’s compelling interest in enforcing
its laws. Id. at 1317. Applying exacting scrutiny, we
rejected the facial challenge to the disclosure
requirement because the plaintiff failed to show it
placed an actual burden on First Amendment rights.
See id. at 1314–15, 1317. We left open the possibility,
however, that a future litigant might “show a
reasonable probability that the compelled disclosure
of its contributors’ names will subject them to threats,
harassment, or reprisals from either Government
officials or private parties that would warrant relief
on an as-applied challenge.” Id. at 1317 (alteration
and internal quotation marks omitted).
The
plaintiffs
here,
two
charitable
organizations engaged in advocacy some may
consider controversial, argue they have made such a
showing. They contend disclosure to the state will
infringe First Amendment rights by deterring donors

80a
from associating with and financially supporting
them, and therefore that the Attorney General should
be enjoined from collecting their Schedule B forms,
even for nonpublic use in enforcing the law.
The district court preliminarily enjoined the
Attorney General from demanding and enforcing her
demand for IRS Form 990 Schedule B from the
plaintiffs.2 The Attorney General has appealed these
orders.
II.
We review the district court’s grant of a
preliminary injunction for abuse of discretion,
reviewing findings of fact for clear error and
conclusions of law de novo. See id. at 1311. Reversal
for clear error is warranted when the district court’s
factual determination is illogical, implausible or lacks
support in inferences that may be drawn from facts in
the record. See United States v. Hinkson, 585 F.3d
1247, 1263 (9th Cir. 2009) (en banc). A court may
grant a preliminary injunction when a party shows
“serious questions” going to the merits of its claim, a
balance of hardships that tips sharply in its favor, a
likelihood of irreparable harm and that an injunction
is in the public interest. See All. for the Wild Rockies
v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011).
The plaintiffs argue the Attorney General must
be enjoined from demanding and collecting their
Schedule B forms on two theories. First, they argue
2

The district court’s orders expressly enjoin only the collection
of the plaintiffs’ Schedule B forms, but, in doing so, necessarily
prevent the Attorney General from disclosing those forms to the
public.

81a
confidential disclosure to her office itself chills
protected conduct or would lead to persecution and
harassment of their donors by the state or the public.
Second, they argue that, notwithstanding her
voluntary policy against disclosing Schedule B forms
to the public, the Attorney General may change her
policy or be compelled to release the forms under
California law, and that the resulting public
disclosure will lead to harassment of their donors by
members of the public, chilling protected conduct. We
address these theories in turn.
A. The District Court Abused its Discretion
by Enjoining the Attorney General from
Collecting the Plaintiffs’ Schedule B
Forms for Law Enforcement Use.
Neither plaintiff has shown anything more
than “broad allegations or subjective fears” that
confidential disclosure to the Attorney General will
chill participation or result in harassment of its
donors by the state or the public. Dole v. Serv. Emps.
Union, Local 280, 950 F.2d 1456, 1460 (9th Cir. 1991)
(quoting McLaughlin v. Serv. Emps. Union, Local
280, 880 F.2d 170, 175 (9th Cir. 1989)) (internal
quotation mark omitted). The district court abused its
discretion by enjoining the Attorney General from
demanding the plaintiffs’ Schedule B forms given the
absence of evidence showing confidential disclosure
would cause actual harm. See Ctr. for Competitive
Politics, 784 F.3d at 1316 (“[N]o case has ever held or
implied that a disclosure requirement in and of itself
constitutes First Amendment injury.”); see also Park
Vill. Apartment Tenants Ass’n v. Mortimer Howard
Trust, 636 F.3d 1150, 1160 (9th Cir. 2011) (explaining
that an overbroad injunction is an abuse of

82a
discretion). To the extent the district court found
actual chilling or a reasonable probability of
harassment from confidential disclosure to the
Attorney General, those findings are clearly
erroneous.
First, the plaintiffs have not shown the demand
for nonpublic disclosure of their Schedule B forms to
the Attorney General has actually chilled protected
conduct or would be likely to do so. See Ctr. for
Competitive Politics, 784 F.3d at 1314 (finding no
“actual burden” on First Amendment rights). Notably,
neither plaintiff has alleged that annual disclosure of
Schedule B forms to the IRS had any chilling effect.
Americans for Prosperity Foundation proffered a
declaration from its vice president for development
asserting its donors “worry that disclosure to the
Attorney General will lead to their own persecution at
the hands of state officials.”3 The declaration,
however, does not show that any donor has declined,
or would decline, to support the Foundation as a
result of this worry. No evidence supports the district
court’s conclusion that donors have expressed “their
unwillingness to continue to participate if such
limited disclosure [to the Attorney General] is made.”
Thomas More Law Center’s evidence similarly
fails to show its donors have been or would be chilled
3

Although much of the plaintiffs’ evidence includes hearsay, the
district court did not abuse its discretion by considering it at the
preliminary injunction stage. See Herb Reed Enters., LLC v.
Florida Entm’t Mgmt., Inc., 736 F.3d 1239, 1250 n.5 (9th Cir.
2013) (“Due to the urgency of obtaining a preliminary injunction
at a point when there has been limited factual development, the
rules of evidence do not apply strictly to preliminary injunction
proceedings.”).

83a
from contributing by the Attorney General’s mere
collection of Schedule B forms. The declaration from
its president and chief counsel states only that donors
“would be deterred” from donating if exposed to the
type of harassment the Law Center incurs for its
public activities, but says nothing to suggest donors
have been or would be deterred by confidential
disclosure of their identifying information to the
Attorney General.
Second, the plaintiffs have not shown a
“reasonable probability” of harassment at the hands
of the state if the Attorney General is permitted to
collect their Schedule B forms for nonpublic use. See
Brown v. Socialist Workers ’74 Campaign Comm.
(Ohio), 459 U.S. 87, 99–101 (1982) (detailing “a past
history of government harassment,” including
“massive” FBI surveillance and a concerted effort to
interfere with an organization’s political activities);
Ctr. for Competitive Politics, 784 F.3d at 1316.
Americans for Prosperity Foundation has offered no
evidence that it has been subjected to government
harassment or hostility. It relies on an October 24,
2013 press release from the California Fair Political
Practices Commission that, in announcing a
settlement with two nonprofit organizations accused
of violating campaign finance laws, inaccurately
characterized those organizations as part of Charles
and David Koch’s network of “dark money” nonprofit
corporations. This error was later corrected, but
Americans for Prosperity Foundation argues that
because Charles and David Koch are closely
associated with the Foundation, the release
demonstrates the type of past government
harassment sufficient to support its challenge. This

84a
single, isolated incident, directed not against the
Foundation but against prominent public figures,
falls far short of “suggest[ing] that [government]
hostility
toward”
Americans
for
Prosperity
Foundation “is ingrained and likely to continue.”
Brown, 459 U.S. at 101.
Similarly, Thomas More Law Center has
produced no evidence of state harassment or
targeting beyond its bare and unsubstantiated
allegation that enforcement of the Schedule B
disclosure requirement is politically motivated. The
district court concluded the Center raised serious
questions on the merits by “pos[ing] questions . . .
whether the groups [the Attorney General] is
demanding donor information from are being
particularly selected for such inquiries.” But here, as
in Center for Competitive Politics, there is “no
indication in the record that the Attorney General’s
disclosure requirement was adopted or is enforced in
order to harass members of the registry in general or
[the plaintiffs] in particular.” Ctr. for Competitive
Politics, 784 F.3d at 1313.
Nor have the plaintiffs shown a “reasonable
probability,” id. at 1317, of harassment by members
of the public due to disclosure to the Attorney General
for nonpublic use. The plaintiffs’ allegations that
technical failures or cybersecurity breaches are likely
to lead to inadvertent public disclosure of their
Schedule B forms are too speculative to support
issuance of an injunction.
The district court also erred in concluding an
injunction was warranted because there were serious
questions about the Attorney General’s right to collect

85a
Schedule B information as to non-California donors.
The district court’s conclusion that the Attorney
General’s demand for national donor information may
be more intrusive than necessary does not raise
serious questions because “exacting scrutiny is not a
least-restrictive-means test.” Chula Vista Citizens for
Jobs & Fair Competition v. Norris, 782 F.3d 520, 541
(9th Cir. 2015) (en banc). The government “need only
ensure that its means are substantially related” to a
sufficiently important interest. Human Life of Wash.,
Inc. v. Brumsickle, 624 F.3d 990, 1013 (9th Cir. 2010);
see also Ctr. for Competitive Politics, 784 F.3d at 1312.
In sum, the plaintiffs have failed to
demonstrate any actual burden on First Amendment
rights flowing from the Attorney General’s demand
for and collection of their Schedule B forms for
nonpublic use. As we have held, compelled nonpublic
disclosure of Schedule B forms to the Attorney
General is not itself First Amendment injury. See Ctr.
for Competitive Politics, 784 F.3d at 1314. Without
showing actual harm, the plaintiffs cannot enjoin the
Attorney General from enforcing the disclosure
requirement.4 See id.

4

Even had the plaintiffs shown some First Amendment harm
from the disclosure requirement, they would not necessarily
have raised serious questions entitling them to an injunction.
Under exacting scrutiny, they would have to demonstrate
serious questions as to whether the state’s “compelling interest”
in enforcing the law reflected the “actual burden” on their First
Amendment rights. Ctr. for Competitive Politics, 784 F.3d at
1312, 1314.

86a
B. The District Court Did Not Abuse its
Discretion by Enjoining Public Disclosure
of the Plaintiffs’ Schedule B Forms.
The plaintiffs have raised serious questions,
however, as to whether Schedule B forms collected by
the state could be available for public inspection
under California law, notwithstanding the Attorney
General’s good faith policy to the contrary. We are not
convinced the evidence offered by either plaintiff
sufficiently establishes that such public disclosure
would result in First Amendment harm.
Nevertheless, under our narrow and deferential
review at this stage in the proceedings, and given the
Attorney General’s own position that Schedule B
forms should not be publicly disclosed, we need not
hold that the district court abused its discretion to the
extent it preliminarily enjoined public disclosure
pending trial.
This court’s earlier dictum that “it appears
doubtful” the Attorney General would be compelled to
make Schedule B information publicly available
focused on the California Public Records Act (CPRA).
See Ctr. for Competitive Politics, 784 F.3d at 1316 n.9.
CPRA allows the public to request certain records
except those, as relevant here, “the disclosure of
which is exempted or prohibited pursuant to federal
or state law.” See Cal. Gov’t Code § 6254(k). The
Attorney General argues that because 26 U.S.C. §
6103 and 26 U.S.C. § 6104 prevent the IRS from
disclosing Schedule B forms to the public, she too is
prohibited from disclosing Schedule B forms
“pursuant to federal . . . law.” But § 6103 prevents
disclosure of return information filed directly with the
IRS; it does not prevent state officials from publicly

87a
disclosing return information collected by the state
directly from taxpayers. See Stokwitz v. United
States, 831 F.2d 893, 894 (9th Cir. 1987). The same is
likely true of § 6104. See Ctr. for Competitive Politics,
784 F.3d at 1319. It is therefore unclear whether the
Attorney General could avoid disclosing Schedule B
forms under Government Code § 6254(k) based on §
6103 or § 6104.
Even if the Attorney General is not required to
publicly disclose Schedule B forms under CPRA,
Center for Competitive Politics did not address the
independent public inspection requirement under the
Charitable Purposes Act, which provides that filings
in the Registry of Charitable Trusts “shall be open to
public inspection” subject to “reasonable rules and
regulations adopted by the Attorney General.” Cal.
Gov’t Code § 12590 (emphasis added). Although the
Attorney General has proposed a regulation limiting
public inspection of Schedule B forms, no such rule or
regulation is currently in force. The Charitable
Purposes Act might require public inspection under
these circumstances.
The plaintiffs therefore have raised serious
questions as to whether the Attorney General’s
current policy actually prevents public disclosure.
Because the Attorney General agrees with the
plaintiffs that Schedule B information should not be
publicly disclosed, and because she is in the process of
promulgating a regulation prohibiting such public
disclosure, a preliminary injunction prohibiting
public disclosure of donor information promotes,
rather than undermines, the state’s policy. It serves
the interests of the state by allowing it to resist efforts
to compel public disclosure pending formal adoption

88a
of a regulation to accomplish the plaintiffs’ and the
state’s shared objective of preventing disclosure to the
public. As a preliminary injunction of this nature
would further the state’s public policy as well as allay
the concerns of the plaintiffs, there is no harm in
allowing that aspect of the injunction that serves to
prevent public disclosure to remain in effect on a
temporary basis.
In the absence of harm to the state, the
plaintiffs or the public from a modified injunction, we
decline to use our appellate authority to hold that the
district court abused its discretion with respect to
that part of the injunction that helps enforce the
state’s public policy.
III.
An injunction properly tailored to the plaintiffs’
concerns would address the risk of public disclosure
by enjoining the Attorney General and her agents
from making Schedule B information public, pending
a decision on the merits of the plaintiffs’ as-applied
challenges. The plaintiffs have not, however, shown
they are entitled to an injunction preventing the
Attorney General from demanding their Schedule B
forms, enforcing that demand, and using the forms to
enforce California law.
We therefore vacate the district court’s orders
granting preliminary injunctions and instruct the
district court to enter new orders preliminarily
enjoining the Attorney General only from making
Schedule B information public. The injunctions may
not preclude the Attorney General from obtaining and
using Schedule B forms for enforcement purposes.
The district court shall permit the parties to address

89a
whether the injunctions should include exceptions to
the bar against public disclosure, such as those
enumerated in the Attorney General’s proposed
regulation. Each party shall bear its own costs on
appeal.
ORDERS VACATED.
Counsel
Kamala D. Harris, Attorney General of
California, Douglas J. Woods, Senior Assistant
Attorney General, Sacramento, California; Tamar
Pachter, Supervising Deputy Attorney General,
Emmanuelle S. Soichet, Deputy Attorney General,
Alexandra Robert Gordon (argued), Deputy Attorney
General, San Francisco, California; Kim L. Nguyen
(argued), Deputy Attorney General, Los Angeles,
California, for defendant-appellant.
Harold A. Barza and Carolyn Homer Thomas,
Quinn Emanuel Urquhart & Sullivan, LLP, Los
Angeles, California; Derek L. Shaffer (argued),
William A. Burck, Jonathan G. Cooper and Crystal R.
Nwaneri, Quinn Emanuel Urquhart & Sullivan, LLP,
Washington, D.C., for plaintiff-appellee Americans
for Prosperity Foundation.
Louis H. Castoria (argued) and Sheila M.
Pham, Kaufman Dolowich & Voluck, LLP, San
Francisco, California, for plaintiff-appellee Thomas
More Law Center.

90a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
THOMAS MORE
LAW CENTER,
Plaintiff,
v.
KAMALA HARRIS,
in her Official
Capacity as Attorney
General of
California,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. 2:15-cv3048-R
ORDER ISSUING
PRELIMINARY
INJUNCTION

This Court previously granted Plaintiff
Thomas More Law Center (“Plaintiff” or “Law
Center”)’s Temporary Restraining Order enjoining
Defendant Kamala Harris (“Defendant” or “Harris”)
and those in concert from demanding or taking any
action to implement or enforce her demand for, the
names and addresses of the Law Center’s donors,
particularly as contained in Schedule B to IRS Form
990, and from taking the other adverse actions
threatened in her March 24, 2015, letter, or
otherwise. (Dkt. No. 13). A hearing on an order to
show cause why a preliminary injunction should not
issue was set for Monday May 11, 2015. (Id.). The
Parties having briefed the motion thoroughly, this
Court took the matter under submission on May 8,
2015. (Dkt. No. 20).

91a
“[S]ervice of process is the means by which a
court asserts its jurisdiction over [a] person.” SEC v.
Ross, 504 F.3d 1130, 1138 (9th Cir. 2007). “A federal
court is without personal jurisdiction over a
defendant unless the defendant has been served in
accordance with Fed. R. Civ. P. 4.” Benny v. Pipes, 799
F.2d 489, 492 (9th Cir. 1986).
Plaintiff timely served Defendant in this case
both personally and by mail on May 6, 2015.
Accordingly, any concerns regarding this Court’s
jurisdiction on this basis are also moot.
Defendant’s contention that the TRO was
facially defective is incorrect. Plaintiff notified the
Registry of Charitable Trusts by sending a letter, via
facsimile, to the facsimile number associated with the
Registry. That letter informed Defendant of the
nature and date of the application. Plaintiff clearly
acted with intent to provide Defendant notice of the
TRO; indeed, Defendant does not claim that she did
not receive such notice. That such notice did not
expressly inform Defendant of the 24 hour period to
respond is irrelevant here, where Defendant, the
Attorney General for the State of California, is not an
unsophisticated party. Moreover, the Court waited 6
days, well over the 24-hour limit, to issue its order
granting the TRO application; however, even in that
long period of time, Defendant never filed any
opposition. Accordingly, the TRO was not facially
defective.
A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of

92a
equities tips in his favor, and that an injunction is in
the public interest.” Winter, 555 U.S. at 20.
Preliminary injunctive relief is available if the party
meets one of two tests: (1) a combination of probable
success and the possibility of irreparable harm, or (2)
the party raises serious questions and the balance of
hardship tips in its favor. Arcamuzi v. Continental Air
Lines, Inc., 819 F.2d 935, 937 (9th Cir. 1987). “These
two formulations represent two points on a sliding
scale in which the required degree of irreparable
harm increases as the probability of success
decreases.” Id. Under both formulations, however, the
party must demonstrate a “fair chance of success on
the merits” and a “significant threat of irreparable
injury.” Id.
The Ninth Circuit’s recent decision in Center
for Competitive Politics v. Kamala Harris, 2015 WL
1948168 (9th Cir. May 1, 2015) (hereinafter referred
to as “CCP”) impacts, but is not dispositive of, the
current proceedings. In that case the Ninth Circuit
recognized that exacting scrutiny applied to
challenges to disclosure requirements under the First
Amendment. The court there determined that a
501(c)(3) charity’s facial challenge to the Attorney
General’s demand for donor information on the
charity’s Schedule B did not pass exacting scrutiny.
Importantly, here, Plaintiff is not simply
advancing a facial challenge. Rather, the Law Center
asserts both a facial and an as-applied challenge to
Defendant’s demand for donor names and addresses.
Accordingly, the recent decision in CCP is not
dispositive of the instant matter.

93a
Plaintiff has, at the very least, raised serious
questions going to the merits. In CCP, the Ninth
Circuit noted that “there [was] no indication in the
record that the Attorney General’s disclosure
requirement was adopted or [was] enforced in order
to harass members of the registry in general or [the
plaintiff] in particular.” CCP, 2015 WL 1948168, at
*3. By contrast, here the Law Center has posed
questions challenging this very proposition: whether
the groups Defendant is demanding donor
information from are being particularly selected for
such inquiries.
Additionally, the Law Center challenges the
constitutionality of Defendant’s request for donor
information of citizens of states nationwide, not just
those in California, based on the Law Center’s specific
donor base, 95% of which the Law Center has
presented evidence demonstrating is comprised of
non-California resident. Defendant’s own website
indicates that her purpose is to “protect charitable
assets for their intended use and ensure that the
charitable donations contributed by Californians are
not misapplied and squandered through fraud or
other
means.”
See
http://oag.ca.gov/charities
(emphasis added). Thus, absent explanation, serious
questions as to Defendant’s exercise of jurisdiction
over such individuals remain. Accordingly, at the very
least Plaintiff has raised serious questions going to
the merits of Plaintiff’s as-applied challenge.
Moreover, in CCP, the Ninth Circuit recognized
that “compelled disclosure, without any additional
state action, can infringe on First Amendment rights
when that disclosure leads to private discrimination
against those whose identities are disclosed.” CCP,

94a
2015 WL 1948168, at *3. The Ninth Circuit also
recognized that “[o]f course, compelled disclosure can
also infringe First Amendment rights when the
disclosure requirement is itself a form of harassment
intended to chill protected expression.” Id.
Crucial to the Ninth Circuit’s decision to deny
injunctive relief in CCP was the lack of evidence or
argument proffered by the plaintiff in that case as to
purported harassing and discriminating retaliation to
donors as a result of disclosure. This is simply not the
case here. In CCP, the Ninth Circuit was clear that
the Plaintiff had not “claim[ed] and produce[d] no
evidence to suggest that their significant donors
would experience threats, harassment, or other
potentially chilling conduct as a result of the Attorney
General’s disclosure requirement.” CCP, 2015 WL
1948168, at *6.
This is in stark contrast to the record now
before the Court, which is replete with allegations and
supporting evidence showing that persons associated
with the Law Center have experienced threats,
harassment, or other potentially chilling conduct.
Plaintiff has alleged and provided evidence
demonstrating that the Law Center has been
subjected to the sort of threats and harassment
contemplated by the Ninth Circuit and by the United
States Supreme Court in NAACP v. Alabama, 357
U.S. 449 (1958). (See Dkt. No. 19-2; Id. at Exs. L, M,
N).
Any such harm resulting from disclosure of
donor information would be irreparable here. The
primary purpose of a preliminary injunction is to
preserve the status quo. See Chalk v. United States

95a
District Court, 840 F.2d 701, 704 (9th Cir. 1988).
Information, however, once disclosed cannot so easily
be retracted. Accordingly, once donor names and
addresses are disseminated, the harm resultant
therefrom would be irreparable and impossible to
undo.
In sum, the Law Center has proffered sufficient
evidence of retaliatory injury to its donors to warrant
issuance of a preliminary junction at this point.
Regarding the balancing of the hardships,
Defendant has, for well over a decade, sufficiently
performed her function in maintaining the Registry
and enforcing its governing laws without need for the
now sought Schedule B information. Accordingly,
there can be little burden to her by not obtaining it
now. By contrast, as explained, dissemination of
donor information could have a very negative, and
lasting, effect on the Law Center’s contributors.
Finally, the Ninth Circuit has “consistently
recognized” that there is a “significant public interest
in
upholding
First
Amendment
principles.
Thalheimer, 645 F.3d at 1129 (9th Cir. 2011)(citation
omitted). Here absent injunctive relief the Law
Center would be compelled to comply with
Defendant’s request, and risk infringing its and its
donors’ First Amendment rights via exposing them to
the harassing, discriminatory, and potentially
chilling reactions as explained, or be forced to face
revocation of its status and imposition of other
draconian sanctions, including imposition of the fees
on the Law Center’s directors, trustees, officers and
return preparers personally. Accordingly, the public
interest favors issuance of an injunction here.

96a
In sum, all factors support issuance of an
injunction here. First, Plaintiff has, at the very least,
raised serious questions as to the merits of its asapplied challenge. Second, the harassing and
discriminatory harm likely to flow absent relief is
inherently irreparable. Third, the balance of the
equities tips sharply in favor of injunctive relief owing
to Defendant’s successful function for over a decade
without the now sought information. Fourth, the
public interest heavily favors protection of the
Plaintiff’s and its donors’ First Amendment rights.
Accordingly, injunctive relief is proper here.
IT IS HEREBY ORDERED that a preliminary
injunction is ISSUED that Defendant and those in
concert with Defendant are restrained from
demanding, or taking any action to implement or
enforce Defendant’s demand for, the names and
addresses of Plaintiff’s donors, particularly as
contained in Schedule B to IRS Form 990, and from
taking the other adverse actions threatened in
Defendant’s March 24, 2015, letter.
Dated: May 19, 2015

___________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

97a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
THOMAS MORE
LAW CENTER,
Plaintiff,
v.
KAMALA HARRIS,
in her Official
Capacity as Attorney
General of
California,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. 2:15-cv3048-R
ORDER GRANTING
PLAINTIFF’S
APPLICATION FOR
TEMPORARY
PROTECTIVE ORDER

Before the Court is Plaintiff Thomas More Law
Center (“Plaintiff” or “Law Center”)’s Application for
Temporary Restraining Order (“TRO”). (Dkt. No. 10).
Plaintiff is seeking a TRO to enjoin Defendant
Kamala Harris (“Defendant” or “Harris”) from
demanding, or from enforcing her demand for a list of
the Law Center’s donors’ names and addresses,
particularly as contained in Schedule B to IRS Form
990. Plaintiff also requests this Court to issue an
Order to Show Cause why a preliminary injunction
should not issue after the TRO expires and to
continue prohibiting Harris and those in concert from
demanding or taking any action to implement or
enforce her demand for, the names and addresses of
the Law Center’s donors, particularly as contained in
Schedule B to IRS Form 990, and from taking the

98a
other adverse actions threatened in her March 24,
2015, letter, or otherwise.
District Courts have the power to issue a
temporary restraining order to preserve the status
quo while it decides whether or not to grant injunctive
relief. See, United States v. United Mine Workers, 330
U.S. 258, 293 (1947). The standard for issuing a
temporary restraining order is the same as the
standard for issuing a preliminary injunction. See
Dumas v. Gommerman, 865 F.2d 1093, 1095 (9th Cir.
1989). To obtain preliminary injunctive relief, a
plaintiff must show that he is likely to succeed on the
merits, he is likely to suffer irreparable harm, the
balance of the equities tips in the plaintiff’s favor, and
an injunction is in the public interest. See Stormans,
Inc. v. Selecky, 586 F.3d 1109, 1127 (9th Cir. 2009).
“In this circuit there are two interrelated legal
tests for the issuance of a preliminary injunction.
These tests are “not separate” but rather represent
‘the outer reaches ‘of a single continuum.’ . . . At one
end of the continuum, the moving party is required to
show both a probability of success on the merits and
the possibility of irreparable injury. . . . At the other
end of the continuum, the moving party must
demonstrate that serious legal questions are raised
and that the balance of hardships tips sharply in its
favor. . . . ‘[T]he relative hardship to the parties’ is the
‘critical element’ in deciding at which point along the
continuum a stay is justified. . . . In addition, in cases
such as the one before us, the public interest is a
factor to be strongly considered. . . .” Lopez v. Heckler,
713 F.2d 1432, 1435 (9th Cir. 1983) (citations
omitted).

99a
Instructive here are two related cases, Center
for Competitive Politics v. Harris, No. 14-15978 (9th
Cir.) (hereinafter, “CCP”) and Americans for
Prosperity Foundation v. Kamala Harris, No. 1409448 (C.D. Cal. 2014) (hereinafter, “Americans”). In
both cases a plaintiff 501(c)(3) organization
challenged Defendant’s demand for their donors’
names and addresses as contained in the plaintiff’s
Form 990 Schedule B. The plaintiffs in those cases
made such challenges based on First Amendment and
preemption grounds.
On January 6, 2015, the Ninth Circuit issued
an injunction pending appeal in CCP. That injunction
prohibits the Attorney General from taking “any
action against the Center for Competitive Politics for
failure to file an un-redacted IRS Form 990 Schedule
B pending further order of this court.” CCP, No. 145978, Dkt. 34 (9th Cir. Jan. 6, 2015). The Ninth
Circuit issued such injunction following the Attorney
General’s letter to that plaintiff threatening to fine
the Center’s employees and suspend its registration if
it did not hand over its Schedule B. An almost
identical letter was sent to Plaintiff’s in this case.
“In deciding whether to issue a stay pending
appeal, the court considers ‘(1) whether the stay
applicant has made a strong showing that he is likely
to succeed on the merits; (2) whether the applicant
will be irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure the other
parties interested in the proceeding; and (4) where the
public interest lies.’” Humane Soc’y of U.S. v.
Gutierrez, 523 F. 3d 990 (9th Cir. 2008). Thus, the four
factor test for evaluating a preliminary injunction

100a
pending appeal appears to be identical to that for a
preliminary injunction or TRO.
Plaintiff has, at the very least, raised serious
questions going to the merits. In a First Amendment
case, once any necessary prima facie showing has
been made, the burden shifts and a defendant must
demonstrate the existence of both a “compelling” state
interest exists and “a substantial relationship
between the information sought and [that] overriding
and compelling state interest.” Brown v. Socialist
Workers ’74 Campaign Comm. (Ohio), 459 U.S. 87, 92
(1982). The Ninth Circuit’s recent grant of a
preliminary injunction pending appeal in CCP
strongly suggests that Plaintiff, whose claims are all
but identical to those of the plaintiff in that case,
either has a strong likelihood of prevailing or has
raised serious questions going to the merits.
Moreover, the Ninth Circuit issued the injunction
following Defendant’s letter threatening sanctions
against the CCP plaintiff. Defendant has made
identical threats here. Accordingly, whether because
it raised serious questions as to the merits or
demonstrated a likelihood of success, the Ninth
Circuit’s issuance of a preliminary injunction pending
appeal in CCP, a case almost identical to that before
the Court governs that the Law Center’s application
for preliminary appeal should be granted.
Additionally, Plaintiff here challenges the
constitutionality of Harris’ request for donor
information of citizens of states nationwide, not just
those in California. As Defendant seeks information
outside her jurisdiction, Plaintiff has sufficiently
raised serious questions as to whether Defendant is
entitled to such information. Even if jurisdiction did

101a
exist, Plaintiff has further raised sufficient questions
as to the supposed need for such information. Thus,
this factor weighs heavily in favor of granting the
application for TRO.
Just as in CCP and Americans, Plaintiff here is
likely to suffer irreparable harm if a TRO is not
granted enjoining Defendant from taking the drastic
actions threatened. Disclosure of donor name and
address information would be harmful and could not
be remedied once the information was disseminated.
Such donors would be open to negative retaliation for
their support of Plaintiff and Plaintiff’s causes, which
would result in a chilling effect on free speech and
freedom of association. Accordingly, this factor weighs
heavily in favor of granting a TRO.
Once again, just as in the other nearly identical
cases, Defendant has operated for well over a decade
without the donor name and address information now
sought. No explanation has been given as to why the
continued absence of such information would now
constitute a drastic burden. By contrast, as explained,
dissemination of donor information could have a very
negative, and lasting, effect on the Law Center’s
contributors and result in the chilling of First
Amendment rights. Accordingly, this factor also
weighs heavily in favor of granting a TRO.
Finally, the Ninth Circuit has “‘consistently
recognized’” that there is a “‘significant public interest
in upholding First Amendment principles.’”
Thalheime v. City of San Diego, 645 F.3d 1109, 1129
(9th Cir. 2011) (quoting Sammartano v. First Judicial
Dist. Court, in and for Cnty of Carson City, 303 F. 3d
959, 974 (9th Cir. 2002)). Here absent a TRO the Law

102a
Center would be compelled to comply with
Defendant’s request, risking disclosure of donor
information and jeopardizing their First Amendment
rights via exposing them to negative and potentially
chilling reaction, the public interest heavily favors
issuance of a TRO.
For all these reasons, a TRO is proper here,
where Plaintiff has, at the very least raised serious
questions as to the merits, shown irreparable harm is
likely, and demonstrated that both the balance of
hardships and public interest sharply favor granting
Plaintiff’s application for a TRO.
IT IS HEREBY ORDERED that Plaintiff’s
Application for Temporary Restraining Order (Dkt.
No. 10) is GRANTED. Under this temporary
restraining order, Defendant and those in concert
with Defendant are restrained from demanding, or
taking any action to implement or enforce
Defendant’s demand for, the names and addresses of
Plaintiff’s donors, particularly as contained in
Schedule B to IRS Form 990, and from taking the
other adverse actions threatened in Defendant’s
March 24, 2015, letter. The Court hereby sets an
Order to Show Cause as to why a preliminary
injunction should not issue on the same bases
on May 11, 2015 at 10:00 a.m. Any opposition is due
on or before May 4, 2015. Any reply to such opposition
will be due on or before May 6, 2015. All hard copies
of papers are to be delivered to chambers the following
morning no later than 9:00 AM PST. The temporary
restraining order will remain in effect until the
hearing on the Preliminary Injunction.

103a
Dated: April 29, 2015.

___________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

104a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff-Appellee,
v.

No. 16-55727
D.C. No.
2:14-cv-09448-RFFM

XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,
Defendant-Appellant.
AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,
Defendant-Appellee.

No. 16-55786
D.C. No.
2:14-cv-09448-RFFM

105a
THOMAS MORE LAW
CENTER,
Plaintiff-Appellee,
v.

No. 16-56855
D.C. No.
2:15-cv-03048-RFFM

XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,
Defendant-Appellant.
THOMAS MORE LAW
CENTER,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in
his Official Capacity as
Attorney General of the
State of California,
Defendant-Appellee.

No. 16-56902
D.C. No.
2:15-cv-03048-RFFM
ORDER
DENYING
PETITIONS FOR
REHEARING EN
BANC

Filed March 29, 2019
Before: Raymond C. Fisher, Richard A. Paez,
and Jacqueline H. Nguyen, Circuit Judges.
Order;
Dissent by Judge Ikuta;
Reply to Dissent by Judges Fisher, Paez, and
Nguyen

106a
SUMMARY*
Civil Rights
The panel denied petitions for rehearing en
banc on behalf of the court.
In its opinion, the panel held that California
Attorney General’s Service Form 990, Schedule B
requirement, which obligates charities to submit the
information they file each year with the Internal
Revenue Service pertaining to their largest
contributors, survived exacting scrutiny as applied to
the plaintiffs because it was substantially related to
an important state interest in policing charitable
fraud.
Dissenting from the denial of rehearing en
banc, Judge Ikuta, joined by Judges Callahan, Bea,
Bennett and R. Nelson, stated that the panel’s
reversal of the district court’s decision was based on
appellate factfinding and was contrary to the
reasoning and spirit of decades of Supreme Court
jurisprudence, which affords substantial protections
to persons whose associational freedoms are
threatened. Judge Ikuta wrote that under the panel’s
analysis, the government can put the First
Amendment associational rights of members and
contributors at risk for a list of names it does not need,
so long as it promises to do better in the future to
avoid public disclosure of the names. Judge Ikuta
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

107a
wrote that given the inability of governments to keep
data secure, the panel’s standard puts anyone with
controversial views at risk.
Responding to the dissent from the denial of
rehearing en banc, Judge Fisher, Paez and Nguyen
stated that the panel’s decision to apply exacting
scrutiny was consistent with Supreme Court
precedent, Ninth Circuit precedent, and out-of-circuit
precedent. The panel noted that the two circuits that
have addressed the issue both have held that
exacting, rather than strict scrutiny apply and that
the nonpublic Schedule B reporting requirements
satisfy the First Amendment because they allow state
and federal regulators to protect the public from
charitable
fraud
without
subjecting
major
contributors to the threats, harassment or reprisals
that could flow from public disclosure.
ORDER
Judge Paez and Judge Nguyen have voted to
deny the petitions for rehearing en banc and Judge
Fisher has so recommended.
The full court was advised of the petitions for
rehearing en banc. A judge requested a vote on
whether to rehear the matter en banc. The matter
failed to receive a majority of the votes of the
nonrecused active judges in favor of en banc
consideration. Fed. R. App. P. 35.
The petitions for rehearing en banc (Nos. 1655727 and 16-55786, filed September 25, 2018 - Dkt.

108a
106; and Nos. 16-56855 and 16-56902,
September 26, 2018 - Dkt. 67) are DENIED.

filed

IKUTA, Circuit Judge, with whom CALLAHAN,
BEA, BENNETT, and R. NELSON, Circuit Judges,
join, dissenting from denial of rehearing en banc:
Controversial groups often face threats, public
hostility, and economic reprisals if the government
compels the organization to disclose its membership
and contributor lists. The Supreme Court has long
recognized this danger and held that such compelled
disclosures can violate the First Amendment right to
association. See, e.g., NAACP v. Alabama ex rel.
Patterson, 357 U.S. 449, 462 (1958).
For this reason, the Supreme Court has given
significant protection to individuals who may be
victimized by compelled disclosure of their
affiliations. Where government action subjects
persons to harassment and threats of bodily harm,
economic reprisal, or “other manifestations of public
hostility,” NAACP v. Alabama, 357 U.S. at 462, the
government must demonstrate a compelling interest,
id. at 463; Bates v. Little Rock, 361 U.S. 516, 524
(1960), there must be a substantial relationship
between the information sought and the compelling
state interest, Gibson v. Fla. Legislative Investigation
Comm., 372 U.S. 539, 546 (1963), and the state
regulation must “be narrowly drawn to prevent the
supposed evil,” Louisiana ex rel. Gremillion v.
NAACP, 366 U.S. 293, 297 (1961) (internal quotation
marks omitted) (quoting Cantwell v. Connecticut, 310
U.S. 296, 307 (1940)).

109a
This robust protection of First Amendment free
association rights was desperately needed here. In
this case, California demanded that organizations
that were highly controversial due to their
conservative positions disclose most of their donors,
even though, as the district court found, the state did
not really need this information to accomplish its
goals. Although the state is required to keep donor
names private, the district court found that the state’s
promise of confidentiality was illusory; the state’s
database was vulnerable to hacking and scores of
donor names were repeatedly released to the public,
even up to the week before trial. See Ams. for
Prosperity Found. v. Harris, 182 F. Supp. 3d 1049,
1057 (C.D. Cal. 2016). Moreover, as the district court
found, supporters whose affiliation had previously
been disclosed experienced harassment and abuse.
See id. at 1055–56. Their names and addresses, and
even the addresses of their children’s schools, were
posted online along with threats of violence. Some
donors’ businesses were boycotted. In one incident, a
rally of the plaintiff’s supporters was stormed by
assailants wielding knives and box cutters, who tore
down the rally’s tent while the plaintiff’s supporters
struggled to avoid being trapped beneath it. In light
of the powerful evidence at trial, the district court
held the organizations and their donors were entitled
to First Amendment protection under the principles
of NAACP v. Alabama. See id. at 1055.
The panel’s reversal of the district court’s
decision was based on appellate factfinding and
crucial legal errors. First, the panel ignored the
district court’s factfinding, holding against all
evidence that the donors’ names would not be made

110a
public and that the donors would not be harassed. See
Ams. for Prosperity Found. v. Becerra, 903 F.3d 1000,
1017, 1019 (9th Cir. 2018) (“AFPF II”). Second, the
panel declined to apply NAACP v. Alabama, even
though the facts squarely called for it. See id. at 1008–
09. Instead, the panel applied a lower form of scrutiny
adopted by the Supreme Court for the unique
electoral context. See Buckley v. Valeo, 424 U.S. 1, 64,
68 (1976). The panel’s approach will ensure that
individuals affiliated with controversial organizations
effectively have little or no protection from compelled
disclosure. We should have taken this case en banc to
correct this error and bring our case law in line with
Supreme Court jurisprudence.
I
The Supreme Court has established a clear test
for cases like this one. While the Court has modified
the test to fit different contexts, it has not wavered
from the principle that the First Amendment affords
organizations and individuals substantial protection
when the government tries to force disclosure of ties
that could impact their freedom of association.
A
The Supreme Court decisions protecting
against forced disclosures that threaten individuals’
freedom of association arose in a series of cases
involving the NAACP. See, e.g., NAACP v. Alabama,
357 U.S. 449; Bates, 361 U.S. 516; Gremillion, 366
U.S. 293; Gibson, 372 U.S. 539. The Court considered
numerous attempts by states to compel disclosure of
NAACP membership information at a time when
those members faced a well-known risk of “economic
reprisal, loss of employment, threat of physical

111a
coercion, and other manifestations of public hostility.”
NAACP v. Alabama, 357 U.S. at 462; see also
Gremillion, 366 U.S. at 295–96; Bates, 361 U.S. at
523–24.
In this broader context, the Court recognized
that “[i]t is hardly a novel perception that compelled
disclosure of affiliation with groups engaged in
advocacy may constitute as effective a restraint on
freedom of association” as more direct restrictions on
speech. NAACP v. Alabama, 357 U.S. at 462.
“[F]reedom of association for the purpose of advancing
ideas and airing grievances is protected by the Due
Process Clause of the Fourteenth Amendment from
invasion by the States . . . not only against heavyhanded frontal attack, but also from being stifled by
more subtle governmental interference.” Bates, 361
U.S. at 523 (citations omitted).
Because state disclosure requirements can
abridge First Amendment associational rights, the
Court held such requirements were subject to
heightened scrutiny. Once a plaintiff carries the
burden of showing that a state-required disclosure
may result “in reprisals against and hostility to the
members,” Gremillion, 366 U.S. at 296, the state has
to show: (1) a sufficiently compelling interest for
requiring disclosure, see NAACP v. Alabama, 357 U.S.
at 462–63; (2) that the means were substantially
related to that interest, Gibson, 372 U.S. at 549; and
(3) that the means were narrowly tailored,
Gremillion, 366 U.S. at 296. While the Supreme Court
has articulated this three-part test in various ways, it
has made clear that the test affords substantial
protection to persons whose associational freedoms
are threatened.

112a
B
The Court modified the NAACP v. Alabama
test for application in the electoral context. See
Buckley, 424 U.S. at 64, 68. Buckley recognized the
importance of applying “[t]he strict test established
by NAACP v. Alabama . . . because compelled
disclosure has the potential for substantially
infringing the exercise of First Amendment rights,”
but it adjusted the test for government action that
affects elections when the plaintiffs could not
establish that disclosure would subject them to
threats or harassment. Id. at 66. It makes sense to
adapt the NAACP v. Alabama test for the electoral
context, where the government’s interest is uniquely
important. Influence in elections may result in
influence in government decisionmaking and the use
of political power; therefore, the government’s crucial
interest in avoiding the potential for corruption and
hidden leverage outweighs incidental infringement
on First Amendment rights. Id. at 66–68, 71. The
interests served by disclosure outside the electoral
context, such as policing types of charitable fraud,
pale in comparison to the crucial importance of
ensuring our election system is free from corruption
or its appearance.
Given the unique electoral context, Buckley
held that, for the first prong, the governmental
interest must be “sufficiently important to outweigh
the possibility of infringement” of First Amendment
rights; the government did not need to show a
compelling government interest. Id. at 66. For the
second prong, it still held there must be a “substantial
relation between the governmental interest and the
information required to be disclosed.” Id. at 64

113a
(footnote and internal quotation marks omitted)
(quoting Gibson, 372 U.S. at 547).
As to the third prong of the test, Buckley
fashioned a per se rule: it deemed the disclosure
requirement to be “the least restrictive means of
curbing the evils of campaign ignorance and
corruption that Congress found to exist.” Id. at 68.
Buckley based this conclusion on its recognition that
Congress always has a substantial interest in
combating voter ignorance by providing the electorate
with information about the sources and recipients of
funds used in political campaigns in order to deter
actual corruption and avoid the appearance of
corruption, and in gathering data necessary to detect
violations of separate political contribution limits. Id.
at 66–68. Because, “in most applications,” disclosure
is “the least restrictive means of curbing the evils of
campaign ignorance and corruption,” the narrow
tailoring prong of the NAACP v. Alabama test is
satisfied. Id. at 68.
Recognizing the distinction between elections
and other justifications for disclosure, the Supreme
Court has applied Buckley’s test only in cases that
involve election-related disclosures, a context in
which the Supreme Court has already established
that disclosure is the least restrictive means of
reaching Congress’s goals. See, e.g., Doe v. Reed, 561
U.S. 186, 196–97 (2010); Citizens United v. FEC, 558
U.S. 310, 369–70 (2010). These cases did not discuss
whether disclosure was narrowly tailored to address
the government’s concern; Buckley already held that
it is. For example, Doe v. Reed recognized the
government’s interest in “preserving the integrity of
the electoral process” and “promoting transparency

114a
and accountability in the electoral process,” and thus
there was no need to discuss narrow tailoring. 561
U.S. at 197–98. The Court likewise did not focus on
the narrow tailoring requirement in Citizens United,
noting Buckley’s holdings that “disclosure could be
justified based on a governmental interest in
‘provid[ing] the electorate with information’ about the
sources of election-related spending,” and that
“disclosure is a less restrictive alternative to more
comprehensive regulations of speech.” 558 U.S. at
367, 369 (quoting Buckley, 424 U.S. at 66).
The Court’s limited application of the Buckley
test, confined to cases in the electoral context in which
the government’s aim is to serve goals like
“transparency and accountability,” has not displaced
the stringent standard set out in NAACP v. Alabama.
Indeed, the NAACP v. Alabama standard was likely
not triggered in the election cases, given that they did
not involve evidence that compelled disclosure would
give rise to public hostility to the plaintiff’s members
or donors. The Court has maintained NAACP v.
Alabama’s standard outside of the electoral context,
thus reasserting the validity of that standard after
Buckley. See, e.g., In re Primus, 436 U.S. 412, 432
(1978) (holding that where a state seeks to infringe
upon a party’s First Amendment freedom of
association, the state must justify that infringement
with “a subordinating interest which is compelling”
and must use means that are “closely drawn to avoid
unnecessary abridgment of associational freedoms”)
(first quoting Bates, 361 U.S. at 524; then quoting
Buckley, 424 U.S. at 25); see also Roberts v. U.S.
Jaycees, 468 U.S. 609, 623 (1984) (holding that
infringement of the right to associate “may be

115a
justified by regulations adopted to serve compelling
state interests, unrelated to the suppression of ideas,
that cannot be achieved through means significantly
less restrictive of associational freedoms”). Thus,
there is no doubt that the NAACP v. Alabama test—
requiring a compelling government interest, a
substantial relation between the sought disclosure
and that interest, and narrow tailoring so the
disclosure does not infringe on First Amendment
rights more than necessary—remains applicable for
cases arising outside of the electoral context, where a
plaintiff needs its crucial protection against forced
disclosures that threaten critical associational rights.
C
Until recently, the circuit courts, including the
Ninth Circuit, have agreed that NAACP v. Alabama
is still good law, and they have applied it when
considering state action that has the effect of
burdening individuals’ First Amendment rights by
requiring disclosure of associational information.11 In
1

See, e.g., United States v. Comley, 890 F.2d 539, 543–44 (1st
Cir. 1989) (“Once [a prima facie showing of First Amendment
infringement] is made, the burden then shifts to the government
to show both a compelling need for the material sought and that
there is no significantly less restrictive alternative for obtaining
the information.”); Wilson v. Stocker, 819 F.2d 943, 949 (10th Cir.
1987) (“The law must be substantially related to a compelling
governmental interest, and must be narrowly drawn so as to be
the least restrictive means of protecting that interest.”);
Humphreys, Hutcheson, & Moseley v. Donovan, 755 F.2d 1211,
1222 (6th Cir. 1985) (upholding the challenged provisions in part
because they “are carefully tailored so that first amendment
freedoms are not needlessly curtailed”); Clark v. Library of
Cong., 750 F.2d 89, 94 (D.C. Cir. 1984) (“[T]he government must
demonstrate that the means chosen to further its compelling

116a
Familias Unidas v. Briscoe, for instance, the Fifth
Circuit struck down a Texas statute that empowered
a county judge to compel public disclosure of the
names of organizations that interfered with the
operation of public schools. 619 F.2d 391, 394 (5th Cir.
1980). In that case, the judge had compelled
disclosure of the names of Mexican-American
students and adults who were members of a group
seeking reform of the Hondo public schools. The Fifth
Circuit recognized that the Supreme Court had
upheld compulsory disclosures of membership lists
only when the underlying state interest is compelling
and legitimate, and the disclosure requirement is
“drawn with sufficiently narrow specificity to avoid
impinging more broadly upon First Amendment
liberties than is absolutely necessary.” Id. at 399
(citing Buckley, 424 U.S. at 68).
Our cases have likewise remained faithful to
NAACP v. Alabama. For example, Brock v. Local 375,
Plumbers International Union of America recognized
that once a plaintiff shows that disclosure will result
in “harassment, membership withdrawal, or
discouragement of new members,” or otherwise chill
interest are those least restrictive of freedom of belief and
association.”); Master Printers of Am. v. Donovan, 751 F.2d 700,
705 (4th Cir. 1984) (“To survive the ‘exacting scrutiny’ required
by the Supreme Court, . . . the government must show that the
disclosure and reporting requirements are justified by a
compelling government interest, and that the legislation is
narrowly tailored to serve that interest.”); see also Perry v.
Schwarzenegger, 591 F.3d 1147, 1159–61 (9th Cir. 2010); Dole v.
Serv. Emps. Union, AFL-CIO, Local 280, 950 F.2d 1456, 1461
(9th Cir. 1991); Brock v. Local 375, Plumbers Int’l Union of Am.,
860 F.2d 346, 350 (9th Cir. 1988).

117a
associational rights, heightened scrutiny applies: the
government must demonstrate that the information
sought “is rationally related to a compelling
governmental interest,” and that the disclosure
requirement is the least restrictive means of
obtaining that information. 860 F.2d 346, 350 (9th
Cir. 1988) (citing Buckley, 424 U.S. at 64, 68; Shelton
v. Tucker, 364 U.S. 479, 488 (1960)). We reaffirmed
this approach in Perry v. Schwarzenegger, where we
emphasized that “[i]nfringements on [the freedom to
associate] may be justified by regulations adopted to
serve compelling state interests, unrelated to the
suppression of ideas, that cannot be achieved through
means significantly less restrictive of associational
freedoms.” 591 F.3d 1147, 1159 (9th Cir. 2010)
(quoting Roberts, 468 U.S. at 623).2
In recent years, a few outliers have emerged
and broken from the uniform application of NAACP v.
Alabama
when
considering
challenges
to
government-required disclosure. We applied Buckley,
rather than NAACP v. Alabama, in two cases
involving state disclosure requirements outside the
electoral context. See Ams. for Prosperity Found. v.
Harris, 809 F.3d 536, 538–39 (9th Cir. 2015) (per
curiam) (“AFPF I”); Ctr. for Competitive Politics v.
Harris, 784 F.3d 1307, 1312–14 (9th Cir. 2015)
(“CCP”). The Second Circuit has also recently applied
Buckley’s
test—without
a
narrow
tailoring
requirement—to a challenge to a government
2

Although these cases cite both to Buckley and to cases setting
out the NAACP v. Alabama test, see, e.g., Brock, 860 F.2d at 350,
they remain faithful to the principles of NAACP v. Alabama by
applying its heightened scrutiny and requiring narrow tailoring.

118a
disclosure requirement outside of the electoral
context. See Citizens United v. Schneiderman, 882
F.3d 374, 382, 385 (2d Cir. 2018). But none of these
outliers offered a convincing rationale for extending
Buckley outside of the electoral context. Equally
important, none addressed a situation in which a
plaintiff showed a reasonable probability of threats or
hostility in the event of disclosure, see Schneiderman,
882 F.3d at 385; AFPF I, 809 F.3d at 541; CCP, 784
F.3d at 1314, which is a threshold requirement for the
application of NAACP v. Alabama’s test. Accordingly,
these cases do not bear on whether NAACP v.
Alabama’s standard must be applied when a plaintiff
does make such a showing, regardless whether the
application of Buckley is appropriate outside of the
electoral context.
II
The facts of this case make clear that the
Foundation is entitled to First Amendment protection
under NAACP v. Alabama and that California’s
disclosure requirement cannot be constitutionally
applied to the Foundation.
The Americans for Prosperity Foundation is a
conservative organization dedicated to “educating
and training citizens to be advocates for freedom.”3 It
develops educational programs to “share knowledge
and tools that encourage participants to apply the

3

Ams.
for
Prosperity
Found.,
http://americansfor
prosperityfoundation.org (last visited March 11, 2019).

119a
principles of a free and open society in their daily
lives.”44
People publicly affiliated with the Foundation
have often faced harassment, hostility, and violence,
as shown by the evidence adduced at trial in this case.
For example, supporters have received threatening
messages and packages, had their addresses and
children’s school addresses posted online in an effort
to intimidate them, and received death threats. One
blogger posted a message stating he contemplated
assassinating a Foundation supporter: “I’m a trained
killer, you know, courtesy of U.S. taxpayers, and it
would be easy as pie to . . . take [him] out.” In the same
vein, a consultant working for the Foundation posted
threats of physical violence against Foundation
employees. On a different blog site, a person claiming
that he worked at the Foundation posted that he was
“inside the belly of the beast,” and could “easily walk
in and slit [the Foundation CEO’s] throat.”
Foundation supporters have also been
subjected to violence, not just threats. For instance,
at a rally in Michigan, several hundred protestors
wielding knives and box cutters surrounded the
Foundation’s tent and sawed at the tent ropes until
they were severed. Foundation supporters were
caught under the tent when it collapsed, including
elderly supporters who could not get out on their own.
At least one supporter was punched by the protestors.
Opponents of the Foundation have also
targeted its supporters with economic reprisal. For
instance, after an article published by Mother Jones
4

Id.

120a
magazine in February 2013 revealed donor
information, protesters called for boycotts of the
businesses run by six individuals mentioned in the
article. Similarly, Art Pope, who served on the
Foundation’s board of directors, suffered boycotts of
his business.
Given this history of harassment, the
Foundation was reluctant to make information about
its donors public. This concern became acute in 2010,
when California suddenly decided to enforce a long
dormant disclosure law.
California law requires any entity that wishes
to register as a charitable organization to submit a
multitude of tax forms to the state. See Cal. Code
Regs. tit. 11, § 301. Among other requirements,
California requires charitable organizations to file a
confidential federal tax form, Schedule B to IRS Form
990, which contains the names and addresses of any
donors who meet certain criteria. See id.; 26 U.S.C. §
6033(b); 26 C.F.R. § 1.6033-2(a)(2)(iii)(a). Under its
regulations, California may release Schedule B only
in response to a search warrant or as needed in an
enforcement proceeding brought against a charity by
the Attorney General. See Cal. Code Regs. tit. 11, §
310(b). But as discussed below, the state’s
confidential information is so vulnerable to hacks and
inadvertent disclosure that Schedule B information is
effectively available for the taking.
In light of the Foundation’s confidentiality
concerns, from 2001 to 2010, it registered as a charity
in California without submitting the donor

121a
information its Schedule B contains.5 Over that entire
period, California did not request the Foundation’s
Schedule B or list the Foundation’s registration as a
charity as deficient in any way. See AFPF II, 903 F.3d
at 1006–07.
In 2010, California suddenly increased its
efforts to collect charities’ Schedule Bs, and in 2013
the state notified the Foundation that its registration
was deficient because it had not submitted Schedule
B donor information. See id. at 1006. In an effort to
protect its donors from likely threats and hostility as
backlash for their affiliation with the Foundation, it
filed suit seeking to enjoin California from enforcing
this requirement against it.
After a multi-day trial, the district court ruled
that the First Amendment protects the Foundation
from forced disclosure of its donor information,6 and
it entered a permanent injunction against California’s
enforcement of the Schedule B requirement as
applied to the Foundation. See Ams. for Prosperity
Found., 182 F. Supp. 3d at 1059.

5

The Foundation’s Schedule B includes the names and
addresses of any person who donated more than 2 percent of the
Foundation’s annual contributions. See 26 C.F.R. § 1.60332(a)(2)(iii)(a).
The district court initially entered a preliminary injunction
against California’s enforcement against the Foundation. See
AFPF II, 903 F.3d at 1006. A panel of our court reversed in part
on the ground that the Foundation had not shown evidence of
past hostility toward Foundation donors or a reasonable
probability of future hostility. See AFPF I, 809 F.3d at 539–41.
On remand, the Foundation presented evidence of both. See
Ams. for Prosperity Found., 182 F. Supp. 3d 1049.

6

122a
III
The panel reversed, holding that California’s
interest in Schedule B information was “sufficiently
important” and that there was a substantial relation
between the requirement and the state’s interest.
AFPF II, 903 F.3d at 1008 (quoting Doe, 561 U.S. at
196). In reaching this conclusion, the panel made
crucial factual and legal errors.
The panel’s legal error is evident. Although this
case arose outside of the election context, and the
Foundation established that its members might be
exposed to harassment and abuse if their identities
were made public, the panel mistakenly applied
Buckley’s “exacting scrutiny” and rejected the
Foundation’s argument that a narrow tailoring
requirement applied in this context. See AFPF II, 903
F.3d at 1008–09.
The panel’s factual errors are equally
egregious. As a general rule, appellate courts may not
override the facts found by a district court unless they
are clearly erroneous. In our circuit, “we will affirm a
district court’s factual finding unless that finding is
illogical, implausible, or without support in inferences
that may be drawn from the record.” United States v.
Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009) (en
banc). Here, the panel not only failed to defer to the
district court, but reached factual conclusions that
were unsupported by the record.
First, the district court held that disclosure of
the Schedule B information to the state could result
in the names of the Foundation’s donors being
released to the public. See Ams. for Prosperity Found.,
182 F. Supp. 3d at 1057. The district court squarely

123a
rejected the state’s argument that no donor
information disclosed to the state would be publicly
disclosed because it would remain confidential on the
state’s servers. See id. The evidence produced at trial
in this case provided overwhelming support for the
court’s findings. There was ample evidence of human
error in the operation of the state’s system. State
employees were shown to have an established history
of disclosing confidential information inadvertently,
usually by incorrectly uploading confidential
documents to the state website such that they were
publicly posted. Such mistakes resulted in the public
posting of around 1,800 confidential Schedule Bs, left
clickable for anyone who stumbled upon them. AFPF
II, 903 F.3d at 1018. And the public did find them. For
instance, in 2012 Planned Parenthood become aware
that a complete Schedule B for Planned Parenthood
Affiliates of California, Inc., for the 2009 fiscal year
was publicly posted; the document included the
names and addresses of hundreds of donors.
There was also substantial evidence that
California’s computerized registry of charitable
corporations was shown to be an open door for
hackers. In preparation for trial, the plaintiff asked
its expert to test the security of the registry. He was
readily able to access every confidential document in
the registry—more than 350,000 confidential
documents—merely by changing a single digit at the
end of the website’s URL. See AFPF II, 903 F.3d at
1018. When the plaintiff alerted California to this
vulnerability, its experts tried to fix this hole in its
system. Yet when the expert used the exact same
method the week before trial to test the registry, he

124a
was able to find 40 more Schedule Bs that should have
been confidential.
In rejecting the district court’s factual
conclusions, the panel violated our standard of review
as well as common sense. The panel concluded that in
the future, all Schedule B information would be kept
confidential. It reasoned that because the state
technician was able to fix the security vulnerability
exposed by the Foundation’s expert, “[t]here is no
evidence to suggest that this type of error is likely to
recur.” Id. at 1018. The panel did not address the fact
that even a week before trial, the state could not
prevent a second disclosure based on the same
security vulnerability. Further, the panel claimed
that despite the state’s long history of inadvertent
disclosure of Schedule B information through human
error, the state’s new efforts to correct human errors
through additional “procedural quality checks” and “a
system of text-searching batch uploads before they
are scanned to the Registry site to ensure none
contains Schedule B keywords” would obviate future
disclosures. Id. But no evidence supports this claim,
and it is contrary to any real-world experience.
Second, the district court found that the state
did not have a strong interest in obtaining the
Schedule B submissions to further its enforcement
goals. Instead, it held that California’s up-front
Schedule B submission requirement “demonstrably
played no role in advancing the Attorney General’s
law enforcement goals for the past ten years.” Ams.
for Prosperity Found., 182 F. Supp. 3d at 1055.
Indeed, California could not point to “even a single,
concrete instance in which pre-investigation
collection of a Schedule B did anything to advance the

125a
Attorney General’s investigative, regulatory or
enforcement efforts.” Id. The panel rejected this wellsupported finding based solely on the conclusory,
blanket assertions made by state witnesses that upfront disclosure of donor names increases
“investigative efficiency.” AFPF II, 903 F.3d at 1010.
Yet the Supreme Court has made clear that a state’s
“mere assertion” that there was a substantial
relationship between the disclosure requirement and
the state’s goals is not enough to establish such a
relationship. See Bates, 361 U.S. at 525; Gibson, 372
U.S. at 554–55. And the record does not otherwise
support the panel’s conclusion.
Finally, the district court found ample evidence
that Foundation supporters would likely be subject to
threats or hostility should their affiliations be
disclosed. See Ams. for Prosperity Found., 182 F.
Supp. 3d at 1055–56. But based on its unsupported
assumption that public disclosure would not occur,
the panel felt justified in disregarding this wellsupported conclusion. AFPF II, 903 F.3d at 1017.
Given
the
panel’s
erroneous
factual
determinations that there would be no public
disclosure of Foundation donors and that California’s
disclosure requirement was substantially related to
its enforcement goals, and its mistaken legal decision
that no narrow tailoring was required, it is not
surprising that the panel easily arrived at the
conclusion that the donors were not entitled to any
protection of their First Amendment rights.
IV
But contrary to the panel, the full protection of
NAACP v. Alabama was warranted in this case,

126a
because the Foundation’s donors may be exposed to
harassment and abuse if their identities are disclosed,
and the special considerations regarding governmentrequired disclosures for elections are not present. See,
e.g., Primus, 436 U.S. at 432; Brock, 860 F.2d at 350.
Had the panel properly recognized NAACP v.
Alabama’s applicability, it would have considered (1)
whether California presented a compelling interest
that is (2) substantially related to the disclosure
requirement, and (3) whether the requirement was
narrowly tailored to the articulated interest. See 357
U.S. at 462–63; Gibson, 372 U.S. at 546; Gremillion,
366 U.S. at 297.
Applying the correct test, it is clear that
California failed to show that its Schedule B
disclosure requirement is “substantially related” to
any interest in policing charitable fraud. A state’s
“mere assertion” that there was a substantial
relationship between the disclosure requirement and
the state’s goals is not enough to establish such a
relationship, see Bates, 361 U.S. at 525; Gibson, 372
U.S. at 554–55, and the district court’s well-supported
factual findings establish that the Schedule Bs are
rarely used to detect fraud or to enhance enforcement
efforts.
Nor is California’s disclosure requirement
narrowly tailored; rather, the means “broadly stifle
fundamental personal liberties” and “the end can be
more narrowly achieved.” Gremillion, 366 U.S. at 296
(quoting Shelton, 364 U.S. at 488). The state requires
blanket Schedule B disclosure from every registered
charity when few are ever investigated, and less
restrictive and more tailored means for the Attorney
General to obtain the desired information are readily

127a
available. In particular, the Registry can obtain an
organization’s Schedule B through a subpoena or a
request in an audit letter once an investigation is
underway without any harm to the government’s
interest in policing charitable fraud. Moreover, the
state failed to provide any example of an investigation
obscured by a charity’s evasive activity after receipt
of an audit letter or subpoena requesting a Schedule
B, although state witnesses made assertions to that
effect. See AFPF II, 903 F.3d at 1010–11. The panel’s
erroneous application of Buckley led it to ignore this
requirement completely, and it demanded no
explanation from California for why such a sweeping
disclosure requirement—imposed before the state has
any reason to investigate a charity—is justified given
equally effective, less restrictive means exist. See id.
at 1011–12.
Accordingly, under the proper application of
the test to the facts found by the district court, the
Foundation was entitled to First Amendment
protection of its donor lists. Because California failed
to show a substantial relation between its articulated
interest and its disclosure requirement, and because
it failed to show that the requirement was narrowly
tailored, California’s Schedule B disclosure
requirement fails the test provided by NAACP v.
Alabama, and it should have been struck down as
applied to the Foundation.
The panel’s contrary conclusion eviscerates the
First Amendment protections long-established by the
Supreme Court. By applying Buckley where NAACP
v. Alabama’s higher standard should have been
triggered, the panel lowered the bar governments
must surmount to force disclosure of sensitive

128a
associational ties. Under the panel’s standard, a
state’s self-serving assertions about efficient law
enforcement are enough to justify disclosures
notwithstanding the threats, hostility, and economic
reprisals against socially disfavored groups that may
ensue. And by rejecting the district court’s factual
findings that disclosed donor lists will become public
and expose individuals to real threats of harm, the
panel imposes a next-to-impossible evidentiary
burden on plaintiffs seeking protection of their
associational rights. Indeed, if the Foundation’s
evidence is not enough to show that California cannot
adequately secure its information, no plaintiff will be
able to overcome a state’s empty assurances. “The
possibility of prevailing in an as-applied challenge
provides adequate protection for First Amendment
rights only if . . . the showing necessary to obtain the
exemption is not overly burdensome.” Doe, 561 U.S.
at 203 (Alito, J., concurring).
V
In short, the panel’s conclusion is contrary to
the reasoning and spirit of decades of Supreme Court
jurisprudence. Under the panel’s analysis, the
government can put the First Amendment
associational rights of members and contributors at
risk for a list of names it does not need, so long as it
promises to do better in the future to avoid public
disclosure of the names. Given the inability of
governments to keep data secure, this standard puts
anyone with controversial views at risk. We should
have reheard this case en banc to reaffirm the vitality
of NAACP v. Alabama’s protective doctrine, and to
clarify that Buckley’s watered-down standard has no
place outside of the electoral context.

129a
The First Amendment freedom to associate is
vital to a functioning civil society. For groups with
“dissident beliefs,” it is fragile. The Supreme Court
has recognized this time and time again, but the panel
decision strips these groups of First Amendment
protection. I dissent from our decision not to correct
this error.

FISHER, PAEZ and NGUYEN, Circuit Judges,
responding to the dissent from the denial of rehearing
en banc:
The State of California, like the federal
government, requires tax-exempt § 501(c)(3)
organizations to file annual returns with regulators
charged with protecting the public against charitable
fraud. Among other things, these organizations are
required to report the names and addresses of their
largest contributors on IRS Form 990, Schedule B.
The information is provided to regulators, who use it
to prevent charitable fraud, but it is not made public.
Both circuits to consider the question have concluded
that First Amendment challenges to these
requirements are subject to exacting, rather than
strict, scrutiny, and both circuits have held that these
requirements satisfy exacting scrutiny. See Ams. for
Prosperity Found. v. Becerra (AFPF II), 903 F.3d 1000
(9th Cir. 2018); Citizens United v. Schneiderman, 882
F.3d 374 (2d Cir. 2018); Ams. for Prosperity Found. v.
Harris (AFPF I), 809 F.3d 536 (9th Cir. 2015); Ctr. for
Competitive Politics v. Harris, 784 F.3d 1307 (9th
Cir.), cert. denied, 136 S. Ct. 480 (2015). As these
courts have recognized, requiring the nonpublic

130a
disclosure of Schedule B information comports with
the freedom of association protected by the First
Amendment because it allows state and federal
regulators to protect the public from fraud without
exposing contributors to the threats, harassment or
reprisals that might follow public disclosure.
I
Organizations
operated
exclusively
for
religious, charitable, scientific or educational
purposes are eligible for an exemption from federal
and state taxes under § 501(c)(3) of the Internal
Revenue Code and § 23701 of the California Revenue
& Tax Code. Organizations avail themselves of this
status to avoid taxes and collect tax-deductible
contributions.
Because this favored tax treatment presents
opportunities for self-dealing, fraud and abuse,
organizations availing themselves of § 501(c)(3)
status are subject to federal and state oversight.
Congress has required every organization exempt
from taxation under § 503(c)(3) to file an annual
information return (Form 990 series) with the
Internal Revenue Service, setting forth detailed
information on its income, expenditures, assets and
liabilities, including, as relevant here, “the total of the
contributions and gifts received by it during the year,
and the names and addresses of all substantial
contributors.” 26 U.S.C. § 6033(b)(5). Organizations
such as plaintiffs Americans for Prosperity
Foundation and Thomas More Law Center are
required to report the name and address of any person
who contributed the greater of $5,000 or 2 percent of
the organization’s total contributions for the year. See

131a
26 C.F.R. § 1.6033-2(a)(2)(iii)(a). An organization with
$10 million in annual revenue, for example, must
report contributors who have given in excess of
$200,000 for the year. Between 2010 and 2015, the
Thomas More Law Center was required to report no
more than seven contributors; Americans for
Prosperity Foundation was required to report no more
than 10 contributors — those contributing over
$250,000. Organizations report this information on
IRS Form 990, Schedule B.
This information is reported not only to the IRS
but also to state regulators. California’s Supervision
of Trustees and Charitable Trusts Act requires the
Attorney General to maintain a registry of charitable
organizations and authorizes the Attorney General to
obtain “whatever information, copies of instruments,
reports, and records are needed” for the registry’s
“establishment and maintenance.” Cal. Gov’t Code §
12584. To solicit tax-deductible contributions from
California residents, an organization must maintain
membership in the registry, see id. § 12585, and as
one condition of registry membership, charities must
submit a complete copy of the IRS Form 990 they
already file with the IRS, including Schedule B, see
Cal. Code Regs. tit. 11, § 301.
This contributor information is not made
public. See 26 U.S.C. § 6104(d)(1)(A)(i), (3)(A); Cal.
Gov’t Code § 12590; Cal. Code Regs. tit. 11, § 310. The
California Attorney General keeps Schedule Bs in a
separate file from other submissions to the registry
and excludes them from public inspection on the
registry website. See AFPF II, 903 F.3d at 1005. Only
information that does not identify a contributor is
available for public inspection.

132a
II
Some § 501(c)(3) organizations object to the
Schedule B reporting requirement. They argue that
by submitting their Schedule B information to
regulators, they expose their major contributors to
threats, harassment and reprisals — from those
regulators and from the public — which in turn
discourages contributions. They argue, therefore, that
this requirement violates the freedom of association
protected by the First Amendment.
The two federal appellate courts to have
addressed the issue, ours and the Second Circuit,
have rejected these claims. See AFPF II, 903 F.3d
1000; Schneiderman, 882 F.3d 374; AFPF I, 809 F.3d
536; Ctr. for Competitive Politics, 784 F.3d 1307.
These courts have agreed that exacting rather than
strict scrutiny applies, see AFPF II, 903 F.3d at 1008;
Schneiderman, 882 F.3d at 381–82; AFPF I, 809 F.3d
at 541; Ctr. for Competitive Politics, 784 F.3d at 1312,
and that the Schedule B requirement survives
exacting scrutiny, because the requirement serves an
important governmental interest in preventing
charitable fraud without imposing a substantial
burden on the exercise of First Amendment rights.
The dissent from the denial of rehearing en
banc challenges these decisions, arguing that a form
of strict scrutiny applies and that California’s
Schedule B requirement is unconstitutional. In our
view, the dissent’s arguments are not well taken.
III
The bulk of the dissent is devoted to the
argument that we erred by applying exacting

133a
scrutiny. According to the dissent, First Amendment
challenges to disclosure requirements are subject to
two different tests:
1. In the electoral context, “exacting scrutiny”
applies. This “standard requires a
substantial relation between the disclosure
requirement and a sufficiently important
governmental interest. To withstand this
scrutiny, the strength of the governmental
interest must reflect the seriousness of the
actual burden on First Amendment rights.”
Doe v. Reed, 561 U.S. 186, 196 (2010)
(citations and internal quotation marks
omitted).
2. Outside the electoral context, “heightened
scrutiny” applies. This standard requires
(1) a “compelling interest,” (2) “a
substantial relationship between the
information sought and the compelling
state interest” and (3) narrow tailoring.
Dissent at 5. The dissent refers to this
strict-scrutiny-like test as “heightened
scrutiny” or the “NAACP v. Alabama test.”
This case does not arise in the electoral context.
Hence, according to the dissent, we should have
applied the dissent’s proposed “heightened scrutiny”
test rather than exacting scrutiny. Had we done so,
the dissent says, we would have invalidated
California’s Schedule B requirement.
We respectfully disagree with the dissent’s
contention that First Amendment challenges to
disclosure requirements are subject to two different
tests. In our view, there is only a single test —

134a
exacting scrutiny — that applies both within and
without the electoral context. This test originated in
NAACP v. Alabama, 357 U.S. 449 (1958), and the
other Civil Rights Era cases — Bates v. City of Little
Rock, 361 U.S. 516 (1960), Shelton v. Tucker, 364 U.S.
479 (1960), Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961), Gibson v. Fla. Legislative
Investigation Comm., 372 U.S. 539 (1963) — and has
been applied more recently in Buckley v. Valeo, 424
U.S. 1 (1976), Doe and other cases arising in the
electoral context. As Doe explains, the exacting
scrutiny test:
requires a substantial relation between
the disclosure requirement and a
sufficiently important governmental
interest. To withstand this scrutiny, the
strength of the governmental interest
must reflect the seriousness of the actual
burden on First Amendment rights.
561 U.S. at 196 (citations and internal quotation
marks omitted).
Whereas strict scrutiny requires a compelling
interest and narrow tailoring in every case, the
interest and tailoring required under exacting
scrutiny varies from case to case, depending on the
actual burden on First Amendment rights at stake:
the governmental interest must be “sufficiently
important” to justify the “actual burden on First
Amendment rights” in the case at hand. Id. (emphasis
added). Thus, where the burden that a disclosure
requirement places on First Amendment rights is
great, the interest and the fit must be as well. See,
e.g., Buckley, 424 U.S. at 25 (“Even a significant

135a
interference with protected rights of political
association may be sustained if the State
demonstrates a sufficiently important interest and
employs means closely drawn to avoid unnecessary
abridgment of associational freedoms.” (emphasis
added) (internal quotation marks omitted)); Gibson,
372 U.S. at 546 (“Where there is a significant
encroachment upon personal liberty, the State may
prevail only upon showing a subordinating interest
which is compelling.” (emphasis added) (quoting
Bates, 361 U.S. at 524)); Gremillion, 366 U.S. at 296
(“[E]ven though the governmental purpose be
legitimate and substantial, that purpose cannot be
pursued by means that broadly stifle fundamental
personal liberties when the end can be more narrowly
achieved.” (emphasis added) (quoting Shelton, 364
U.S. at 488)); Shelton, 364 U.S. at 488 (same); Bates,
361 U.S. at 524 (“Where there is a significant
encroachment upon personal liberty, the State may
prevail only upon showing a subordinating interest
which is compelling.” (emphasis added) (citing
NAACP v. Alabama, 357 U.S. 449)); see also R. George
Wright, A Hard Look at Exacting Scrutiny, 85 UMKC
L. Rev. 207, 210 (2016). But where, as here, the actual
burden is slight, a weaker interest and a looser fit will
suffice.
The dissent’s contention that there are two
different tests is based on the premise that NAACP v.
Alabama applied something other than exacting
scrutiny. We are not persuaded. First, the Supreme
Court has already told us that NAACP v. Alabama
applied exacting scrutiny: “Since NAACP v. Alabama
we have required that the subordinating interests of
the State must survive exacting scrutiny.” Buckley,

136a
424 U.S. at 64. Second, there is simply no way to read
NAACP v. Alabama as applying anything other than
the exacting scrutiny test described in Doe. The only
question the Court decided in NAACP v. Alabama was
whether the state had “demonstrated an interest in
obtaining the disclosures it seeks from petitioner
which is sufficient to justify the deterrent effect which
we have concluded these disclosures may well have on
the free exercise by petitioner’s members of their
constitutionally protected right of association.”
NAACP v. Alabama, 357 U.S. at 463 (emphasis
added). The disclosure requirement failed solely
because “Alabama has fallen short of showing a
controlling justification for the deterrent effect on the
free enjoyment of the right to associate which
disclosure of membership lists is likely to have.” Id. at
466. There is no light between the test applied in
NAACP v. Alabama and the one described in Doe.
In sum, we properly applied exacting scrutiny.
IV
The dissent also challenges our conclusion that
California’s Schedule B requirement survives
exacting scrutiny. As noted, a disclosure requirement
withstands scrutiny under this test if the strength of
the governmental interest reflects the seriousness of
the actual burden on First Amendment rights. See
Doe, 561 U.S. at 196. Here, the state’s strong interest
in collecting Schedule B information justifies the
modest burden that nonpublic disclosure places on
the exercise of First Amendment rights.
A. Strength of the Governmental Interest

137a
With respect to the state’s interest in collecting
Schedule B information, the evidence was undisputed
that the state uses Schedule B information to
investigate charitable fraud. See AFPF II, 903 F.3d at
1011. “Current and former members of the Charitable
Trusts Section, for example, testified that they found
the Schedule B particularly useful in several
investigations over the past few years, and provided
examples. They were able to use Schedule B
information to trace money used for improper
purposes in connection with a charity serving animals
after Hurricane Katrina; to identify a charity’s
founder as its principal contributor, indicating he was
using the research charity as a pass-through; to
identify self-dealing in that same charity; to track a
for-profit corporation’s use of a non-profit
organization as an improper vessel for gain; and to
investigate a cancer charity’s gift-in-kind fraud.” Id.
Circuits have consistently recognized the strength of
this interest. See, e.g., Schneiderman, 882 F.3d at 384;
Ctr. for Competitive Politics, 784 F.3d at 1311, 1317.
The evidence also was undisputed that upfront collection of Schedule B information provides
the only effective means of obtaining the information.
State regulators testified that attempting to obtain a
Schedule B from a regulated entity after an
investigation begins is ineffective “[b]ecause it’s timeconsuming, and you are tipping the charity off that
they are about to be audited.” AFPF II, 903 F.3d at
1010. Using a subpoena or audit letter “would tip
them off to our investigation, which would allow them
potentially to dissipate more assets or hide assets or
destroy documents, which certainly happened several
times; or it just allows more damage to be done to [the]

138a
charity.” Id.; accord Ctr. for Competitive Politics, 784
F.3d at 1317.
Although the district court questioned the
strength of the governmental interest, it did so by
applying an erroneous legal standard, requiring the
state to establish that up-front collection of Schedule
B information was the least restrictive means of
obtaining the information, see Ams. for Prosperity
Found. v. Harris, 182 F. Supp. 3d 1049, 1053–55 (C.D.
Cal. 2016), and that it would be impossible for the
state to regulate charitable organizations without
collecting Schedule B information, see Thomas More
Law Ctr. v. Harris, No. CV 15-3048-R, 2016 WL
6781090, at *2 (C.D. Cal. Nov. 16, 2016). By applying
the wrong legal standard, the district court abused its
discretion, see United States v. Hinkson, 585 F.3d
1247, 1251 (9th Cir. 2009) (en banc), and disregarded
a previous ruling by this court in this very case, see
AFPF I, 809 F.3d at 541 (rejecting a least restrictive
means test).
B. Actual Burden on First Amendment
Rights
To determine the actual burden on First
Amendment rights, we looked at two questions: (1)
the likelihood that the plaintiffs’ Schedule B
contributors would face threats, harassment or
reprisals if their Schedule B information were made
public and (2) the likelihood that the information
would become public. See AFPF II, 903 F.3d at 1015.
We ultimately declined to reach any conclusion
with respect to the first question. See id. at 1017. The
evidence on that question was mixed. Neither
plaintiff, for example, identified a single contributor

139a
who would withhold financial support based on the
plaintiffs’ compliance with California’s Schedule B
disclosure requirement. See id. at 1014. The Thomas
More Law Center, moreover, has consistently overreported contributor information on its Schedule B
filings, undermining its contention that reporting
deters contributions. See id. Furthermore, many of
the plaintiffs’ Schedule B contributors are already
publicly known. Private foundations, for example, are
required by law to publicly disclose their
contributions to the plaintiffs. See id. at 1015. Other
Schedule B contributors — such as Charles and David
Koch — are already publicly identified with the
plaintiffs. In addition, although the evidence showed
that individuals who are associated with the
plaintiffs, such as the Koch brothers, have faced
threats or harassment based on their controversial
activities, the plaintiffs “presented little evidence
bearing on whether harassment has occurred, or is
likely to occur, simply because an individual or entity
provided a large financial contribution to the
Foundation or the Law Center.” Id. at 1016 & n.6. In
2013, the National Journal published copies of the
Foundation’s Schedule Bs, but the Foundation
presented no evidence that contributors suffered
retaliation as a result. See id. at 1017.
Ultimately, because California, like the federal
government and other states, requires only the
nonpublic disclosure of Schedule B information, we
did not need to decide whether, in the event of public
disclosure of the Schedule B information, the
plaintiffs’ Schedule B contributors were likely to
encounter threats, harassment or reprisals. See id. at
1017. We acknowledged the risk of inadvertent public

140a
disclosure based on past confidentiality lapses by the
state. See id. at 1018. We explained, however, that
“[t]he state’s past confidentiality lapses [were] of two
varieties: first, human error when Registry staff
miscoded Schedule B forms during uploading; and
second, a software vulnerability that failed to block
access to a plaintiff’s expert as he probed the
Registry’s servers for flaws during this litigation.” Id.
at 1018. We explained that the software problem
stemmed from a third-party vendor, had been
“quickly remedied” and was not “likely to recur.” Id.
With respect to the problem of human error, we
explained that
the Registry Unit has implemented
stronger protocols to prevent human
error. It has implemented “procedural
quality checks . . . to sample work as it
[is] being performed” and to ensure it is
“in accordance with procedures on
handling documents and [indexing
them] prior to uploading.” It has further
implemented a system of text-searching
batch uploads before they are scanned to
the Registry site to ensure none contains
Schedule B keywords. At the time of trial
in 2016, the Registry Unit had halted
batch uploads altogether in favor of
loading each document individually, as
it was refining the text-search system.
After forms are loaded to the Registry,
the Charitable Trusts Section runs an
automated weekly script to identify and
remove any documents that it had
inadvertently misclassified as public.

141a
There is also no dispute that the
Registry Unit immediately removes any
information that an organization
identifies as having been misclassified
for public access.
Id. There was no evidence that these “cybersecurity
protocols are deficient or substandard as compared to
either the industry or the IRS, which maintains the
same confidential information.” Id. at 1019.
We also emphasized that we were addressing
an as-applied challenge. See id. The key question,
therefore, was not whether there was a “risk of
inadvertent disclosure of any Schedule B information
in the future,” but rather whether there was a
significant “risk of inadvertent disclosure of the
plaintiffs’ Schedule B information in particular.” Id.
There can be no question that this risk — which the
district court failed to consider — is exceedingly
small, so the plaintiffs did not show “a reasonable
probability that the compelled disclosure of [their
major] contributors’ names will subject them to
threats, harassment, or reprisals from either
Government officials or private parties.” Buckley, 424
U.S. at 74. The state’s interest in obtaining the
plaintiffs’ Schedule B information therefore was
sufficient under Doe to justify the modest burden on
First Amendment rights. See AFPF II, 903 F.3d at
1019.
V
Our colleagues sensibly declined to rehear this
case en banc. Our decision to apply exacting scrutiny
is consistent with Supreme Court precedent, see Doe,
561 U.S. at 196; Buckley, 424 U.S. at 64, NAACP v.

142a
Alabama, 357 U.S. at 463, Ninth Circuit precedent,
see Ctr. for Competitive Politics, 784 F.3d at 1312–13,
and out-of-circuit precedent, see Schneiderman, 882
F.3d at 381–82. Likewise, our conclusion that the
Schedule B reporting requirement survives exacting
scrutiny is consistent with both Ninth Circuit and
out-of-circuit precedent. See Schneiderman, 882 F.3d
at 383–85; Ctr. for Competitive Politics, 784 F.3d at
1312–17. Although only two circuits have addressed
the issue, they have uniformly held that nonpublic
Schedule B reporting requirements satisfy the First
Amendment because they allow state and federal
regulators to protect the public from charitable fraud
without subjecting major contributors to the threats,
harassment or reprisals that could flow from public
disclosure.

143a

Educating and Training Americans to be
Courageous Advocates for the Ideas,
Principles, and Policies of a Free and
Open Society
For over twenty years, Americans for
Prosperity Foundation has been educating and
training citizens to be advocates for freedom, creating
real change at the local, state, and federal levels. In
communities across the country, Foundation
programs share knowledge and tools that encourage
participants to apply the principles of a free and open
society in their daily lives-knowing this leads to the
greatest prosperity and well-being for all.

144a

145a

146a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
AMERICANS FOR
PROSPERITY
FOUNDATION,
Plaintiff-Appellee,
v.
KAMALA D. HARRIS,
Attorney General, in her
Official Capacity as
Attorney General of
California,

No. 15-55446
D.C. No.2:14-cv09448-R-FFM
Central District of
California, Los
Angeles
ORDER

Defendant-Appellant.
THOMAS MORE LAW
CENTER,
Plaintiff-Appellee,
v.
KAMALA D. HARRIS,
Attorney General, in her
Official Capacity,

No. 15-55911
D.C. No. 2:15-cv03048-R-FFM
Central District of
California, Los
Angeles

Defendant-Appellant.
Before: REINHARDT, FISHER and NGUYEN,
Circuit Judges.

147a
The panel has voted to deny the petition for
panel rehearing. Judges Reinhardt and Nguyen have
voted to deny the petition for rehearing en banc, and
Judge Fisher so recommends.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
Appellants’ petition for panel rehearing and
rehearing en banc, filed January 11, 2016, is
DENIED.

148a
Cal. Gov. Code § 12585
Filing of initial registration form; registration
of trustee
(a) Every charitable corporation, unincorporated
association, and trustee subject to this article shall
file with the Attorney General an initial registration
form, under oath, setting forth information and
attaching documents prescribed in accordance with
rules and regulations of the Attorney General, within
30 days after the corporation, unincorporated
association, or trustee initially receives property. A
trustee is not required to register as long as the
charitable interest in a trust is a future interest, but
shall do so within 30 days after any charitable
interest in a trust becomes a present interest.
(b) The Attorney General shall adopt rules and
regulations as to the contents of the initial
registration form and the manner of executing and
filing that document or documents.

149a
Cal. Gov. Code § 12586
Filing of additional reports as to nature of
assets held and administration thereof; rules
and regulations; time for filing; additional
requirements concerning preparation of
annual financial statements and auditing
(a) Except as otherwise provided and except corporate
trustees which are subject to the jurisdiction of the
Commissioner of Financial Institutions of the State of
California under Division 1 (commencing with
Section 99) of the Financial Code or to the
Comptroller of the Currency of the United States,
every
charitable
corporation,
unincorporated
association, and trustee subject to this article shall, in
addition to filing copies of the instruments previously
required, file with the Attorney General periodic
written reports, under oath, setting forth information
as to the nature of the assets held for charitable
purposes and the administration thereof by the
corporation, unincorporated association, or trustee, in
accordance with rules and regulations of the Attorney
General.
(b) The Attorney General shall make rules and
regulations as to the time for filing reports, the
contents thereof, and the manner of executing and
filing them. The Attorney General may classify trusts
and other relationships concerning property held for
a charitable purpose as to purpose, nature of assets,
duration of the trust or other relationship, amount of
assets, amounts to be devoted to charitable purposes,
nature of trustee, or otherwise, and may establish
different rules for the different classes as to time and
nature of the reports required to the ends (1) that he

150a
or she shall receive reasonably current, periodic
reports as to all charitable trusts or other
relationships of a similar nature, which will enable
him or her to ascertain whether they are being
properly administered, and (2) that periodic reports
shall not unreasonably add to the expense of the
administration of charitable trusts and similar
relationships. The Attorney General may suspend the
filing of reports as to a particular charitable trust or
relationship for a reasonable, specifically designated
time upon written application of the trustee filed with
the Attorney General and after the Attorney General
has filed in the register of charitable trusts a written
statement that the interests of the beneficiaries will
not be prejudiced thereby and that periodic reports
are not required for proper supervision by his or her
office.
*****
Cal. Gov. Code § 12590
Public inspection of register and reports
Subject to reasonable rules and regulations adopted
by the Attorney General, the register, copies of
instruments, and the reports filed with the Attorney
General shall be open to public inspection. The
Attorney General shall withhold from public
inspection any instrument so filed whose content is
not exclusively for charitable purposes.

151a
Cal. Code of Regulations § 300
Initial Registration
(a) Every charitable corporation, unincorporated
association, trustee or other person subject to the
registration requirements of that act entitled the
“Supervision of Trustees and Fundraisers for
Charitable Purposes Act” (Article 7, Chapter 6, Part
2, Division 3, Title 2, of the Government Code
commencing with Section 12580, hereafter “Act”)
shall file with the Attorney General a copy of the
articles of incorporation and bylaws, trust agreement,
decree of distribution or other instrument governing
its operation, as provided below. Filing of the Initial
Registration Form, the supporting documents
required by that form, and the required registration
fee of $25 shall constitute the initial registration.
Required information and supplemental documents
identified in the Initial Registration Form that are
not available at the time of filing of the form may be
submitted within ninety (90) days of submittal of the
form.
(b) An Initial Registration Form and supplemental
documents identified in that form shall be submitted
to the Registry of Charitable Trusts. The Initial
Registration Form shall require the following:
*****
(8) If the organization is based outside of
California, comment fully on the extent of activities
in California and how the California activities
relate to total activities. In addition, list all funds,
property, and other assets held or expected to be
held in California. Indicate whether you are
monitored in your home state and, if so, by whom;

152a
Cal. Code of Regulations § 301
Periodic Written Reports
Except as otherwise provided in the Act, every
charitable corporation, unincorporated association,
trustee, or other person subject to the reporting
requirements of the Act shall also file with the
Attorney General periodic written reports, under
oath, setting forth information as to the nature of the
assets held for charitable purposes and the
administration thereof by such corporation,
unincorporated association, trustee, or other person.
Except as otherwise provided in these regulations,
these reports include the Annual Registration
Renewal Fee Report, (“RRF-1” 08/2017), hereby
incorporated by reference, which must be filed with
the Registry of Charitable Trusts annually by all
registered charities, as well as the Internal Revenue
Service Form 990, which must be filed on an annual
basis with the Registry of Charitable Trusts, as well
as with the Internal Revenue Service. At the time of
the annual renewal of registration filing the RRF-1,
the registrant must submit a fee, as set forth in
section 311.
A tax-exempt charitable organization which is
allowed to file form 990-PF or 990-EZ with the
Internal Revenue Service, may file that form with the
Registry of Charitable Trusts in lieu of Form 990.
A charitable organization that is not exempt from
taxation under federal law shall use Internal Revenue
Service Form 990 to comply with the reporting
provisions of the Supervision of Trustees and
Fundraisers for Charitable Purposes Act. The form
shall include, at the top of the page, in 10-point type,

153a
all capital letters, “THIS ORGANIZATION IS NOT
EXEMPT FROM TAXATION.”
Registration
requirements
for
commercial
fundraisers for charitable purposes, fundraising
counsel for charitable purposes, and commercial
coventurers are set forth in section 308.

Cal. Code of Regulations § 303
Filing Forms
All periodic written reports required to be filed under
the provisions of section 12586 of the Government
Code and section 301 of these regulations shall be
filed with the Registry of Charitable Trusts, and
include: (1) the Annual Registration Renewal Fee
Report (“RRF-1” 08/2017); and (2) Internal Revenue
Service Form 990, 990-EZ or 990-PF, as applicable.

154a
Cal. Code of Regulations § 305
Annual Filing of Reports
After the first periodic report is filed as required by
section 304 of these regulations, periodic written
reports shall thereafter be filed on an annual basis
unless specifically required or permitted to be filed on
other than an annual basis as set forth in these
regulations, or when filing has been suspended by the
Attorney General pursuant to Government Code
section 12586. The time for filing any periodic report
subsequent to the first periodic report shall be not
later than four (4) months and fifteen (15) days
following the close of each calendar or fiscal year
subsequent to the filing of the first report, but in no
event less than once annually, unless for good cause
extension of such annual filing has been granted by
the Attorney General, or otherwise excused. If the
Internal Revenue Service grants an extension to file
the Form 990, 990-PF or 990-EZ that extension will
be honored by the Registry of Charitable Trusts for
purposes of filing the Form 990, 990-PF or 990-EZ and
the Annual Registration Renewal Fee Report ( “RRF1”) with the Registry of Charitable Trusts. The RRF1 and the Form 990, 990-PF or 990-EZ shall be filed
simultaneously with the Registry of Charitable
Trusts.

155a
Cal. Code of Regulations § 306
Contents of Reports
(a) Periodic reports shall be submitted under oath and
shall set forth in detail all of the information required
by the applicable forms set forth in these regulations.
Incomplete or incorrect reports will not be accepted as
meeting the requirements of the law.
*****
(c) When requested by the Attorney General any
periodic report shall be supplemented to include such
additional information as the Attorney General
deems necessary to enable the Attorney General to
ascertain whether the corporation, trust or other
relationship is being properly administered.

156a
Cal. Code of Regulations § 310
Public Inspection of Charitable Trust Records
(a) The register, copies of instruments and the reports
filed with the Attorney General, except as provided in
subdivision (b) and pursuant to Government Code
section 12590, shall be open to public inspection at the
Registry of Charitable Trusts in the office of the
Attorney General, Sacramento, California, at such
reasonable times as the Attorney General may
determine. Such inspection shall at all times be
subject to the control and supervision of an employee
of the Office of the Attorney General.
(b) Donor information exempt from public inspection
pursuant to Internal Revenue Code section 6104
(d)(3)(A) shall be maintained as confidential by the
Attorney General and shall not be disclosed except as
follows:
(1) In a court or administrative proceeding brought
pursuant to the Attorney General's charitable trust
enforcement responsibilities; or
(2) In response to a search warrant.

157a
Cal. Code of Regulations § 315
Imposition of Penalty
(a) The Attorney General may assess a penalty
pursuant to Government Code section 12591.1, not to
exceed $1,000 for each act or omission that constitutes
a violation. To assess a penalty, the Attorney General
shall serve a written notice by certified mail that
states the basis of the violation and the amount of the
penalty.
*****
(3) If the act or omission that constitutes a violation
is ongoing, the notice may include a statement that
penalties shall continue to accrue at a rate of $100
per day for each day until the violation is corrected.
The notice shall advise the recipient how to correct
the violation and how to inform the Attorney
General that the violation has been corrected.
When the Attorney General determines that the
violation has been corrected, the Attorney General
shall issue a written notice identifying the
beginning and ending dates of the violation along
with the total amount of the penalty.
*****
Cal. Code of Regulations § 316
Suspension of Registration
(a) If the Attorney General assesses penalties under
section 315, the Attorney General may suspend the
registration of that person or entity in accordance
with the procedures set forth in section 999.6 et seq.
of Title 11 of the California Code of Regulations.
*****

158a
26 U.S.C. 6104
Publicity of information required from certain
exempt organizations and certain trusts
*****
(b)
Inspection
of
annual
returns.--The
information required to be furnished by sections 6033,
6034, and 6058, together with the names and
addresses of such organizations and trusts, shall be
made available to the public at such times and in such
places as the Secretary may prescribe. Nothing in this
subsection shall authorize the Secretary to disclose
the name or address of any contributor to any
organization or trust (other than a private
foundation, as defined in section 509(a) or a political
organization exempt from taxation under section 527)
which is required to furnish such information.
*****
(d) Public inspection of certain annual returns,
reports, applications for exemption, and notices
of status.-*****
(3) Exceptions from disclosure requirement.-(A) Nondisclosure of contributors, etc.--In the
case of an organization which is not a private
foundation (within the meaning of section 509(a))
or a political organization exempt from taxation
under section 527, paragraph (1) shall not require
the disclosure of the name or address of any
contributor to the organization.
*****

159a
26 U.S.C. 7213
Unauthorized disclosure of information
(a) Returns and return information.-(1) Federal employees and other persons.--It
shall be unlawful for any officer or employee of the
United States or any person described in section
6103(n) (or an officer or employee of any such
person), or any former officer or employee, willfully
to disclose to any person, except as authorized in
this title, any return or return information (as
defined in section 6103(b)). Any violation of this
paragraph shall be a felony punishable upon
conviction by a fine in any amount not exceeding
$5,000, or imprisonment of not more than 5 years,
or both, together with the costs of prosecution, and
if such offense is committed by any officer or
employee of the United States, he shall, in addition
to any other punishment, be dismissed from office
or discharged from employment upon conviction for
such offense.
*****
(3) Other persons.--It shall be unlawful for any
person to whom any return or return information
(as defined in section 6103(b)) is disclosed in a
manner unauthorized by this title thereafter
willfully to print or publish in any manner not
provided by law any such return or return
information. Any violation of this paragraph shall
be a felony punishable by a fine in any amount not
exceeding $5,000, or imprisonment of not more
than 5 years, or both, together with the costs of
prosecution.

160a
(4) Solicitation.--It shall be unlawful for any
person willfully to offer any item of material value
in exchange for any return or return information
(as defined in section 6103(b)) and to receive as a
result of such solicitation any such return or return
information. Any violation of this paragraph shall
be a felony punishable by a fine in any amount not
exceeding $5,000, or imprisonment of not more
than 5 years, or both, together with the costs of
prosecution.
*****
26 U.S.C. 7213A
Unauthorized inspection of returns or return
information
(a) Prohibitions.-(1) Federal employees and other persons.--It
shall be unlawful for-(A) any officer or employee of the United States,
or
(B) any person described in subsection (l)(18) or
(n) of section 6103 or an officer or employee of
any such person,
willfully to inspect, except as authorized in this
title, any return or return information.
(2) State and other employees.--It shall be
unlawful for any person (not described in
paragraph (1)) willfully to inspect, except as
authorized in this title, any return or return
information acquired by such person or another

161a
person under a provision of section 6103 referred to
in section 7213(a)(2) or under section 6104(c).
(b) Penalty.-(1) In general.--Any violation of subsection (a)
shall be punishable upon conviction by a fine in any
amount not exceeding $1,000, or imprisonment of
not more than 1 year, or both, together with the
costs of prosecution.
(2) Federal officers or employees.--An officer or
employee of the United States who is convicted of
any violation of subsection (a) shall, in addition to
any other punishment, be dismissed from office or
discharged from employment.
*****

26 C.F.R. 1.6033-2
Returns by exempt organizations (taxable
years beginning after December 31, 1969) and
returns by certain nonexempt organizations
(taxable years beginning after December 31,
1980)
(a) In general. * * *
(2)(ii) The information generally required to be
furnished by an organization exempt under section
501(a) is:
*****
(f) The total of the contributions, gifts, grants and
similar amounts received by it during the taxable
year, and the names and addresses of all persons

162a
who contributed, bequeathed, or devised $5,000 or
more (in money or other property) during the
taxable year. In the case of a private foundation (as
defined in section 509(a)), the names and addresses
of all persons who became substantial contributors
(as defined in section 507(d)(2)) during the taxable
year shall be furnished. In addition, for its first
taxable year beginning after December 31, 1969,
each private foundation shall furnish the names
and addresses of all persons who became
substantial contributors before such taxable year.
For special rules with respect to contributors and
donors, see subdivision (iii) of this subparagraph.
*****
(iii) Special rules. In providing the names and
addresses of contributors and donors under
subdivision (ii)(f) of this subparagraph:
(a) An organization described in section 501(c)(3)
which meets the 33 ⅓ percent-of-support test of the
regulations under section 170(b)(1)(A)(vi) (without
regard to whether such organization otherwise
qualifies as an organization described in section
170(b)(1)(A)) is required to provide the name and
address of a person who contributed, bequeathed,
or devised $5,000 or more during the year only if
his amount is in excess of 2 percent of the total
contributions, bequests and devises received by the
organization during the year.
*****

163a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: RCT@doj.ca.gov

March 6, 2012
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: IRS Form 990, Schedule B, Schedule of
Contributors
We have received the IRS Form 990, 990-EZ
or 990-PF submitted by the above-named
organization for filing with the Registry of
Charitable Trusts (Registry) for the fiscal year
ending 12/31/10. The filing is incomplete because the
copy of Schedule B, Schedule of Contributors, does
not include the names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990PF, including all attachments, filed with the
Registry must be identical to the document filed by
the organization with the Internal Revenue Service.
The Registry retains Schedule B as a confidential
record for IRS Form 990 and 990-EZ filers.

164a
Within 30 days of the date of this letter, please
submit a complete copy of Schedule B, Schedule of
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address
all correspondence to the undersigned.
Sincerely,
Kim Lewin
Office Technician
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

165a

THOMAS MORE
Law Center

Richard Thompson
President and Chief
Counsel
Admitted in Michigan

March 14, 2012
Kim Lewin, Office Technician
Registry of Charitable Trusts
1300 I Street
PO Box 903447
Sacramento, CA 94203-4470
Re: CT File Number 118144
Dear Ms. Lewin:
I am in receipt of your letter dated March 6, 2012
regarding Schedule B of the filed IRS 990 in the
calendar year 2010 for the Thomas More Law
Center.
To this date, Schedule B has never been included in
any previous filing for the State of California. I
respectfully request that you provide legal
documentation of this new requirement.
Thank you for your attention and response to this
matter.
Sincerely,

166a
THOMAS MORE LAW CENTER

Sherry J. Doran
Assistant to the President

167a

BUTZEL LONG
ATTORNEYS AND COUNSELORS
a professional corporation

Paul R. Fransway
734 248 3288
fransway@butzel.com

Stoneridge West Bldg.
41000 Woodward Ave.
Bloomfield Hills, MI 48304
T: 248 258 1616 F: 248 258 1439
Butzel.com

April 11, 2012
Via First Class Mail
Kim Lewin
Office Technician
Registry of Charitable Trusts
1300 I Street
P.O. Box 903477
Sacramento, CA 94203-4470
Re:

Thomas More Law Center
CT File Number 118144

Dear Ms. Lewin,
We have been retained by the Thomas More Law
Center of Ann Arbor, Michigan with regard to your
request for Schedule B of Form 990. Please
communicate with this office exclusively in the
future regarding this request and issue.
Please provide the legal authority you reply upon in
order to demand release of this schedule. As you
know, this schedule contains confidential

168a
information. As I am sure you are also aware, this
schedule has not been routinely demanded from
either the Thomas More Law Center or many of the
tax exempt organizations filing Form 990 with your
office.

PRF/ms
cc:

Thomas More Law Center

169a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: RCT@doj.ca.gov

April 19, 2013
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: IRS Form 990, Schedule B, Schedule of
Contributors
We have received the IRS Form 990, 990-EZ
or 990-PF submitted by the above-named
organization for filing with the Registry of
Charitable Trusts (Registry) for the fiscal year
ending 12/31/11. The filing is incomplete because the
copy of Schedule B, Schedule of Contributors, does
not include the names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990PF, including all attachments, filed with the
Registry must be identical to the document filed by
the organization with the Internal Revenue Service.
The Registry retains Schedule B as a confidential
record for IRS Form 990 and 990-EZ filers.

170a
Within 30 days of the date of this letter, please
submit a complete copy of Schedule B, Schedule of
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address
all correspondence to the undersigned.
Sincerely,

Office Technician
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

171a

THOMAS MORE
Law Center

Richard Thompson
President and Chief
Counsel
Admitted in Michigan

April 24, 2013
Susan, Office Technician
Registry of Charitable Trusts
1300 I Street
PO Box 903447
Sacramento, CA 94203-4470
Re: CT File Number 118144
Dear Susan:
I am in receipt of your letter dated April 19, 2013
regarding Schedule B of the filed IRS 990 in the
calendar year 2011 for the Thomas More Law
Center.
To this date, Schedule B has never been included in
any previous filing for the State of California.
Thomas More Law Center retained Paul R.
Fransway of Butzel Long, Attorneys and Counselors
to assist in this matter in 2012. To the best of my
knowledge, no response to his attached letter has
been received.

172a
As was previously requested, please communicate
with his office exclusively in the future regarding
this issue.
Sincerely,
THOMAS MORE LAW CENTER

Sherry J. Doran
Assistant to the President

173a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: RCT@doj.ca.gov

October 22, 2013
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: IRS Form 990, Schedule B, Schedule of
Contributors
We have received the IRS Form 990, 990-EZ
or 990-PF submitted by the above-named
organization for filing with the Registry of
Charitable Trusts (Registry) for the fiscal years
ending 12/31/2010, 12/31/2011, and 12/31/2012. The
filing is incomplete because the copy of Schedule B,
Schedule of Contributors, does not include the
names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990PF, including all attachments, filed with the
Registry must be identical to the document filed by
the organization with the Internal Revenue Service.

174a
The Registry retains Schedule B as a confidential
record for IRS Form 990 and 990-EZ filers.
Within 30 days of the date of this letter, please
submit a complete copy of Schedule B, Schedule of
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address
all correspondence to the undersigned.
Sincerely,

Office Technician
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

175a

THOMAS MORE
Law Center

Richard Thompson
President and Chief
Counsel
Admitted in Michigan

October 28, 2013
A.B., Office Technician
Registry of Charitable Trusts
1300 I Street
PO Box 903447
Sacramento, CA 94203-4470
Re: CT File Number 118144
Dear A.B.:
I am in receipt of your letter dated October 22, 2013
regarding Schedule B of the filed IRS 990 in the
calendar years 2010, 2011 and 2012 for the Thomas
More Law Center.
To this date, Schedule B has never been included in
any previous filing for the State of California.
Thomas More Law Center retained Paul R.
Fransway, Esq., to assist with this matter. Please
contact him at BUTZEL LONG, 350 South Main
Street, Suite 300, Ann Arbor, MI 48104. His phone
number is 734-995-3110.

176a
As was previously requested, please communicate
with his office exclusively in the future regarding
this issue.
Sincerely,
THOMAS MORE LAW CENTER

Sherry J. Doran
Assistant to the President

177a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: RCT@doj.ca.gov

April 23, 2014
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: SECOND NOTICE; IRS Form 990, Schedule B,
Schedule of Contributors
We have received the IRS Form 990, 990-EZ
or 990-PF submitted by the above-named
organization for filing with the Registry of
Charitable Trusts (Registry) for the fiscal year
ending 12/31/2010, 12/31/2011, and 12/31/2012. The
filing is incomplete because the copy of Schedule B,
Schedule of Contributors, does not include the
names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990PF, including all attachments, filed with the
Registry must be identical to the document filed by
the organization with the Internal Revenue Service.

178a
The Registry retains Schedule B as a confidential
record for IRS Form 990 and 990-EZ filers.
Within 30 days of the date of this letter, please
submit a complete copy of Schedule B, Schedule of
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address
all correspondence to the undersigned.
Sincerely,

Office Technician
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

179a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: RCT@doj.ca.gov

October 31, 2014
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: IRS Form 990, Schedule B, Schedule of
Contributors
We have received the IRS Form 990, 990-EZ
or 990-PF submitted by the above-named
organization for filing with the Registry of
Charitable Trusts (Registry) for the fiscal year
ending 12/31/2013, 12/31/2012, 12/31/2011, and
12/31/2010. The filing is incomplete because the copy
of Schedule B, Schedule of Contributors, does not
include the names and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990PF, including all attachments, filed with the
Registry must be identical to the document filed by
the organization with the Internal Revenue Service.

180a
The Registry retains Schedule B as a confidential
record for IRS Form 990 and 990-EZ filers.
Within 30 days of the date of this letter, please
submit a complete copy of Schedule B, Schedule of
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address
all correspondence to the undersigned.
Sincerely,
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

181a
KAMALA D. HARRIS
State of California
Attorney General
DEPARTMENT OF
JUSTICE
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Telephone: (916) 445-2021
Fax: (916) 445-3651
E-Mail Address: Delinquency@doj.ca.gov

March 24, 2015
THOMAS MORE LAW CENTER
24 FRANK LLOYD WRIGHT DR.
P.O. BOX 393
ANN ARBOR MI 48106

CT FILE
NUMBER:
118144

RE: WARNING OF ASSESSMENT OF
PENALTIES AND LATE FEES, AND
SUSPENSION OR REVOCATION OF
REGISTERED STATUS
The Registry of Charitable Trusts has not received
annual report(s) for the captioned organization, as
follows:
1. The IRS Form 990, 990-EZ or 990-PF submitted
for the fiscal years ending 12/31/10, 12/31/11,
12/31/12, & 12/31/13 do not contain the copy of
Schedule B, Schedule of Contributors, as
required. The copy of the IRS Form 990, 990-EZ
or 990-PF, including all attachments, filed with
the Registry must be identical to the document

182a
filed by the organization with the Internal
Revenue Service. The Registry retains Schedule
B as a confidential record for IRS Form 990 and
990-EZ filers.
Failure to timely file required reports violates
Government Code section 12586.
Unless the above-described report(s) are filed with
the Registry of Charitable Trusts within thirty (30)
days of the date of this letter, the following will
occur:
1. The California Franchise Tax Board will be
notified to disallow the tax exemption of the
above-named entity. The Franchise Tax Board
may revoke the organization’s tax exempt status
at which point the organization will be treated as
a taxable corporation (See Revenue and Taxation
Code section 23703) and may be subject to the
minimum tax penalty.
2. Late fees will be imposed by the Registry of
Charitable Trusts for each month or partial
month for which the report(s) are delinquent.
Directors, trustees, officers and return preparers
responsible for failure to timely file these reports
are also personally liable for payment of all late
fees.
PLEASE NOTE: Charitable assets cannot be
used to pay these avoidable costs. Accordingly,
directors, trustees, officers and return preparers
responsible for failure to timely file the abovedescribed report(s) are personally liable for

183a
payment of all penalties, interest and other costs
incurred to restore exempt status.
3. In accordance with the provisions of Government
Code section 12598, subdivision (e), the Attorney
General will suspend the registration of the
above-named entity.
If you believe the above described report(s) were
timely filed, they were not received by the
Registry and another copy must be filed within
thirty (30) days of the date of this letter. In
addition, if the address of the above-named
entity differs from that shown above, the current
address must be provided to the Registry prior to
or at the time the past-due reports are filed.
In order to avoid the above-described actions, please
send all delinquent reports to the address set forth
above, within thirty (30) days of the date of this
letter.
Thank you for your attention to this
correspondence.
Sincerely,
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

Detailed instructions and forms for filing can be
found on our website at http://ag.ca.gov/charities.

184a

350 S. MAIN STREET, SUITE 300
ANN ARBOR, MI 48104-2131
TELEPHONE: (734) 623-7075
FACSIMILE: (734) 623-1623
https://www.dickinsonwright.com
PAUL R. FRANSWAY
PFransway@dickinsonwright.com
(734) 623-1713
April 7, 2015
VIA E-MAIL (delinquency@doj.ca.gov) AND
OVERNIGHT DELIVERY
Kamala D. Harris
Attorney General
State of California
1300 I Street
P.O. Box 903447
Sacramento, CA 94203-4470
Re:

Thomas More Law Center
CT File Number: 118144

Dear Ms. Harris:
As we have advised your office on a number of
occasions, we represent the Thomas More Law Center
with regard to the issue of your requirement to file

185a
unredacted Schedule B as part of the filings of Annual
Reports to the Registry of Charitable Trusts.
We have been provided with a copy of the
Warning of Assessment of Penalties and Late Fees,
and Suspension or Revocation of Registered Status
based upon the assertion that failure to include
Schedule B is a violation of Cal. Government Code
section 12586 (enclosed). We are also aware of the
pendency of two matters that arose from an identical
demand made by your office where the courts involved
have issued a preliminary injunction ordering your
office not to take the adverse actions threatened for
failure to file Schedule B, those being Center for
Competitive Politics v. Kamala Harris, No. 2:14-cv006360-MCE-DAD (E.D. Cal. 2014) (Court of Appeals
Docket #14-15978) and Americans for Prosperity
Foundation v. Kamala Harris, No. 2:14-cv-09448-RFFM (C.D. Cal. 2014).
The cases cited above raise effectively identical
legal and factual issues, especially since the asserted
defects in filings and the proposed enforcement
actions are identical. My client is prepared to comply
with the law, but the unsettled nature of the law, the
significant Constitutional questions involved and the
irreparable harm that would occur if my client is
required to provide Schedule B in advance of
clarification of the law will force them to commence
litigation to seek a preliminary injunction unless
some understanding can be reached with your office.
While the Law Center is prepared to litigate those
issues if necessary, judicial economy and the proper
use of resources of both the State of California and our
client would appear to be best served by your office

186a
and our client reaching an agreement under which
your office would agree to defer any action on your
proposed enforcement action until there is a
resolution in the two matters cited where injunctions
have been issued. Inasmuch as your threatened
enforcement action required a response within 30
days, I ask that you contact me immediately so that
we can reach some resolution on this issue that would
obviate the need for yet another lawsuit raising
identical issues.
Thank you for your attention to this matter.

PRF:ms
Enclosure
cc:
Thomas More Law Center

